<html>
<title> - NOMINATIONS TO NASA, THE NATIONAL TRANSPORTATION SAFETY BOARD, THE FEDERAL MARITIME COMMISSION, AND THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 111-334]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-334
 
                   NOMINATIONS TO NASA, THE NATIONAL
                    TRANSPORTATION SAFETY BOARD, THE
                    FEDERAL MARITIME COMMISSION, AND
                    THE DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-285                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2009.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator DeMint......................................     6
    Prepared statement...........................................     6
Statement of Senator Hutchison...................................     8
    Prepared statement...........................................     9
Statement of Senator Nelson......................................    10
Statement of Senator Udall.......................................    49
Statement of Senator Lautenberg..................................    78

                               Witnesses

Hon. Barbara A. Mikulski, U.S. Senator from Maryland.............     2
Hon. Charles E. Schumer, U.S. Senator from New York..............     3
    Prepared statement...........................................     4
Hon. Lindsey Graham, U.S. Senator from South Carolina............     5
Hon. Edward G. Rendell, Governor of Pennsylvania.................     6
Hon. James E. Clyburn, U.S. Representative from South Carolina...    12
Hon. Sheila Jackson Lee, U.S. Representative from Texas..........    12
    Prepared statement...........................................    14
General Charles F. Bolden, Jr., Administrator-Designate, NASA....    17
    Prepared statement...........................................    19
    Biographical information.....................................    21
Lori B. Garver, Deputy Administrator-Designate, NASA.............    32
    Prepared statement...........................................    33
    Biographical information.....................................    35
Hon. Deborah A.P. Hersman, Chairman-Designate, National 
  Transportation Safety Board....................................    50
    Prepared statement...........................................    52
    Biographical information.....................................    53
Richard A. Lidinsky, Jr., Commissioner-Designate, Federal 
  Maritime Commission............................................    59
    Prepared statement...........................................    61
    Biographical information.....................................    61
Polly Trottenberg, Assistant Secretary-Designate, United States 
  Department of Transportation...................................    67
    Prepared statement...........................................    68
    Biographical information.....................................    69

                                Appendix

Statement of Hon. John D. Rockefeller IV.........................    83
Letter, dated June 30, 2009 to Hon. John D. Rockefeller IV, 
  Chairman, Senate Commerce, Science, and Transportation 
  Committee from Vivian S. Chu, Legislative Attorney--
  Congressional Research Service.................................    89
Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................    91
Letter, dated July 6, 2009 to Hon. John D. Rockefeller IV from 
  Alan Korn, Executive Director--Safe Kids USA...................    91
Letter, dated June 16, 2009 to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison from Jim Bell, President and Louis 
  Friedman, Executive Director--The Planetay Society.............    92
Letter, dated July 7, 2009 to Hon. John Rockefeller and Hon. Kay 
  Bailey Hutchison from Jill Ingrassia, Managing Director--
  Government Relations and Traffic Safety Advocacy; AAA..........    93
Letter, dated June 12, 2009 to Hon. John D. Rockefeller IV from 
  John Horsley, Executive Director--American Association of State 
  Highway and Transportation Officials...........................    94
Letter, dated June 10, 2009 to Hon. John D. Rockefeller IV from 
  Edward P. Faberman, Executive Director--Air Carrier Association 
  of America.....................................................    94
Letter, dated July 7, 2009 to Hon. Jay Rockefeller and Hon. Kay 
  Bailey Hutchison from D. Wayne Klotz, P.E., D.WRE, President--
  American Society of Civil Engineers............................    95
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to Richard Lidinsky..................................    95
Response to written questions submitted to Polly Trottenberg by:
    Hon. John D. Rockefeller IV..................................    96
    Hon. Tom Udall...............................................    97
    Hon. Kay Bailey Hutchison....................................    99
    Hon. John Thune..............................................   100
Response to written questions submitted to Hon. Deborah A.P. 
  Hersman by:
    Hon. John D. Rockefeller IV..................................   100
    Hon. Mark Warner.............................................   103
    Hon. Tom Udall...............................................   104
    Hon. Kay Bailey Hutchison....................................   105
    Hon. John Thune..............................................   106
Response to written questions submitted to General Charles F. 
  Bolden, Jr. and Lori B. Garver by:
    Hon. John D. Rockefeller IV..................................   107
    Hon. Tom Udall...............................................   109
    Hon. Mark Warner.............................................   111
Response to written question submitted to General Charles F. 
  Bolden, Jr. by:
    Hon. Kay Bailey Hutchison....................................   112
    Hon. John Thune..............................................   113
    Hon. Roger Wicker............................................   113
    Hon. David Vitter............................................   113
Response to written question submitted to Lori B. Garver by:
    Hon. Kay Bailey Hutchison....................................   115
    Hon. John Thune..............................................   116
    Hon. David Vitter............................................   116


                   NOMINATIONS TO NASA, THE NATIONAL
                    TRANSPORTATION SAFETY BOARD, THE
                    FEDERAL MARITIME COMMISSION AND
                    THE DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. There will be order, please. We have business 
to conduct. We have business to conduct, I would appreciate it 
if those----
    Voice. Tell Governor Rendell to stop talking.
    The Chairman. Yes.
    Voice. He's still shaking hands.
    The Chairman. Governor Rendell, you have already been re-
elected.
    Ladies and gentlemen, I would respectfully ask for order. 
Now that Senator Schumer seems to be calm, everybody else has 
calmed down with him.
    Our first panel, incidentally--if I could get silence. 
Would you do that? If we could have silence and somebody close 
the door, your job is to close the door.
    Thank you, that is fine, pictures are silent.
    Our first two witnesses--we have to be a little bit tricky 
here this afternoon--are Charles Bolden, to be the 
Administrator of NASA, and Lori Garver, to be the Deputy 
Administrator of NASA. And I have a long list of people who 
want to speak on their behalf. Some of those people have to 
leave rather quickly, so this will not be--this is interesting, 
Senator Schumer says he needs to speak right away.
    Senator Mikulski. I----
    Senator Schumer. I refer to my senior----
    The Chairman. Never have I seen, Governor Rendell, such 
calamity in this Committee before.
    Mr. Rendell. You are right.
    The Chairman. You can all three, talk at once if you want.
    Senator Mikulski. We do anyway.
    The Chairman. You go ahead, Senator Mikulski.

            STATEMENT OF HON. BARBARA A. MIKULSKI, 
                   U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Mr. Chairman and Members of the 
Committee, I am actually here to speak for Rick Lidinsky to be 
with the Federal Maritime Commission.
    I am actually here in favor of every one of your nominees, 
as someone who is the appropriator for the Commerce Justice 
Science Department, the appropriator for NASA, I am an 
enthusiastic supporter of Charles Bolden and Lori Garver, who I 
think bring a great deal of expertise as they had at NASA.
    I am also for Deborah Hersman, the Chair of the NTSB Board, 
who is already on the job and working accidents like Metro, who 
brings a great deal of experience.
    I do not know Polly Trottenberg, but I know I am really 
happy for her too.
    The Chairman. She will. Yes, she will.
    [Laughter.]
    Senator Mikulski. Today, it is really with enthusiasm that 
I come with Rick Lidinsky. Mr. Lidinsky brings a spirit of 
community service; he has worked in public service and in the 
private sector. His father worked for the City of Baltimore and 
was a deputy controller, and I was one of his mentees when I 
was on the Baltimore City Counsel.
    What is so great about Rick is he has the experience, 
knowledge, and can do, know-how to do the job. He actually 
knows the maritime industry, which will be very important for 
this job. And to have someone with his experience in the field 
of maritime, because for those of us who are coastal Senators, 
we know how the maritime field that has been worn and tattered.
    Rick has served in the U.S. Coast Guard; was on the staff 
of the House Merchant Marine Committee many years ago. He has 
been a high level expert in the U.S. Delegation to NATO, and he 
has a keen understanding of domestic and foreign maritime trade 
demurrages.
    He has my full support, as does Senator Cardin when--and he 
will be here.
    What he brings is honesty, integrity, know-how, a 
commitment to public service and experience with the private 
sector, having worked extensively with Seagirt; the public 
sector, having worked extensively with the Maryland Port 
Authority; and has experience internationally, both in his work 
in the private sector and as part of the U.S. Delegation, the 
Maritime Delegation to NATO.
    I think they are lucky to get him. He is at the point in 
his life that he could stay with the private sector and have a 
cushy job and a very good salary. But he really wants to serve 
America and make sure that our maritime industry is reenergized 
and refocused or to be ready for the 21st Century. Whether we 
sail the seas taking cargo or food aid to the coast of Africa 
or having the maritime ready to stand up to the pirates like 
they have already done.
    So I would really hope to confirm Rick for the maritime 
position. And while we are working with the ships that sail the 
sea, do not forget Charlie Bolden and Lori, who are in the 
field of the spaceships that will sail to different parts of 
the universe.
    Mr. Chairman, I think you have got a good team lined up 
here.
    The Chairman. Thank you, Senator Mikulski. And let me say, 
again, for those who must be bewildered because I introduced 
the two NASA witnesses and we are offering other witnesses, but 
there is a reason for this. And that is, that Senators have 
many meetings they have to go to. We had a vote, which kind of 
threw everything into turmoil.
    So I would ask two things: One, is for all of you who are 
here to understand that we are actually--we have two panels of 
witnesses who we are going to ask real live questions to. But 
it is a custom here that often they are introduced by people 
from their states or people who are particularly close to them.
    And then my second point would be, it would be my hope, 
that if I do the math here, if everybody speaks for 5 minutes, 
that would be about 40 minutes, but there will probably be a 
few more who want to speak. So I would hope for brevity, filled 
with passion.
    Senator Mikulski. That is what I tried to do.
    The Chairman. Senator Schumer, you are more famous for one 
than the other.
    [Laughter.]

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. And I will be brief.
    [Laughter.]
    Senator Schumer. Which might that be, Mr. Chair?
    The Chairman. It is not brevity.
    [Laughter.]
    Senator Schumer. Mr. Chairman, I ask unanimous consent my 
entire statement be read in the record so I might confound your 
expectation.
    The Chairman. It is so ordered.
    Senator Schumer. And I am here to introduce a former member 
of my staff, my Legislative Director for 7 years, a good 
friend, Polly Trottenberg, to be Assistant Secretary for 
Transportation at the Department of Transportation.
    Polly was an amazing staff person. She had talent, 
intellect, experience, and dedication. One of the best I have 
ever had. I first heard her name the week after I won the 
election against Senator D'Amato. Senator Moynihan summoned me, 
that would be the appropriate word, to his office and he said 
two things. He said, first, Chuck, I want to tell you I am not 
going to run for reelection because now there is a Democrat who 
can succeed me in the Senate seat.
    Then he said, second, I want to give you a gift, Polly 
Trottenberg, that is what he said. And it was one of the best 
gifts I have ever received, I think one of the best gifts that 
New York has ever received, and again to confound your 
expectations I ask unanimous consent the rest of my statement 
be put in the record.
    [The prepared statement of Senator Schumer follows:]

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York

    Good afternoon everyone and I want to thank you, Chairman 
Rockefeller, Ranking Member Hutchison, and all the Members of this 
Committee for allowing me to speak here today. I know we are pressed 
for time so I will try to keep things brief.
    I am so pleased to be able introduce a former member of my staff, 
and a good friend, Polly Trottenberg to this Committee.
    President Obama has nominated Polly to be Assistant Secretary for 
Transportation Policy at the Department of Transportation, and he 
simply could not have made a better choice.
    Polly possesses the rare combination of talent, intellect, 
experience, and dedication that made her not only an outstanding 
legislative director and public servant, but also a tireless advocate 
for the issue she cares so much about--the unquestionable need for 
affordable and efficient transportation as an environmental, social, 
and economic necessity.
    Before coming to Capitol Hill, Polly worked for the Port Authority 
of New York and New Jersey in the aviation department. There she helped 
to operate and manage three of the Nation's largest and most complex 
airports.
    She then joined Senator Daniel Patrick Moynihan's office where she 
championed his philosophy--a cause I fight to advance to this today--
that grand transportation and infrastructure projects are key to the 
economic future of New York, and to the entire country.
    Then, right after I was first elected to the Senate in 1998, 
Senator Moynihan, my mentor and then senior colleague, told me he was 
giving me a gift--Polly Trottenberg, to be my Legislative Director.
    I hired Polly immediately, and during her 7 years as leader of my 
legislative staff, Polly Trottenberg never let me down.
    Along with her expertise in a wide range of issues required to be 
an effective legislative director in the Senate, Polly always 
maintained her focus on advocating for and addressing the critical 
transportation needs for New York, and the country as a whole.
    She lead the negotiations to bring low-cost air service to long 
neglected upstate cities, and also worked day and night to secure $20 
billion in critical aid to help New York City recover and rebuild after 
the 9/11 attacks. Polly fought hard and always got the job done.
    Polly had a lot of big accomplishments, but it was her day in and 
day out commitment, drive, and intellect that truly set her apart.
    On Capitol Hill, Polly is known in every hall as a preeminent voice 
on transportation policy.
    After leaving my office, Polly went to work for my friend Senator 
Boxer. And, most recently, Polly was handpicked by Mayor Bloomberg, 
Governor Rendell, and Governor Schwarzenegger to be Executive Director 
of Building America's Future, their action committee which highlights 
the critical needs of America's transportation infrastructure.
    There, Polly fought for the cause she loves--promoting the urgent 
need for Congress and the President to rebuild America.
    From our highways, roads and bridges, from the rails to the skies, 
America's transportation infrastructure is in crisis.
    These are daunting challenges for any Administration or Department 
of Transportation to face, but President Obama has charted a new and 
ambitious course to not only tackle them, but also to expand and grow.
    Polly's unquestionable dedication, experience, and intelligence 
make her uniquely qualified to craft and implement these bold 
initiatives.
    I recommend her nomination wholeheartedly and without reservation, 
and urge her swift confirmation.
    I again thank Chairman Rockefeller and my colleagues for holding 
this hearing and look forward to working together to address this 
Nation's critical transportation needs.

    The Chairman. Senator Schumer I am overwhelmed and awed, as 
I always am.
    Senator Schumer. Is this a dream?
    The Chairman. I am faced by two famous people who I see on 
television a lot. Both whom I respect, one from each party. So 
to be bipartisan, I will start, Governor, with your permission, 
with Senator Graham.

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman.
    It is my honor today to be able to represent the State of 
South Carolina in something that we are all proud of. I know 
Senator DeMint is equally proud of the fact that our new NASA 
Administrator, God willing, and the wisdom of the Senate 
prevails here, is Major General Charles F. Bolden, Jr.
    The President has nominated someone extraordinarily 
talented and qualified for the job, and what we are most proud 
of is that it all began in Columbia, South Carolina in 1946. He 
grew up in Columbia, graduated from C.A. Johnson High School. 
Both his parents were educators in South Carolina. He is a 
member of our state Hall of Fame.
    The most impressive thing to me is he is a Marine and that 
is no easy thing to claim. He is a Marine aviator. He is a 
retired Major General who flew 100 combat missions in Southeast 
Asia during the Vietnam War.
    He is a Naval Academy graduate. He has flown four Space 
Shuttle missions. I think Senator Nelson can attest to his 
skills as a pilot. He became an astronaut in 1980.
    He has done a lot of things and one of the smartest things 
he ever did was marry his wife, Jackie. They have two wonderful 
children. One is a Lieutenant Colonel in the United States 
Marine Corps who flies in the F-18. Another is--his daughter is 
a medical doctor who is a plastic surgeon and she has come to 
the right place.
    [Laughter].
    And they have three beautiful grandchildren.
    And it is with a lot of pride that I am able to introduce 
this fine man who stays very involved in the state of South 
Carolina. He is an inspiration to all of the kids in the state 
who are thinking about a career in science.
    And the President of the United States has chosen very 
wisely. He is the right man, at the right time, with the right 
skill mix and character. And I know this Committee will be able 
to report on that, I think, unanimously, and let him get on 
with the work at hand.
    And one of his goals is to make sure that general aviation 
is well taken care of. But we inspire the next generation of 
young Americans to think big; and there is no better example of 
what you can do in America than what Major General Bolden has 
achieved.
    So with that, I highly recommend his nomination.
    The Chairman. Thank you, Senator Graham, very much.
    Governor, I am going to, once again, call on your good 
will. Senator DeMint represents South Carolina, obviously, and 
therefore both nominees, and needs to go anyway and wants to 
just make a statement at this time.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. I will keep it 
brief. I think Senator Graham and my staff Googled the same bio 
for General Bolden here, so I will not read it all again, but 
just to pick up on where Senator Graham left off.
    After missions in Vietnam and being an astronaut, he did 
not go off into retirement, he has continued to serve at the 
Naval Academy. He has served in Kuwait and very recent battles 
in coordinating the forces all over the world. And certainly he 
is a South Carolinian man. I am very proud to recommend to this 
Committee that he be confirmed as an Administrator of NASA.
    [The prepared statement of Senator DeMint follows:]

                Prepared Statement of Hon. Jim DeMint, 
                    U.S. Senator from South Carolina

    I am pleased to have the opportunity to introduce General Bolden to 
the Committee this afternoon. General Bolden is without question one of 
South Carolina's most distinguished citizens.
    Since his appointment to the Naval Academy in 1964, General Bolden 
has served our Nation with great distinction and has been a source of 
great pride for the state. It would take too long to read through all 
the decorations and honors that General Bolden has received, but I 
think a few are worth noting for the Committee.
    General Bolden began his career as a Marine Corps aviator and flew 
over 100 sorties in North and South Vietnam, Laos and Cambodia. After 
returning home, he continued to serve the Marine Corps as a recruiting 
officer and a test pilot. After serving the Marine Corps for a number 
of years, General Bolden was honored by being selected as a NASA 
astronaut.
    During his career with NASA, General Bolden flew four missions, 
logged nearly 700 hours in space and orbited the Earth over 400 times. 
During his first Discovery mission, he and his colleagues successfully 
deployed the Hubble Space Telescope. His second Discovery mission was 
the historic first joint U.S./Russian Space Shuttle mission with a 
Russian Cosmonaut as a crew member. Bolden also served in two 
leadership posts at NASA. Following the Challenger accident in 1986, he 
was named the Chief of the Safety Division at the Johnson Space Center, 
overseeing safety initiatives in the return-to-flight effort. From 
April 1992 to June 1993, General Bolden also served as Assistant Deputy 
Administrator for NASA.
    In 1994, he returned to service with the Marine Corps as the Deputy 
Commandant of Midshipmen at the Naval Academy. In July 1997, he was 
assigned as the Deputy Commanding General of Marine Forces in the 
Pacific and from February to June 1998, he served as Commanding General 
in support of Operation Desert Thunder in Kuwait. In July 1998, he was 
promoted to Major General and assumed his duties as the Deputy 
Commander, U.S. Forces, Japan. General Bolden then served as the 
Commanding General, 3rd Marine Aircraft Wing, from August 2000 until 
August 2002. Since his retirement he has served in a number of 
positions in the aerospace industry.
    I am proud to have the honor of introducing General Bolden this 
morning. He has shown throughout his career that he is willing and able 
to face any challenge that is thrown his way. As he leads NASA in the 
coming years, I am confident that he will bring the same credit to the 
agency that he has brought to South Carolina, the Marine Corps and the 
Nation.

    The Chairman. Thank you very much, Senator DeMint. Governor 
Rendell.

             STATEMENT OF HON. EDWARD G. RENDELL, 
                    GOVERNOR OF PENNSYLVANIA

    Mr. Rendell. Thank you, Senator. It is a pleasure to be 
here.
    I am also here to recommend to the Committee the 
confirmation of Polly Trottenberg. Senator Schumer, I think, 
had her first and then Senator Boxer had her working for her. 
And I did not know Polly until a year ago, when she became the 
Executive Director of Building America's Future, the 
organization that is dedicated to changing this Nation's 
infrastructure, that I chair with Governor Schwarzenegger and 
Mayor Bloomberg.
    I did not know Polly at the time we selected her. I have 
gotten to know her by working very closely with her over the 
last year. And Senator Schumer said Polly is awesome. She is 
smart. She is dedicated. She knows virtually everything about 
our current transportation policy but better yet, she has 
vision of where we need to go if we are going to have a first 
class, world class transportation infrastructure.
    Her knowledge that she brought from working with Senator 
Schumer and working with Senator Schumer and Senator Boxer was 
great. But in this last year, it has increased exponentially, 
as mine has, as we have talked to the European infrastructure 
bank people, as we have talked to the state officials and 
Governors about transportation issues, as we have talked to 
Wall Street about creative financing. How we have to go off-
budget if we are ever going to finance a real infrastructure 
program for this country.
    Polly knows all of that. She is smart. She is dedicated. 
She is fun to work with. She should be confirmed.
    The Chairman. Governor, that is high praise coming from 
you, sir. As in reading all of that, I, frankly, was not as 
aware of that organization as I should have been. And it is 
doing all the right things and all the right things that you 
have spent a lifetime working on, too. I am honored by your 
presence.
    Mr. Rendell. Thank you, Senator. May I be excused?
    The Chairman. Yes, you may.
    Let me just make a very brief statement here that somehow 
starts with the words, good morning. I would like to retract 
those and simply say that we have heard people talk about 
various nominees, because there are various nominees, all very 
important. But each one of these are very talented individuals. 
Each one of them are people that we are going to be running 
agencies which are complex, some of which are worn out or tired 
or under-funded or all of the above. There are some which may 
be working relatively well.
    We have a lot of ground to cover. I don't want to add to 
that, but I do want to--if you could close the door, please--I 
do want to just say one quick word about Charles Bolden, Jr.
    He does, as others will also point out, come to us after a 
distinguished 34-year military career. He retired from the U.S. 
Marine Corps in 2003 as the commanding general of the third 
wing, aircraft wing, and has flown four Space Shuttle missions. 
He has the unique distinction--I think that is the right word--
of flying with a member of our very own Committee; and that is 
Senator Bill Nelson, better known as Payload Specialist Nelson.
    I also want to take a moment to welcome back to the 
Committee a special friend of West Virginia, and that is 
Deborah Hersman. She spent several years on this side of the 
dais and returns for a second time. The NTSB is her destiny. We 
want that to be so. The Ranking Member knows a good deal about 
that.
    I am proud to say again that Ms. Hersman comes from very 
good roots. Both of Debbie's parents were born in Charleston, 
West Virginia, I wish I could say that, and raised in Spencer; 
and I believe are here.
    Voice. They are in the overflow room.
    The Chairman. OK.
    Her father was a very distinguished person in his own 
right, as a Brigadier General in the Air Force. As so, Ms. 
Hersman grew up always on the move, but West Virginia has 
always been her home.
    She had her start on the House side and later joined the 
Senate Commerce Committee for 5 years to lead the Senate 
Committee's Surface Transportation Subcommittee, handling all 
kinds of matters.
    In 2004, Ms. Hersman was confirmed as a Member of the NTSB, 
and has since led investigations and has been pointed out as 
being at the front of what happened in the D.C. Metro system 
tragedy; she has been on top of it from the very beginning.
    So, I could go on about her accomplishments, but I just 
wanted to close by saying that I am very pleased that the 
Committee can consider her nomination today.
    And most importantly to all of our remarkable nominees: Mr. 
Bolden, Ms. Garver, Ms. Trottenberg, Mr. Lidinsky, Ms. Hersman, 
thank you for joining us. Thank you for your willingness to 
join in something called public service, which I was brought up 
to feel was a very noble calling and I have always felt that 
way. And I think all of us here do.
    Making the country better is not only a matter of doing the 
most dramatic thing, it is a matter of doing things that keep 
Americans safe, keep them eating safe food, using safe products 
and tending to their welfare in all the ways, as well as savvy 
security and all kinds of things, climate change, which this 
committee is also involved with. We have an entire world that 
we deal with and are very proud about that.
    Are there any other opening statements, if not----
    Senator Hutchison. Oh, yes, Mr. Chairman.
    Senator Nelson. And me.
    The Chairman. I am sorry.
    And you, Bill.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, I will be very brief. I do 
have a longer opening statement, which I will put in the 
record. But basically, General Bolden has been well introduced 
by the South Carolina senators but, to be very honest, he is a 
Texas resident.
    [Laughter.]
    Senator Hutchison. And by gosh, I am going to claim him. 
And I am very proud that when he was with the astronaut corps, 
he and Jackie made their home in Clear Lake and he has been a 
huge community asset, and has thrown himself into the 
leadership of the community, and we really, really appreciate 
it.
    So, I would say that with all of the people who are 
claiming you, Mr. Bolden, that you could probably run for 
President some day. But seriously, I think that we have such a 
qualified nominee, and I will say Senator Nelson and I both 
worked together very hard for this very qualified nominee. I am 
excited about the opportunity to have someone so experienced in 
so many areas to take on this huge challenge that NASA faces 
right now.
    I am such a strong supporter of the space mission, of the 
science mission, of the technology mission, and also the 
security world that is played by NASA, all of the issues that 
General Bolden will face, and I know he is the right person to 
lead the agency at this very important time. So, I do want to 
introduce him and say that I strongly support him and look 
forward to working with him and for him to also someday return 
home to Texas.
    And then, second, I do want to say that I welcome Deborah 
Hersman who will chair the National Transportation Safety 
Board. And as the former Vice Chair myself, I know what an 
important role it plays in safety. And the independence of NTSB 
has really been a huge asset for transportation safety in our 
country since its inception. And I strongly support her 
nomination.
    Polly Trottenberg and Richard Lidinsky, also, I will 
support their nominations. I think they are very well 
qualified.
    So, Mr. Chairman, I would just say to the members of the 
Committee that I am working with Sherrod Brown on a bus safety 
piece of legislation that derives from some of the NTSB 
recommendations for bus safety. And I hope that this committee 
can move it through this year, because I think it would be very 
important to add to the safety laws of our country.
    Thank you, Mr. Chairman. I look forward to hearing from the 
witnesses and to the swift confirmation of all five.
    [The prepared statement of Senator Hutchison follows:]

           Prepared Statement of Hon. Kay Bailey Hutchison, 
                        U.S. Senator from Texas

    Thank you, Chairman Rockefeller, for holding this hearing.
    I am especially delighted that the Committee has before it the 
nominations of Charles Bolden and Lori Garver for confirmation as NASA 
Administrator and Deputy Administrator and I want to recognize General 
Bolden as a long-time resident of Houston, Texas. He and his wife, 
Jackie, chose to remain in Texas after he left the astronaut corps, and 
while I hate to lose their leadership and community involvement in 
Texas, I am delighted to have the opportunity to work with Gen. Bolden 
in this new position.
    Gen. Bolden has had a distinguished career, both in the United 
States military and with NASA. He retired from the U.S. Marine Corps in 
2003 after more than 34 years of service. In 1980, he was chosen by 
NASA to be an astronaut and flew four missions. He also served in a 
number of additional positions within NASA, including Astronaut Office 
Safety Officer, Technical Assistant to the Director of Flight Crew 
Operations, Special Assistant to the Director of the Johnson Space 
Center, and Chief of the Safety Division at Johnson Space Center.
    Gen. Bolden is a graduate of the U.S. Naval Academy, the University 
of Southern California, and the U.S. Naval Test Pilot School. His 
honors are many so I'll only list a few of them here: the Distinguished 
Flying Cross, the Defense Superior Service Medal, the Defense 
Meritorious Service Medal, the Air Medal, the Strike/Flight Medal, and 
the NASA Outstanding Leadership Medal. He also received honorary 
Doctorate degrees from a number of universities and was inducted into 
the U.S. Astronaut Hall of Fame in May 2006.
    We have waited anxiously for the Obama Administration to begin the 
formulation of its leadership team for space exploration, as NASA faces 
the challenge of defining its future path, not only in human 
spaceflight, but also in contributing, through all its missions and 
activities, to the long-term scientific excellence and economic well-
being of the Nation, and to our national security.
    I believe the Administration has chosen well with these nominees. 
They both have the depth and breadth of experience that I believe will 
be needed to keep NASA and our Nation moving forward and securing our 
leadership in space exploration.
    The challenges are many, and finding the solutions will not be 
easy. We are now awaiting the findings and recommendations of the Human 
Space Flight Review panel, chaired by my good friend Norm Augustine, 
which will hopefully enable both the Administration to focus on what is 
truly needed for the Nation to sustain its ability to fully explore and 
fully utilize the environment of space.
    I have a great deal of concern and questions about the gap we face 
in the country's ability to send astronauts--and scientists--to the 
International Space Station. We have been pressing to reduce or 
eliminate this gap for the past 4 years in this Committee, and it only 
seems to get longer. It is my hope that the Augustine review committee 
will provide us with viable options to address this critical issue.
    For too long now, NASA has worked to accomplish its demanding 
mission and responsibilities with insufficient resources. While we have 
consistently authorized the necessary funds, in the end, they have not 
been made available to NASA. And I believe we are now paying the price 
for that neglect.
    Today, we face extraordinarily difficult economic times, and many 
seem to think that space exploration is a luxury we might be able to do 
without, for a while, until we are financially ``whole'' again. What 
they forget is that we don't SPEND money on NASA as much as we INVEST 
it in our Nation's future economic viability. In my view, this Nation 
cannot afford NOT to invest in space exploration, and across the entire 
scope of NASA's activities. It is the kind of long-term investment that 
helps to ensure that we never have to face another economic crisis.
    In the past, space exploration has been a source of inspiration 
that has led young people and students into the very fields of 
scientific and technological inquiry that are so greatly challenged 
today. We have an excellent reminder of that this month, as we 
celebrate the 40th anniversary of the first Lunar landing.
    One of the greatest challenges facing our two NASA nominees today 
will be to find a way to remind Americans of that heritage of 
excellence, and to renew NASA's ability to excite and attract a new 
generation of scientists, technicians and engineers.
    I would also like to welcome our other nominees: Ms. Deborah 
Hersman has been nominated to chair the National Transportation Safety 
Board (NTSB); Ms. Polly Trottenberg has been nominated to serve as 
Assistant Secretary for Transportation Policy at DOT; and Mr. Richard 
Lidinsky has been nominated to the Federal Maritime Commission.
    As a former NTSB Vice-Chair, I understand well the important role 
the Board plays in promoting our Nation's transportation safety. There 
are several important transportation accident investigations ongoing at 
the Board--including the investigation of the recent deadly METRO 
accident.
    The Board's work helps make our transportation system safer. I hope 
that the Congress will enact comprehensive bus safety legislation this 
year that incorporates many of the Board's findings based on their 
investigations into a number of tragic bus accidents. I have sponsored 
such legislation with Senator Brown, and hope the Chairman will agree 
to make bus safety a priority of the Committee.
    I thank all of the witnesses for appearing today and look forward 
to working with them upon their confirmation.

    The Chairman. Thank you, Senator Hutchison.
    And Senator Nelson, you certainly have the right to say 
something here, I would think.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Charlie Bolden and Lori Garver come as a team, Mr. 
Chairman. Lori has been in aerospace and space activities all 
of her adult life. She has been one of the top managers in NASA 
for a period of 5 years. And I want you to know that she was 
very responsible and in a key position to advise you and my 
candidate this past campaign season in the fleshing out of a 
space policy which ended up being one of the most detailed 
space policies ever by a Presidential candidate. And so, Lori 
is going to end up being an extremely important part of the 
team for Charlie as his deputy.
    Having known Charlie for a quarter of a century, I can just 
add to what all has been said here. That if anyone represents a 
characteristic that we admire, that being the characteristic of 
an overcomer, Charlie is that.
    Charlie could not get an appointment to Annapolis in South 
Carolina in 1964 because of the politics of segregation. 
Fortunately, there was someone detailed from the Administration 
to find promising minorities all around the country. And one 
day I met this retired gentleman who came up and he said, you 
do not know me, but we have someone in common, and he told me 
the story.
    That he found Charlie Bolden in Columbia, South Carolina, 
who wanted to go to Annapolis. And he arranged for a 
Congressman in Chicago to appoint him. And Charlie got to 
Annapolis and he was promptly elected President of the freshman 
class.
    Another example of him being an overcomer that this 
Committee needs to understand the character of the man, is that 
the Marine Corps was not swift on promoting to general officer 
a marine astronaut, and it had never been so. And so they told 
Charlie that as a Brig Colonel, he was passed over for 
consideration of Brigadier General.
    And Charlie allowed as how, what he wanted to do was, he 
wanted to go to Annapolis as a Marine Colonel, as the number 
two Deputy Superintendent because he wanted to give back to the 
institution that gave so much to him. Of course, once that 
happened, the Marine Corps recognized that they had made a 
mistake and they promoted Charlie to General.
    The third example that I will give of being an overcomer 
and why we have four of his former crewmates on other missions 
that are here, Jan Davis, Kym Ryder and Brian Duffy and Kathy 
Sullivan--if you all will stand up and be recognized, welcome--
--
    [Applause.]
    Senator Nelson.--was the exceptional technological 
confidence that Charlie has when he--what brought him to the 
position. And I can only testify as to what I observed after 
five tries and finally with the dubious distinction of being 
the most delayed and scrubbed mission in American space 
history, we finally got off the pad and had just cleared the 
launch tower and I heard Charlie's voice on the intercom 
saying, ``we have a problem, we have a helium leak.''
    He is sitting in the right seat with all of the systems at 
his command, was all over those switches and got the helium 
leak stopped. As it turned out, it was actually a sensor 
problem; of course, at the time, we did not know that. Had he 
not gotten that helium leak under control, we would have been 
in a very dangerous situation.
    I think that has been, and I will conclude with this, why 
one of those astronauts that I just introduced back there, 
another pilot astronaut who was not only in the NASA jargon, 
pilot, as Charlie, but also in the NASA jargon, commander, as 
well as Charlie, as well, and that is Brian Duffy, told me 
unsolicited before the President nominated Charlie, he said, 
``I have learned more about leadership from Charlie Bolden than 
any other person in my life; and he says that includes my 20 
years in the Air Force and my 12 years at NASA.''
    I think that is a pretty high recommendation for the next 
leader of NASA.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson, very much.
    Just a few comments. We have been joined happily by----
    Voice. Mr. Chairman, could I----
    The Chairman. No, hold on just a second, please. I did not 
see who came in. I knew that Sheila Jackson Lee has come in, 
but also who has come in is somebody with a reasonably high 
rank around here----
    Senator Udall. Mr. Chairman, Representative Clyburn.
    The Chairman. You bailed me out too early.
    Representative Clyburn, we are most happy to have you here, 
very honored to have you here. We will welcome whatever you 
have to say.

              STATEMENT OF HON. JAMES E. CLYBURN, 
            U.S. REPRESENTATIVE FROM SOUTH CAROLINA

    Mr. Clyburn. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the Committee, my former 
colleague, my colleague, thank you so much for allowing me to 
say a few words on behalf of my homeboy.
    [Laughter.]
    Mr. Clyburn. Charlie Bolden is a very, very special person 
to all of us in South Carolina. I just happen to represent a 
Congressional District that has had three astronauts come from 
it. That is one of the things you will hear about in the 6th 
Congressional District of South Carolina. You will often hear 
other things about this district, but one of those.
    Charles Bolden's father was a very good friend; mother, a 
librarian, like my wife, they were great friends. I can say 
that nothing makes me more proud of being a South Carolinian, 
being a Representative of the 6th Congressional District, than 
to be able to come here today and say how proud I am of one of 
our favorite sons, Charles Bolden.
    Thank you so much for allowing me to say a few words. And 
if I may, I will sit for a few moments and get back to a little 
listening session on health care reform. Thank you.
    [Laughter.]
    The Chairman. Thank you, sir, very, very much. We are very 
honored by that.
    Sheila Jackson Lee?

             STATEMENT OF HON. SHEILA JACKSON LEE, 
                 U.S. REPRESENTATIVE FROM TEXAS

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I know 
ranks, so thank you very much. I was intending to yield myself 
to the Majority Whip of the House, and we are grateful for his 
presence here.
    To all of the Members of the Committee, Chairman 
Rockefeller, and certainly my senator, Senator Hutchison, who I 
know is very attentive to these issues, Senator Martinez, 
Senator Udall, it is a pleasure to see you, and, of course, 
Senator Nelson, we have traveled this road before.
    I know that you are about to proceed with something very 
important, so let me just try to summarize and ask unanimous 
consent that my entire statement be able to be submitted into 
the record.
    The Chairman. So ordered.
    Ms. Jackson Lee. I want to congratulate President Obama for 
listening and now accepting a bold mission for NASA. And 
interestingly enough, we have selected a Bolden, someone who 
can manage bold missions. He is especially particular and 
unique, because he comes from South Carolina.
    It seems that South Carolinians by way of being astronauts, 
we have astronaut McNair, who we lost tragically, come to be 
neighbors in Houston. And, so I have been a neighbor of this 
distinguished nominee, and his wife for a number of years, also 
a twelve-year member of the House Science Committee. And, I 
have watched as we have coddled NASA, as we have seen the space 
station coming to fruition, starting first in the early years 
where we were having difficulties with big things like Russia 
making their payments and putting the markers together. And, 
here we have something the size of a football field.
    We need bold leadership, and I am grateful that this bold 
leadership, the same kind that President Kennedy announced some 
almost 50 years ago, about what America stood for, and the 
value of science and the value of exploring space. I think that 
we are blessed to have a graduate of the Naval Academy and a 
Marine who understands boldness.
    We also have someone, Mr. Chairman, who can convey to the 
American people the story of NASA. NASA needs friends. We have 
advocates on the floor of the Senate, and on the floor of the 
House, but we need friends. We need those who can convey in the 
21st Century as we did at the turn of the last century when we 
advocated that NASA brought about innovative research and 
health care, such as HIV/AIDS, stroke, and heart disease. We 
use that, and we were able to convince a few of our friends it 
was important.
    Now, we have new challenges. A very clear recognition of 
the economy that faces us; a clear recognition that we have 
done that before. We have done the research for stroke and 
heart disease. We are learning about how people commit in 
space.
    Now we need to talk about the cutting edge of science and 
creating jobs. And I believe that someone who has been through 
the ranks, being an astronaut, seeing the toughness of what it 
requires, having the military experience is the right kind of 
leadership.
    So, I want to just simply acknowledge that the nominee that 
became an astronaut candidate by NASA in 1980. He is a veteran 
of four space flights. I can name them all, but I know that he 
knows he was in space in 1986 and 1990, and 1992, March, 1992, 
April 2, 1992 and 1994. That means that he has seen the good 
side and the bad side.
    One of the issues that I think is important is the 
collaboration between human space exploration and international 
space station. It is good to have someone who values, and has 
seen and recognizes the coordination, and the collaboration 
between those two entities.
    Mr. Chairman, I happen to be one of those who supported 
keeping the human space flight or the Shuttle going for a 
little bit longer. I know we are moving to the CEV. But, with 
that in mind, I think that we have a nominee that would bring 
all these desperate viewpoints to bear. And, we have someone 
who can call upon Members of Congress as well as the American 
people.
    Mr. Chairman, I believe that, and Members, that he is an 
outstanding nominee. Again, he would be a friend to this 
wonderful service, because those who are in the service of NASA 
are obviously in the service of their country. Then, he would 
bring the kind of role modeling and be able to bring people 
together that are so often attributed and to the hard knocks of 
being a Marine.
    It is my pleasure as a member from Houston, Texas, where he 
lived with his family, to be able to say to you that without 
reservation, we have an outstanding nominee ready for the 21st 
Century, and prepared to bring us together, and to carry the 
banner, and provide NASA with the stair steps that would move 
it up the ladder of success.
    And, I thank you for allowing me this brief moment to share 
my very, I hope, succinct thoughts about the greatness of the 
future that we have.
    [The prepared statement of Ms. Jackson Lee follows:]

            Prepared Statement of Hon. Sheila Jackson Lee, 
             U.S. Representative from Texas, 18th District

    To Chairman Rockefeller, to my dear friend and fellow Texan Ranking 
Member Hutchison, and to the other distinguished Members of the 
Commerce, Science, and Transportation Committee, I appreciate this 
opportunity to testify in support of retired Marine Corps Major General 
Charles F. Bolden, Jr.'s confirmation as NASA Administrator.
    I applaud President Obama for his bold selection of General Bolden 
as NASA's Administrator. Nearly 50 years ago, at a time of uncertainty 
at home and abroad, similar to now, another American president, made a 
similar bold step in a speech to Congress. On May 25, 1961, President 
John F. Kennedy proposed bold new steps in the exploration of space. He 
calls on Congress to pursue an ``even more exciting and ambitious 
exploration of space, perhaps beyond the moon, perhaps to the very end 
of the solar system itself.'' The President further states that ``I 
believe that this Nation should commit itself to achieving the goal, 
before this decade is out, of landing a man on the moon and returning 
him safely to Earth.'' President Kennedy's speech came just 3 weeks 
after Mercury astronaut, Alan B. Shepard, became the first American in 
space.
    In 1961, a young Charles Bolden, Jr., found himself in a precarious 
position to answer the challenge of President Kennedy. You see, General 
Bolden was a 14 year old living in still-segregated Columbia, South 
Carolina. At the time of Kennedy's speech, General Bolden was a tenth 
grade student at C. A. Johnson High School in Columbia, where his 
father was the head football coach.
    Yet with the backdrop of these challenges, General Bolden believed 
as President Obama, that America is a place where all things are 
possible. Thus, notwithstanding the barriers confronting him, General 
Bolden accepted President Kennedy's challenge that spring of 1961. 
Three years later, General Bolden took the bold step of seeking an 
appointment to the United States Navel Academy. In the spring of 1964, 
during the height of the civil rights movement demonstrations, General 
Bolden chose another form of protest. He joined just a handful of other 
Black plebes at Annapolis. And despite this lonely position, he 
continued to excel. At Annapolis, Bolden pursued one of the most 
rigorous majors, Electrical Engineering. General Bolden graduated from 
the U.S. Naval Academy in 1968, nearly 20 years after the first Black 
to graduate from that institution, Wesley Brown.
    Upon graduation from the Naval Academy, Bolden accepted a 
commission as a Second Lieutenant in the U.S. Marine Corps. While in 
flight school, General Bolden was further inspired by the feat of a 
former Navy aviator, Neil Armstrong, who along with Buzz Aldrin, an Air 
Force man, fulfilled President Kennedy's challenge by landing their 
Apollo 11's lunar module Eagle on the moon.
    This feat kept General Bolden motivated and after 2 years of flight 
training, he was designated a naval aviator in May 1970. He flew more 
than 100 sorties into North and South Vietnam, Laos, and Cambodia, in 
the A-6A Intruder between June 1972 and June 1973. Upon returning to 
the United States, General Bolden began a two-year tour as a Marine 
Corps selection officer and recruiting officer in Los Angeles, followed 
by 3 years at the Marine Corps Air Station, El Toro, California. During 
his free time, General Bolden returned to school to earn a Masters 
degree in Systems Management from the University of Southern California 
in 1977.
    In June 1979, he graduated from the U.S. Naval Test Pilot School at 
Patuxent River, Maryland, and subsequently served as an ordnance test 
pilot and flew numerous test projects in the A-6E, EA-6B, and A-7C/E 
airplanes. As a pilot, he has logged more than 6,000 hours flying time.
    General Bolden was selected as an astronaut candidate by NASA in 
1980, and became an astronaut in August 1981. A veteran of four space 
flights, he has logged more than 680 hours in space, including 444 
orbits of the Earth. General Bolden served as pilot on STS-61C (Space 
Shuttle Columbia, January 12-18, 1986) and STS-31 (Space Shuttle 
Discovery, April 24-29, 1990), and was the mission commander on STS-45 
(Space Shuttle Atlantis, March 24, 1992-April 2, 1992), and STS-60 
(Space Shuttle Discovery, February 3-11, 1994). During his first 
Discovery mission, General Bolden and his colleagues successfully 
deployed the Hubble Space Telescope while orbiting the Earth from a 
record setting altitude of 400 miles. The second Discovery mission was 
the historic first joint U.S./Russian Space Shuttle mission with a 
Russian Cosmonaut as a crew member. General Bolden also held two 
administrative posts at NASA during these years. Following the 
Challenger accident in 1986, he was named the Chief of the Safety 
Division at the Johnson Space Center, overseeing safety initiatives in 
the return-to-flight effort. From April 1992 to June 1993, General 
Bolden served as Assistant Deputy Administrator for NASA.
    In 1994, General Bolden returned to active duty in the U.S. Marine 
Corps as the Deputy Commandant of Midshipmen at the Naval Academy, 
Annapolis, Maryland. In July 1997, he was assigned as the Deputy 
Commanding General, I MEF, Marine Forces, Pacific. From February to 
June 1998, he served as Commanding General, I MEF (FWD) in support of 
Operation Desert Thunder in Kuwait. In July 1998, he was promoted to 
his final rank of Major General and assumed his duties as the Deputy 
Commander, U.S. Forces, Japan. General Bolden then served as the 
Commanding General, 3rd Marine Aircraft Wing, serving from August 9, 
2000 until August 2002. He retired in August 2004.
    Following retirement, General Bolden became active in the corporate 
sector. Since 2004, he has been the owner and CEO of Jack and Panther 
LLC, a privately-held military and aerospace consulting firm in my 
district of Houston, Texas. He also serves on the corporate boards of 
Marathon Oil (2003-2009), helicopter services provider Bristow Group, 
Inc., and BlueCross BlueShield of South Carolina. He was Senior VP of 
TechTrans International, which provides Russian translation, 
interpretation, language training and logistics services to NASA, from 
2003 to 2005; President and Chief Operating Officer of American PureTex 
Water Corporation; and served on the corporate board of GenCorp, an 
aerospace and defense contractor.
    He also serves on the NASA Aerospace Safety Advisory Panel, the 
board of the Military Child Education Coalition, a private nonprofit 
focused on supporting educational opportunities for the children of 
military families, and the Board of Trustees of the University of 
Southern California. General Bolden is a family man. He and his wife, 
Alexis (Jackie), have two children and three grandchildren.
    Many of us in Congress have been calling on the Administration to 
articulate a bold mission for NASA. It seems that the President is 
answering that call with General Bolden's nomination. For the record, I 
wish to state my wholehearted support his vision for going back to the 
moon, and from there to worlds beyond. Furthermore, I believe that 
General Bolden is the right man to lead us there. As the first NASA 
Astronaut to lead the space agency, he understands NASA's mission, its 
operations, and its most valuable resource, its personnel. Moreover, 
having a background of achieving in the face of obstacles, General 
Bolden is well positioned to help NASA define its role in the midst of 
our Nation's fiscal crisis.
    Mr. Chairman, I believe you have an outstanding nominee before you. 
His selection as NASA Administrator has the potential of inspiring a 
new generation of young people. I encourage you and your colleagues to 
confirm General Bolden in short order and commit all I can to assist 
you in this process.
    Thank you Mr. Chairman and I yield back the balance of my time.

    The Chairman. Thank you Congresswoman, very much.
    We now actually are going to move on to the nominees. So, I 
would like to have Charlie Bolden and Lori Garver both come and 
sit at the table.
    And people have been doing a lot of introducing and 
congratulating. It is disruptive, both for Senator Nelson and 
myself. We both have a sort of shootout at the OK Corral on 
health care at 4 o'clock. And, so we will do the best we can, 
and hope that Senator Nelson can chair for a bit, and then 
Senator Udall can chair for a bit, and ask the questions.
    But, this is, you know, you want people to introduce, it is 
the human thing to do, but, it really disrupts a decent 
hearing.
    So, let me start out with a question. Obviously, your 
backgrounds are fantastic. And, there is no question that you 
are the right people for the job. So, we are at the 40th 
anniversary of the Apollo moon landing. And, I just want to 
make it very clear from this senator's point of view that NASA 
is not what it was.
    And, I actually came onto this Committee, and I think I had 
a conversation with Senator Nelson once in which I questioned, 
did NASA really have a future? People refer to what has been 
done. Very few refer to what might be done. In the meantime, 
you have all kinds of auditing problems, all kinds of problems. 
And NASA is not attracting the kind of people these days they 
are used to, I am told. I may be wrong. You can put me down on 
that if you want.
    But, if we are going to do NASA, it has got to be done 
right. And, one of the things you discover on this Committee is 
you can find at the bottom of the ocean, three miles down, many 
of the things that you can find are hundreds of miles up in the 
air. So, innovation is not simply to be found in one part of 
our hemisphere, wherever it is that we live in.
    So, I am going to ask you, sir, just a very general 
question, but it is a very heartfelt one on my part. I need 
bolstering on NASA personally. I need bolstering. So, I wonder 
what specific proposals, if to the extent that you can agree 
with me, or whether you do or not, what do you propose to do, 
each of you, starting with you, Mr. Bolden, to take what was 
the inspiration of a nation which is not today the inspiration 
of the Nation? It is not, and, it needs to be in order to hold 
its place, and to get proper funding. It has drifted. I think 
that is indisputable.
    So, what do you plan to do to change this posture? That is, 
if I am right or if you agree with me, or if you do not, say 
so.
    Mr. Bolden. Mr. Chairman, I do not disagree with you, but 
may I ask a point of order, and that is, if I may be allowed to 
offer some opening remarks, I think I will cover some of the 
questions that you ask.
    The Chairman. You should do that.
    Mr. Bolden. I will answer directly or I can offer opening 
remarks.
    The Chairman. OK.
    Mr. Bolden. Would that be OK for you?
    The Chairman. I agree with that.

          STATEMENT OF GENERAL CHARLES F. BOLDEN, JR.,

                 ADMINISTRATOR-DESIGNATE, NASA

    Mr. Bolden. Mr. Chairman and Ranking Member Hutchison, I do 
thank you very much for allowing Lori and me to come before 
this Committee today. We feel that it is incredibly important.
    I would be remiss if I did not thank the numerous people 
who have spoken on our behalf so far, and I tried to write them 
down so I hope I do not forget anyone. Senator DeMint and 
Senator Lindsey Graham from my home state, my original home 
state of South Carolina.
    Senators Nelson and Hutchison go without saying. They are 
long-term supporters of the space program in and of its people. 
And I want to talk a bit about people as we go through this. 
And for that, Lori and I are both deeply appreciative to the 
two of you for all that you have done.
    And I do want to thank my very good family friend, 
Congressman Clyburn and friend, Congresswoman Sheila Jackson 
Lee for the comments that they made.
    I also would like to take this opportunity to acknowledge 
that I do have some family here. We have a bus that came up 
from South Carolina, and if I did not comment about them, I 
would be in deep trouble. I am not going to ask them to stand. 
They are in the overflow room.
    But, I do have family members with me, my wife, Jackie is 
here. Well, she was. She is behind me. One of our kids, we are 
very proud of all of our children, but Dr. Kelly Bolden is 
here, and someone mentioned her earlier. My brother, Warren and 
his wife, Wendy, my brother-in-law, and sister-in-law, Gerald 
and Irene Kelly, and the matriarch of my family now, my aunt 
Alyce Martin, who is from Opalocka, Florida, and one to whom we 
all seek counsel, the very wise matriarch of the Bolden family 
now. So I thank all of them for being here.
    I also would like to call special attention to some other 
people, but they are members of the Buffalo Soldiers who are 
probably in the overflow room, I think. I would be remiss if I 
did not comment that they have been role models--they are 
here--role models for me, because they represent the very best 
of the early part of this Nation, dating way back to the pre-
Civil War time and the Revolution.
    And also a very special person, Mr. Ed Dwight who, while 
not actually becoming an astronaut, was a trailblazer in an 
attempt to break the color barrier in America's astronaut 
program. He was at one time, a candidate.
    Finally, a person who has been an early role model of mine, 
Lieutenant General Frank Peterson, the first Black Officer in 
the Marine Corps, the first Black aviator in the Marine Corps, 
the first Black squadron commander, and the first Black general 
officer in the Marine Corps. He is also here with us.
    So I thank all of them.
    I want to extend my special thanks to Christopher Scolese. 
Chris has been the Acting Administrator of NASA since mid-
January. He represents the very best of NASA's career civil 
servant workforce. For his dedicated leadership and service, I 
am greatly appreciative.
    As has already been said, I was born and raised in 
Columbia, South Carolina, the segregated South, to Charles and 
Ethel Bolden, public school teachers who, despite very long 
hours and lower wages than their white counterparts, loved 
their work. They made the hard choice to stay in public 
education and to inspire thousands of black students to take 
their places in national, state, and local leadership. They 
were my consummate role models.
    For more than 34 years, I was able to serve as an active 
duty Marine, and I cannot help but tell you that I witnessed 
the magnificent power of diverse teams of military men and 
women respond to worldwide crisis whenever called.
    As a NASA Shuttle astronaut floating in the windows of the 
Space Shuttle, I saw the beauty of the Middle East appearing 
peaceful and serene, in spite of its earthly reality of 
violence in that region. In contrast, I viewed with sadness, 
the majestic Amazon rainforest, considered a model of serenity 
and peace, but devastated by deforestation.
    I dream of a day that any American can launch into space 
and see the magnificence and grandeur of our home planet, 
Earth, as I have been blessed to do.
    I remember the violent days of the 1960s Civil Rights 
Movement, the war in Vietnam, anti-war demonstrations on our 
streets, turmoil and division in our Nation not seen since the 
Civil War. Yet, with shared national vision inspired by 
President John Fitzgerald Kennedy, we put men on the Moon. The 
world united in celebrating this achievement, and the U.S. 
assumed uncontested technological leadership in the world.
    All this we accomplished in times as difficult as today if 
not more so, because beginning in 1961, a young President and a 
bold Congress inspired the American people to have courage to 
take action in areas previously unthinkable.
    Today we have to choose. Either we can invest in building 
upon our hard-earned world technological leadership or we can 
abandon this commitment, ceding it to other nations who are 
working diligently to push the frontiers of space. If we choose 
to lead, we must earn it by committing to confront the 
following four challenges:
    First, build upon our investment in the International Space 
Station, a unique national laboratory, and a bridge to human 
exploration beyond low-Earth orbit, as we safely and 
efficiently fly out the Shuttle and end the Shuttle era.
    Second, accelerate with a sense of urgency the development 
of our next generation launch systems to enable expansion of 
human exploration.
    Third, enhance NASA's capability and organic expertise to 
provide credible scientific, technological, and engineering 
leadership to help us better understand our Earth's 
environment.
    And finally, inspire a rising generation of boys and girls 
to become men and women committed to increasing knowledge in 
the fields of science, technology, engineering and math by 
making NASA and its programs relevant to the American public.
    Today we face a crisis of opportunity. I ask each of you to 
join with President Obama, me and the NASA team that I hope to 
lead with your confirmation in partnership with Lori Garver in 
turning these challenges into opportunities. Thank you for this 
opportunity to appear before this Committee. I am excited and 
energized about the possibility of taking on these challenges, 
if confirmed, and I look forward to responding to your 
questions.
    [The prepared statement and biographical information of Mr. 
Bolden follows:]

         Prepared Statement of General Charles F. Bolden, Jr., 
                     Administrator-Designate, NASA

    Chairman Rockefeller, Ranking Member Hutchison, and Members of the 
Committee, it is an honor to come before you today as the President's 
nominee for Administrator of the National Aeronautics and Space 
Administration (NASA). Thank you for your time in considering my 
nomination as well as that of Ms. Lori Garver for Deputy Administrator.
    I would like to extend my sincere thanks to Senator Lindsey Graham 
for his support and kind introduction. Special thanks are also due to 
Senators Nelson and Hutchison for your words of encouragement during my 
preparation for potentially taking on the duties of NASA Administrator. 
I thank both of you specifically and this committee in general for your 
long-standing support of NASA in its mission of leading the Nation in 
the exploration of our universe and of exercising our leadership in 
aeronautics, science, and technology. I'd also like to acknowledge 
members of my family (my wife, Jackie; my daughter, Dr. Kelly Bolden; 
my brother, Warren Bolden and his wife, Wendy; my aunt Alyce Martin) 
and other family and friends who have traveled many miles to be with me 
today.
    I would also like to extend a special thanks to Christopher 
Scolese, who has been the Acting Administrator at NASA since mid-
January. Chris represents the very best of NASA's career civil servant 
workforce. For his dedicated leadership and service I am greatly 
appreciative.
    I was born and raised in Columbia, SC in the segregated south--the 
older of two sons of Charles and Ethel Bolden, public school teachers 
who, despite very long hours and lower wages than their white 
counterparts, loved every day of their work and made the hard choice to 
remain in public education and to inspire thousands of Black students 
to take their places in national, state, and local leadership. With 
them as the consummate role models, I overcame the refusal of my 
Senators and Congressman to appoint a Black to the Naval Academy by 
appealing to President Lyndon B. Johnson for assistance. President 
Johnson had taken the initiative to send a retired Federal judge around 
the country to visit with Black and Hispanic high schools to recruit 
young, qualified minorities for entry to the three major service 
academies. I expressed interest in the Naval Academy during his visit 
to my high school and this led to my subsequently receiving an 
appointment to Annapolis from Congressman William Dawson of Chicago, 
IL. Inspired by my Plebe Year company officer, Major John Riley Love, a 
Marine Corps Vietnam veteran and mentor reminiscent of my father, I 
chose to become a United States Marine upon graduation. Much like my 
father, Major Love was very tough and demanding, but incredibly fair 
and just in dealing with everyone. For more than 34 years as an active 
duty Marine, I witnessed the power of teams of diverse military men and 
women responding to worldwide crises of humanitarian assistance and 
disaster relief, such as the small 16 to 20 person teams of Marines and 
Navy corpsmen sent from my command into Djibouti in the Horn of Africa 
to help drill fresh water wells and to assist the villagers in building 
rudimentary medical centers. The engagement and compassion exhibited by 
these Marines and sailors gained us a level of respect by the local 
tribe members that allows us to operate with impunity in this region 
even today.
    As a NASA astronaut I flew four times on the Space Shuttle as a 
member of international teams of dedicated engineering and science 
professionals. Floating in the windows of the Shuttle, speeding across 
its great desert at 4-5 miles per second, I saw the beauty of the 
Middle East, appearing peaceful and serene in spite of the Earthly 
reality of violence in the region. From my window perch, I viewed with 
sadness the majestic Amazon Rain Forest, considered by many to be the 
model of serenity and peace, yet devastated by deforestation, leaving 
the area and its people facing some of the greatest environmental 
challenges of our day. l now dream of a day when any American can 
launch into the vastness of outer space and see the magnificence and 
grandeur of our home planet, Earth, as I have been blessed to do. I'm 
convinced this will inspire them to be more concerned for our 
environment and to strive to put an end to man's inhumanity to man.
    When I reflect on the violent days of the 1960s civil rights 
movement; war in Vietnam and anti-war demonstrations on our streets; 
turmoil and division in our Nation not seen since the Civil War--I am 
inspired by the power of a shared national vision articulated by 
President John F. Kennedy to put men on the Moon; uniting the world in 
celebrating this achievement; and assuming uncontested technological 
leadership. NASA and its contractors produced what is a marvel of the 
modern age--the Space Shuttle followed by the International Space 
Station (ISS). With the common goal of making life better for humans 
here on Earth and improving understanding of our universe, NASA 
provided the leadership to our scientists, industry, and international 
partners to launch probes to distant planets; change human 
understanding of the universe in which we live with the Great 
Observatories--the Hubble Space Telescope (HST), the Chandra X-Ray 
Telescope, the Compton Gamma Ray Observatory (GRO), and the Spitzer 
Space Telescope--and develop biomedical research that contributed to 
innovation of the CATScan, magnetic resonance imaging (MRI), the 
Debakey Ventricular Assist Device (VAD) or heart pump, and even a 
prospective salmonella vaccine.
    All this we accomplished in times equally as difficult as today, if 
not more so because, beginning in 1961, a young President and a bold 
Congress inspired the American people to have the courage to take 
action in areas previously unthinkable. Can we do any less today? I 
think not.
    Dr. Shirley Jackson, President of Rensselear Polytechnic Institute, 
warns--``There is a quiet crisis building in the United States--a 
crisis that could jeopardize the Nation's pre-eminence and well-being. 
The crisis has been mounting gradually, but inexorably, over several 
decades. If permitted to continue unmitigated, it could reverse the 
global leadership Americans currently enjoy. The crisis stems from the 
gap between the Nation's growing need for scientists, engineers, and 
other technically skilled workers, and its production of them. . . . 
Our government, universities, and industry must act now to develop the 
intellectual capital of the future.''
    Today we have to choose. Either we can invest in building upon our 
hard earned world technological leadership or we can abandon this 
commitment, ceding it to others who are working vigilantly to push the 
frontiers of space.
    If we choose to lead, we must earn that leadership by committing to 
confront the following challenges:

  <bullet> Build upon our investment in the ISS, a unique national 
        laboratory, and a bridge to human exploration beyond low-Earth 
        orbit, as we safely and efficiently bring the Shuttle era to a 
        close.

  <bullet> Accelerate with a sense of urgency the development of a next 
        generation launch system and human carrier to enable America 
        and other space-faring nations of the world to execute the 
        mission of expanding our human exploration beyond low-Earth 
        orbit.

  <bullet> Enhance NASA's capability and organic expertise to provide 
        credible scientific, technological, and engineering leadership 
        to help us better understand our Earth environment.

  <bullet> Inspire the rising generation of boys and girls to become 
        men and women committed to increasing knowledge in the fields 
        of science, technology, engineering and math (STEM) by making 
        NASA and its programs relevant to the American public.

    Today we face a crisis of opportunity. We can either confront the 
aforementioned challenges of technological leadership that ensure our 
Nation's safety and security or cede that leadership and prestige to 
other nations. I ask each of you to help NASA turn these challenges 
into opportunities. I ask each of you on this Committee as well as your 
colleagues in the Congress to help us ensure that safety and mission 
success are the preeminent principles in our continuation and extension 
of human exploration. And I ask all of you to help NASA ensure that our 
Nation remains the leader in the world in aeronautics, technology, 
science, and the care of our environment.
    Together we can find innovative ways to enhance our Nation's 
educational, scientific and technological capacity or we can sit by and 
watch other nations assume our long-held and recognized leadership 
role.
    Together we can find innovative ways to enhance needed basic 
research and development in aeronautics, science and technology or we 
can sit by and watch other nations move ahead in these fields.
    Together we can find innovative ways to advance space exploration, 
reduce the costs of access to space and further push the boundaries of 
what we can achieve as a Nation.
    Thank you for this opportunity to appear before this Committee. I 
am excited and energized about the possibility of taking on these 
challenges, if confirmed, and I look forward to responding to your 
questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Charles F. Bolden, Jr. (Charlie Bolden).

    2. Position to which nominated: Administrator, National Aeronautics 
and Space Administration.
    3. Date of Nomination: June 22, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 14111 Lake Scene Trail; Houston, TX 77059.

    5. Date and Place of Birth: August 19, 1946; Columbia, SC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Alexis W. Bolden; President; JACKandPANTHER LLC; 
        Houston, TX.

        Children: LTCOL Anthony Che Bolden, USMC; 37 and Dr. Kelly M. 
        Bolden, M.D.; 33.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, U.S. Naval Academy, 1968.

        Masters of Science in Systems Management, University of 
        Southern California, 1977.

        Test Pilot Certificate, U.S. Naval Test Pilot School, 1979.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2005-Present--JACKandPANTHER, LLC, CEO, Houston, TX.

        April 2003-Dec. 2004--Senior Vice President, TechTrans 
        International, Houston, TX.

        January 2003-April 2003--President, Chief Operating Officer, 
        American PureTex Water Corporation, Houston, TX.

        August 2002-December 2002--Terminal Leave, USMC.

        August 2000-August 2002--Commanding General, 3rd Marine 
        Aircraft Wing (MAW), San Diego, CA.

        July 1998-August 2000--Deputy Commander, U.S. Forces Japan 
        (USFJ), Tokyo, Japan.

        February 1998-July 1998--Commanding General, I MEF (Fwd), Camp 
        Doha, Kuwait.

        June 1997-July 1998--Deputy Commanding General (CG), I MEF, 
        Camp Pendleton, CA.

        June 1995-June 1997--Assistant Wing Commander, 3rd MAW, MCAS, 
        El Toro, CA.

        June 1994-June 1995--Deputy Commandant of Midshipmen, U.S. 
        Naval Academy, Annapolis, MD.

        July 1980-June 1994--Astronaut, Astronaut Office, NASA Johnson 
        Space Center (JSC), Houston, TX.

                January 1993-June 1994--Crewmember in training/flight 
                for STS-60. Served as Mission Commander with 
                responsibility for assignment of crew duties, overall 
                training of the flight crew, the safe conduct of the 
                mission, and the conduct of all post-flight activities 
                of the crew during our month-long post flight 
                appearances.

                April 1992-January 1993--Assistant Deputy 
                Administrator, NASA Headquarters, Washington, D.C.

                September 1988-April 1992--Crewmember in training/
                flight for STS-31 and STS-45. Served as Mission 
                Commander for STS-45 from May 1990 through April 1992 
                with responsibility for assignment of crew duties, 
                overall training of the flight crew, the safe conduct 
                of the mission, and the conduct of all post-flight 
                activities of the crew during our month-long post 
                flight appearances.

                February 1986-September 1988--Chief, Safety Division, 
                NASA JSC, Houston, TX.

                December 1984-January 1986--Crewmember in training/
                flight for STS-61C.

                July 1981-December 1984--Astronaut support for Space 
                Shuttle Missions STS-4 through STS-51C.

                July 1980-July 1981--Training as Astronaut Candidate.

        June 1978-June 1980--Engineering Test Pilot, Naval Air Test 
        Center, Patuxent River, MD.

        December 1968-June 1978--Pilot, U.S. Marine Corps.

                June 1977-June 1978--Executive Officer, MABS-13, MCAS 
                El Toro, CA.

                June 1976-June 1977--Assistant Operations Officer, MAG-
                13, MCAS El Toro, CA.

                June 1975-June 1976--Squadron pilot VMA(AW)-242, MCAS 
                El Toro, CA.

                June 1973-June 1975--Recruiter, Officer Selection and 
                Recruiting Station, Los Angeles, CA.

                June 1972-June 1973--A-6A Pilot, VMA(AW)-533 in Vietnam 
                combat operations, Nam Phong, Thailand (Served as 
                Maintenance Control Officer with responsibility for 
                preparation and flight assignment of the squadron's 12 
                combat aircraft each day. Also had management 
                responsibility for the 200+ maintenance personnel 
                assigned to the squadron.)

                December 1970-May 1972--A-6A squadron pilot, VMA(AW)-
                121, MCAS Cherry Point, NC.

                June 1970-December 1970--A-6A Pilot-in-training, 
                VMAT(AW)-202, MCAS Cherry Point, NC.

                December 1968-May 1970--Student Naval Aviator, MAD, 
                NATC, Pensacola, FL/NAATC, Corpus Christi, TX.

        June 1968-December 1968--Marine Corps Officer Student, The 
        Basic School, Quantico, VA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        2006-Present--Chairman, Independent Review Board, STS-125 HST 
        SM-4 Space Shuttle Mission, (consulting services provided under 
        a NASA contract with SAIC through JACKandPANTHER, LLC).

        2005-Present--Member, NASA Aerospace Safety Advisory Panel.

        2006-Present--Member, Directorate Review Committee, National 
        Ignition Facility, Lawrence Livermore National Laboratory.

        2006-Present--Member, Aerospace Science Engineering Board, 
        National Academy of Science.

        2004-2005--Member, NASA Committee on the Exploration 
        Transportation Systems Architecture.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        2008-Present--Director, St. Luke's Episcopal Hospital, Houston, 
        TX.

        2007-Present--Director, St. Luke's Episcopal Health System, 
        Houston, TX.

        2007-Present--Director, South Carolina Blue Cross Blue Shield, 
        Columbia, SC.

        2007-Present--Director, Camp Allen, Navasota, TX.

        2006-Present--Director, Bristow Group Inc., Houston, TX.

        2006-Present--Director, DetectaChem, Inc., Houston, TX.

        2006-Present--Board President, Sickle Cell Association of the 
        Texas Gulf Coast, Houston, TX.

        2005-Present--Member, Directorate Review Committee, National 
        Ignition Facility, Lawrence Livermore National Laboratory, 
        Livermore, CA.

        2005-Present--Chief Executive Officer, JACKandPANTHER, Houston, 
        TX.

        2004-Present--Director, National Space Biomedical Research 
        Institute, Houston, TX.

        2004-2008--Director, GENCORP Inc., Sacramento, CA.

        2004-2007--Director, Palmetto Government Benefit Associates, 
        Columbia, SC.

        2004-Present--Director, Military Child Education Coalition, 
        Harker Heights, TX.

        2003-Present--Trustee, University of Southern California, Los 
        Angeles, CA.

        2004-Present--Member, Episcopal Diocese of Texas Commission on 
        Black Ministry, Houston, TX.

        2003-2007--Member, Episcopal Diocese of Texas Commission on 
        Ministry, Houston, TX.

        2003-2007--Director, Tailhook Education Foundation, San Diego, 
        CA.

        2003-2007--Director, Family Literacy Foundation, San Diego, CA.

        2003-Present--Director, Marathon Oil Corporation, Houston, TX.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        2006-Present--Board President, Sickle Cell Association of the 
        Texas Gulf Coast.

        2006-Present--Sigma Pi Phi Fraternity (limited to men).

        2004-Present--Director, Military Child Education Coalition.

        2003-Present--Trustee, University of Southern California.

        2004-Present--Member, Episcopal Diocese of Texas Commission on 
        Black Ministry (although participation in Holy Communion and 
        certain other programs of the Episcopal Church is limited to 
        baptized persons, attendance at Episcopal worship services is 
        open to all).

        2003-2007--Member, Episcopal Diocese of Texas Commission on 
        Ministry (see note above on Episcopal Church).

        2003-2007--Director, Tailhook Education Foundation.

        2003-2007--Director, Family Literacy Foundation.

        1983-Present--Omega Psi Phi Fraternity (limited to men).

        1980-Present--Member, Brotherhood of St. Andrew (An Episcopal 
        Church program whose membership is traditionally Christian men, 
        but not exclusively. Women traditionally participate in a 
        sister organization, the Daughters of the King.)

        1977-Present--Member, University of Southern California General 
        Alumni Association.

        1975-Present--Member, Marine Corps Aviation Association.

        1975-Present--Member, Montford Point Marine Association.

        1968-Present--Member, Naval Academy Alumni Association.

        1964-Present--National Association for the Advancement of 
        Colored People (NAACP).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Gene Locke Houston Mayoral Campaign, 2009, $500.

        Barack Obama Presidential Campaign, 2008, $750.

        James Webb, U.S. Senate Campaign (Virginia), 2006, $1,000.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Recipient of the Defense Superior Service Medal (2003).

        Defense Meritorious Service Medal (2nd Award) (1995).

        Distinguished Flying Cross (1990).

        Air Medal (1972).

        Strike/Flight Medal (8th award) (1972-73).

        Honorary Doctor of Science Degree from the University of South 
        Carolina (1984).

        Honorary Doctor of Humane Letters from Winthrop College (1986).

        Honorary Doctor of Humane Letters from Johnson C. Smith 
        University (1990).

        Yuri A. Gagarin Gold Medal, Federation Aeronautique 
        Internationale (1994).

        Honorary Doctor of Science from San Diego State University 
        (2002).

        Honorary Doctor of Science from Rensselaer Polytechnic 
        Institute (2008).

        NASA Outstanding Leadership Medal (1992).

        NASA Exceptional Service Medals (1988, 1989, and 1991).

        University of Southern California Alumni Award of Merit (1989).

        University of Southern California Asa V. Call Alumni Award 
        (2003).

        South Carolina State Hall of Fame (1999).

        South Carolina Aviator of the Year (1996).

        South Carolina Aviation Hall of Fame (1996).

        Richland County (SC) School District One Hall of Fame (2001).

        Inducted into U.S. Astronaut Hall of Fame (2006).

        Harvard University Advanced Leadership Fellow (2008-Present).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Why Claim to Be An Episcopalian,'' Texas Episcopalian, 2007.

        ``The Legacy of Captain Cliff Branch, USMC,'' Naval Institute 
        Proceedings, 2005.

        Contributor to several National Research Council (NRC) Reports.

                Navy's Needs in Space for Providing Future 
                Capabilities, Committee on the Navy's Needs in Space 
                for Providing Future Capabilities, Naval Studies Board, 
                NRC, March 2004.

                2003 Assessment of the Office of Naval Research's 
                Marine Corps Science and Technology Program, Committee 
                for the Review of ONR's Marine Corps Science and 
                Technology Program, Naval Studies Board, NRC, March 
                2004.

                Assessment of Options for Extending the Life of the 
                Hubble Space Telescope, Committee on the Assessment of 
                Options for Extending the Life of the Hubble Space 
                Telescope, SSB, ASEB, NRC, October 2004.

        As noted in response to Question 10, I participated on the NASA 
        Committee on the Exploration Transportation Systems 
        Architecture, which addressed the Exploration Transportation 
        Systems Strategic Roadmap and was expected to issue a written 
        report. However, the Committee was discontinued at the 
        direction of the NASA Administrator prior to completion of its 
        work.

        During the period 1981-1994, while an active astronaut, I 
        routinely made numerous presentations to school groups, 
        business groups, and the general public about the Space Shuttle 
        Program. I also participated in press conferences and media 
        interviews in conjunction with my spaceflight activities.

        Since leaving the Astronaut Office and NASA in June 1994, I 
        have continued to make presentations to general audiences. My 
        public presentations do not generally address national space/
        aeronautics policy or law. With rare exception, my 
        presentations are without formal written notes, though I 
        sometimes have used PowerPoint slides of photos taken during my 
        four Space Shuttle missions or missions to the ISS. My recent 
        speeches to general audiences include:

                May 14, 2009, Speaker at Texas A&M Commencement 
                Convocation, College Station, TX.

                May 15, 2009, Speaker at MacGregor Elementary School, 
                Houston, TX.

                May 20, 2009, Speaker at South Carolina State Museum, 
                ``Windows in New Worlds'' Project benefit dinner, 
                Columbia, SC.

                May 27, 2009, Speaker at Baylor College of Medicine 
                Graduation, Houston, TX.

                June 1, 2009, Speaker at Monday Connection Luncheon 
                Series, Episcopal Theological Seminary of South Austin, 
                TX.

                June 4, 2009, Speaker at 3D Mathematics Academy 
                Graduation, Prairie View, TX.

                June 5, 2009, Speaker at Eighth Grade Graduation, 
                Bolden Elementary/Middle School, MCAS Beaufort, 
                Beaufort, SC.

                June 5, 2009, Speaker at DARE Graduation, DOD Schools, 
                MCAS Beaufort, Beaufort, SC.

                June 5, 2009, Presenter at Professional Military 
                Education, Officers and Senior Enlisted, MCAS Beaufort, 
                Beaufort, SC.

        Remarks to students and others in Beijing, China in 2005 at 
        Sino-American Aviation Heritage Foundation. (The presentation 
        was a joint address to the International Conference of the 
        Young Astronauts with COL Yang Li We (first Chinese astronaut 
        in space), BGEN Charlie Duke, USAF (Ret.) (US Moonwalker), and 
        Dr. Mae Jemison, MD (US and first African-American woman in 
        space.)) The visit included five Chinese cities in which their 
        major aeronautics universities are located--Beijing, Shanghai, 
        Chongching, Xian, Nanjing--and I spoke in each city to a 
        variety of groups from elementary schools to professional 
        engineering groups. I was also a guest commentator for Chinese 
        TV during the launch of STS-110 returning to space following 
        the loss of Columbia. Officials from the Chinese Society of 
        Astronautics and the Chinese Astronaut Research and Training 
        Center also briefed us on the progress of the Chinese human 
        space flight program.

        I have made similar presentations as above in Japan, South 
        Africa, Korea, Thailand, Costa Rica, Russia, Scotland and 
        elsewhere when requested to do so in the course of otherwise 
        unrelated visits to these countries. Organizations frequently 
        make requests for presentations on human space exploration when 
        they learn of my background. I do not have specifics on any of 
        these presentations since they were frequently unplanned prior 
        to the visits and I used no notes.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Science and Technology Committee, Hearing on Results of 
        Space Shuttle Flight 61-C, September 23, 1986.

        House Science, Space and Technology Committee Hearing on 
        Results of the Flight of Space Mission STS-31, May, 23, 1990.

        House Committee on Science Hearing on Options for Hubble 
        Science, February 2, 2005.

        Senate Subcommittee on Science and Space Hearing on Outside 
        Perspectives on NASA Budget and Programs, June 7, 2006.

        I have also interacted with Congress outside of formal hearings 
        on various occasions, including but not limited to post-flight 
        briefs after STS-45 in 1992.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My educational background is in the field of engineering and 
science with training and experience as a Naval Test Pilot as well as 
practical experience as a NASA Astronaut and Assistant Deputy 
Administrator. I have also had more than 34 years of leadership and 
management experience as a U.S. Marine Corps Officer. Since my 
retirement from active service in the Marine Corps, I have continued to 
be actively involved with critical issues of NASA through my 
participation as a member of the Aerospace Safety Advisory Panel 
(ASAP), a Congressionally-mandated panel charged with providing 
independent safety oversight and counsel to the NASA Administrator, the 
Congress, and the Administration. I also chaired the Independent Review 
Board charged with oversight of the STS-125 Hubble Space Telescope 
Servicing Mission, the fourth Hubble servicing mission, which was 
successfully completed in May of this year.
    I desire to serve as the NASA Administrator because it will afford 
me an opportunity to lead the Agency at a critical juncture in the 
technological history of this Nation. We have allowed our leadership in 
the fields of aeronautics and science to atrophy to an unacceptably low 
level. The President has laid out a national vision for restoring our 
collective national excellence in education, science, technology, 
engineering, and math. I hope to do my part by working with and leading 
the entire NASA family with my vision and inspirational skills.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as the NASA Administrator, my responsibilities will 
include overseeing the development and execution of the Agency's 
strategic plan in coordination with the goals of the President and his 
science and technology advisors. It will also be critical that I 
assemble and develop a leadership team in partnership with the NASA 
Deputy Administrator that can be entrusted with refining our management 
and oversight of the Agency's programs. The Agency must present 
relevant and reliable program plans to the Administration, Congress, 
and the American public as it examines restructuring, personnel 
management and assignment, and cost and schedule refinement. If 
confirmed, it will be my responsibility to ensure efficient and 
effective execution of these plans once approved and funded. I have 
extensive experience in managing large organizations. From 1997 through 
2002, I held several positions as a Marine Corps general officer in 
which I served as the Commanding General or Deputy Commander for 
organizations of 200-17,000 service members. I also served as Assistant 
Deputy Administrator for NASA from April 1992 through January 1993.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The number one challenge for the Agency will be to safely bring the 
Shuttle Program to a close while safely ramping up the Constellation 
Program to enable the Nation to expand our human exploration beyond 
low-Earth orbit. This must be accomplished with minimal gap in our 
domestic U.S. capability to put humans and cargo into space. These 
efforts will be critical to maintaining our leadership in the world 
among space-faring nations as well as ensuring that we can inspire a 
new generation of explorers here in the U.S. and around the world.
    A second critical challenge will be to provide the scientific 
leadership necessary to better understand our Earth environment. NASA 
must be able to work with national and international environmental 
science communities to identify and quantify the threats to Earth's 
health, and lead in the development of mitigating actions to deal with 
those threats. NASA, in conjunction with related Government agencies, 
must move with urgency to provide adequate and accurate space-based 
sensors that will provide reliable data to national decisionmakers 
dealing with the natural and man-made mechanisms controlling Earth's 
climate system.
    A third critical challenge will be to make NASA and its programs 
relevant to the American public in a way that inspires young boys and 
girls, men and women, to become hungry for knowledge in the fields of 
science, technology, engineering and math (STEM). NASA must find 
innovative ways to challenge the country to view excellence in the STEM 
fields as a national imperative.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a deferred compensation arrangement with Marathon Oil listed 
on my SF-278 that will be concluded upon receipt of Marathon stock and 
a cash payment owed shortly after I resign from the Marathon Oil board.
    I have a benefit from my service as a director for Blue Cross Blue 
Shield of South Carolina listed on my SF-278 under which I will 
continue to receive payments for a long-term care policy for my wife 
and me.
    I receive military retirement pay for my Marine Corps service.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships that could involve potential conflicts of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been, engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During the last 10 years, I have continued to advance the 
principles for which NASA was established and have worked to increase 
public support for NASA. In addition to the interactions with Congress 
described in my response to Question A17, I have continued this work 
through various means, including:

        a. My work as a member of NASA's Aerospace Safety Advisory 
        Panel (ASAP) (2005-Present).

        b. My work as a member of the Aerospace Science Engineering 
        Board of the National Academy of Science (2006-Present).

        c. My services as Chair of the Independent Review Board 
        established by NASA for the STS-125 HST SM-4 Space Shuttle 
        Mission (2006-Present).

        d. My work as a member of the Directorate Review Committee for 
        the National Ignition Facility, Lawrence Livermore National 
        Laboratory (2006-Present).

        e. My work as a member of NASA's Committee on the Exploration 
        Transportation Systems Architecture (2004-2005, see response to 
        Question A16).

        f. My contribution to National Research Council (NRC) reports 
        concerning options for extending the life of the Hubble 
        telescope as well as national defense related capabilities 
        (2004, see response to Question A16).

        g. My public speaking activity addressed in response to 
        Question A16, through which I have educated audiences about 
        NASA missions.

    In 2005, at the request of the NASA Administrator, I visited with 
members of the House and Senate as well as their staffs to describe the 
emerging launch vehicle system for the NASA Constellation Program. I 
attempted to explain the differences, advantages and disadvantages of 
candidate launch systems (Atlas, Delta, ARES, etc.) and answer any 
questions. This was erroneously reported on ATK's annual report of 
lobbyists to the U.S. Senate. The error was later corrected and my name 
was removed from the list.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Yes. As a brand new second lieutenant in the Marine Corps following 
graduation from the U.S. Naval Academy (June 1968), my wife and I were 
guests of my uncle in Myrtle Beach, South Carolina, as a wedding 
present. While vacationing in Myrtle Beach, my uncle was involved in an 
auto-pedestrian accident in which the car he was driving hit a man 
crossing the street. The victim turned out to be a close friend of his 
and my uncle and I went to the local hospital to check on the condition 
of the friend. Upon asking a nurse on duty about the friend, we were 
told that we could not be told anything about the patient. We tried to 
explain the circumstances of the relationship between my uncle and the 
victim to no avail. I demanded to see a doctor or other supervisory 
official after continued resistance from the staff to provide us with 
information. Unknown to us, the Myrtle Beach Police had been called to 
the hospital because of our persistence and refusal to leave until we 
knew about the status of my uncle's friend. Upon arrival at the 
hospital, one of the policemen evidently felt that I was a threat to 
the safety of the nurse, so he drew his nightstick and struck me in the 
head from behind knocking me to the floor as he uttered a threatening 
racial epithet. At that time, my uncle and I were handcuffed and 
arrested for disturbing the peace. Once at the police station, it was 
determined that I was a Marine Corps officer when I demanded to make a 
call to the Civil Rights Division at Fort Jackson in Columbia, SC and 
produced my military ID card. The police offered to release me, but I 
refused to leave, until and unless, my uncle was also released. We both 
ended up spending the night in jail before my parents arrived the next 
morning and negotiated our release. To my knowledge, no charges were 
ever filed.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I filed suit in 1978 in small claims court in St. Mary's County, 
MD, because the home I purchased had a defective septic tank that the 
owner did not disclose at the time of sale. The defendant was ordered 
to pay for half the costs of the repair.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes I will.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes I will.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes I 
will.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes I will.
                                 ______
                                 
                    RESUME OF CHARLES F. BOLDEN, JR.

Experience
    2005-Present, JACKandPANTHER LLC, CEO, Houston, TX.

        Lead the independent oversight of the planning and preparation 
        for NASA's Space Shuttle Mission STS-125 Hubble Space Telescope 
        Servicing Mission--4 (HST SM-4) as Chairman of the HST SM-4 
        Independent Review Board (performed through a contract with 
        SAIC, Inc.).

        Advised the NASA Administrator on matters pertaining to safety 
        and mission assurance of NASA programs as member of the NASA 
        Aerospace Safety Advisory Panel (performed in my personal 
        capacity as a Special Government Employee).

        Provide consulting services in leadership, military, and 
        aerospace issues as well as motivational speaking.

    Apr 2003-Dec 2004, TechTrans International, Senior VP, Houston, TX.

        Led the company in diversifying its client base and decreasing 
        its dependence on NASA contracts from 95 percent of revenues to 
        78 percent.

        Developed business portfolio to increase annual revenues from 
        $15M to $26M during period of employment.

    Jan 2003-Apr 2003, American PureTex Water Corporation, Pres/COO, 
Houston, TX.

        Unsuccessful in effort to raise operating capital for this 
        startup company.

    Aug 2002-Dec 2002, Terminal Leave USMC, Houston, TX.

    Aug 2000-Aug 2002, 3rd Marine Aircraft Wing (MAW), Commanding 
General, San Diego, CA.

        Oversaw the training, preparation, and combat operations of 
        16,000+ Marines and sailors and 400+ aircraft of the aviation 
        combat element of the 1st Marine Expeditionary Force (I MEF) in 
        support of Operation Enduring Freedom in Afghanistan.

        Instituted a campaign plan, ``Putting Marines First", to 
        provide for the mentorship, wellness, and community outreach 
        efforts of Marines and families of 3rd MAW.

        Implemented a 3rd MAW safety campaign that reduced major ground 
        and aircraft accidents to zero from a record high in the prior 
        year.

    Jul 1998-Aug 2000, U.S. Forces Japan (USFJ), Deputy Commander, 
Tokyo, Japan.

        Co-Chaired the Japan-U.S. Joint Committee with responsibility 
        for oversight/maintenance of the U.S.-Japan Mutual Defense 
        Treaty.

        Led renegotiation of the $5B Host Nation Support funding from 
        the government of Japan for the operations of U.S. forces in 
        Japan.

    Feb 1998-Jul 1998, I MEF (Fwd), Commanding General, Camp Doha, 
Kuwait.

        Directed combat preparation for U.S. Marine forces assigned to 
        Coalition Joint Task Force, Kuwait.

        Advised Commander Coalition Joint Task Force on capabilities 
        and employment of U.S. Marine Corps forces.

    Jun 1997-Jul 1998, I MEF, Deputy Commanding General (CG), Camp 
Pendleton, CA.

        Certified West Coast Marine Expeditionary Units (MEU) for 
        special operations capable missions.

        Assisted Commanding General I MEF (Fwd), with oversight of the 
        planning and training of Marine forces for combat operations in 
        support of the Combatant Commanders in the U.S. Pacific 
        Command, U.S. Central Command, and Combined Forces Command, 
        Korea.

    Jun 1995-Jun 1997, 3rd MAW, MCAS, Assistant Wing Commander, El 
Toro, CA.

        Assisted the CG 3rd in the training, preparation, and 
        deployment of Marines and sailors assigned to the Wing.

        As senior Marine Corps officer aboard the Naval Air Station 
        Miramar in San Diego, CA, oversaw the transition of the base 
        from Navy to Marine Corps control.

        Effected liaison with the San Diego business and community 
        leaders to improve acceptance of Marine Corps presence in 
        Greater San Diego.

    Jun 1994-Jun 1995, U.S. Naval Academy, Deputy Commandant of 
Midshipmen, Annapolis, MD.

        Assisted the Commandant of Midshipmen in planning, organizing, 
        and overseeing the military and professional training of the 
        members of the 4000-person Brigade of Midshipmen.

        Assisted in the institution of the Character Development 
        Department as an integral part of the development of Midshipmen 
        for leadership in the U.S. Navy and Marine Corps.

        Oversaw the integration of Senior Enlisted Advisors as part of 
        the military training and mentorship for members of the 
        Brigade.

    Jul 1980-Jun 1994, Astronaut Office NASA Johnson Space Center, 
Astronaut, Houston, TX.

    Jan 1993-Jun 1994, Crewmember in Training/Flight for STS-60, 
Houston, TX.

        Commanded the first joint U.S.-Russian Space Shuttle Mission 
        conducting joint U.S.-Russian medical experimentation; 
        responsible for the planning, training, and conduct of the 
        mission by a seven-member international crew.

    Apr 1992-Jan 1993, NASA Headquarters, Assistant Deputy 
Administrator, Washington, D.C.

        Oversaw the budget restructuring and program reprioritization 
        of major programs for the National Aeronautics and Space 
        Administration (NASA).

        Served as principal liaison between NASA and the U.S. House and 
        Senate oversight and authorization committees.

    Sep 1988-Apr 1992, Crewmember in Training/Flight for STS-31 and 
STS-45, Houston, TX.

        Served as Mission Commander for STS-45 from May 1990 through 
        April 1992 with responsibility for assignment of crew duties, 
        overall training of the flight crew, the safe conduct of the 
        mission, and the conduct of all post-flight activities of the 
        seven-member international crew during our month-long post-
        flight appearances.

        Commanded the first NASA space laboratory mission dedicated to 
        the study of Earth's atmosphere.

        Assisted in the deployment of the Hubble Space Telescope from 
        the Space Shuttle Discovery.

    Feb 1986-Sep 1988, Safety Division NASA Johnson Space Center, 
Chief, Houston, TX.

        Executed reorganization of Safety Division and oversaw return-
        to-flight effort for the Space Shuttle Program following the 
        loss of the Space Shuttle Challenger in January 1986.

    Dec 1984-Jan 1986, Crewmember in Training/Fight for STS-61C.

    Jul 1981-Dec 1984, Astronaut Support for STS-4 through STS-51C, 
Houston, TX.

    Jul 1980-Jul 1981, Training as Astronaut Candidate, Houston, TX.

    Jun 1978-Jun 1980, Naval Air Test Center, Engineering Test Pilot, 
Patuxent River, MD.

        Developed test plans, conducted test flights, performed data 
        processing and test report publication for several major 
        ordnance systems for U.S. Naval service and NATO aircraft.

    Dec 1968-Jun 1978, U.S. Marine Corps, Pilot.

        Flew as pilot of the A-6A/E ``Intruder'' all-weather attack 
        aircraft including one year combat tour in Vietnam Conflict 
        (1972-73).

    Jun 1977-Jun 1978, MABS-13, Marine Corps Air Station, Executive 
Officer, El Toro, CA.

    Jun 1976-Jun 1977, MAG-13, Marine Corps Air Station, Assistant 
Operations Officer, El Toro, CA.

    Jun 1975-Jun 1976, VMA(AW)-242, Marine Corps Air Station, Squadron 
Pilot, El Toro, CA.

    Jun 1973-Jun 1975, Officer Selection and Recruiting Station, 
Recruiter, Los Angeles, CA.

        Led the Nation in recruiting of young men and women for service 
        in the U.S. Marine Corps.

        Led nationwide effort to increase number of minority officers 
        for U.S. Marine Corps.

    Jun 1972-Jun 1973, VMA(AW)-533, A-6A Pilot in Vietnam Combat 
Operations, Nam Phong, Thailand.

        Served as Maintenance Control Officer with responsibility for 
        preparation and flight assignment of the squadron's 12 combat 
        aircraft each day.

        Also had management responsibility for the 200+ maintenance 
        personnel assigned to the squadron.

    Dec 1970-May 1972, VMA(AW)-121, Marine Corps Air Station, A-6A 
Squadron Pilot, Cherry Point, NC.

    Jun 1970-Dec 1970, VMAT(AW)-202, MCAS, A-6A Pilot-in-training, 
Cherry Point, NC.

    Dec 1968-May 1970, Student Naval Aviator, MAD, NATC, Pensacola, FL; 
Corpus Christi, TX.

    Jun 1968-Dec 1968, The Basic School, Marine Corps Officer Student, 
Quantico, VA.
Organizations

        2007-Present, Director, St. Luke's Episcopal Health System, 
        Houston, TX.

        2007-Present, Director, South Carolina Blue Cross Blue Shield, 
        Columbia, SC.

        2006-Present, Director, Bristow Group Inc., Houston, TX.

        2006-Present, Sigma Pi Phi Fraternity, Atlanta, GA.

        2006-Present, Director, DetectaChem, Inc., Houston, TX.

        2006-Present, Board President, Sickle Cell Association of the 
        Texas Gulf Coast, Houston, TX.

        2005-Present, Member, National Ignition Facility Directorate 
        Review Committee, Livermore, CA.

        2004-Present, Director, National Space Biomedical Research 
        Institute, Houston, TX.

        2004-2008, Director, GENCORP Inc., Sacramento, CA.

        2004-2006, Director, Palmetto Government Benefit Associates, 
        Columbia, SC.

        2004-Present, Director, Military Child Education Coalition, 
        Harker Heights, TX.

        2003-Present, Trustee, University of Southern California, Los 
        Angeles, CA.

        2004-Present, Member, Episcopal Diocese of Texas Commission on 
        Black Ministry, Houston, TX.

        2003-2007, Member, Episcopal Diocese of Texas Commission on 
        Ministry, Houston, TX.

        2003-2007, Director, Tailhook Education Foundation, San Diego, 
        CA.

        2003-2007, Director, Family Literacy Foundation, San Diego, CA.

        2003-Present, Director, Marathon Oil Corporation, Houston, TX.

        1983-Present, Omega Psi Phi Fraternity, Atlanta, GA.

        1977-Present, Member, University of Southern California General 
        Alumni Association, Los Angeles, CA.

        1975-Present, Member, Montford Point Marine Association, 
        Washington, D.C.

        1968-Present, Member, Naval Academy Alumni Association, 
        Annapolis, MD.

        1964-Present, National Association for the Advancement of 
        Colored People (NAACP), Washington, D.C.
Education

        2008-Present, Harvard University, Advanced Leadership Fellow, 
        Cambridge, MA.

        1978-1979, U.S. Naval Test Pilot School, Certificate, Patuxent 
        River, MD.

        1973-1977, University of Southern California, MSSM, Los 
        Angeles, CA.

        1964-1968, U.S. Naval. Academy, B.S., Annapolis, MD.

        1960-1964, C. A. Johnson High School, Diploma, Columbia, SC.

Personal
    Born August 19, 1946 in Columbia, South Carolina. Married to the 
former Alexis (Jackie) Walker of Columbia, South Carolina; two children 
and three grandchildren. He enjoys golf, bicycling, and motorcycle 
riding. Both parents, Mr. Charles F. Bolden, Sr. and Mrs. Ethel M. 
Bolden of Columbia, SC were career educators and are deceased.
Special Honors
    Recipient of the Defense Superior Service Medal, the Defense 
Meritorious Service Medal, the Distinguished Flying Cross, the Air 
Medal, the Strike/Flight Medal (8th award). Received Honorary Doctor of 
Science Degree from the University of South Carolina (1984), Honorary 
Doctor of Humane Letters from Winthrop College (1986), Honorary Doctor 
of Humane Letters from Johnson C. Smith University (1990), Honorary 
Doctor of Science from San Diego State University (2002), and Honorary 
Doctor of Science from Rensselaer Polytechnic Institute (2008). 
Recipient of the NASA Outstanding Leadership Medal (1992), NASA 
Exceptional Service Medals (1988, 1989, and 1991), the University of 
Southern California Alumni Award of Merit (1989), and the University of 
Southern California Asa V. Call Alumni Award (2003). A past inductee 
into the South Carolina State Hall of Fame, the South Carolina Aviation 
Hall of Fame, and the Richland County (SC) School District One Hall of 
Fame. Inducted into the U.S. Astronaut Hall of Fame in May 2006.

    The Chairman. Thank you.
    Ms. Garver.

                 STATEMENT OF LORI B. GARVER, 
              DEPUTY ADMINISTRATOR-DESIGNATE, NASA

    Ms. Garver. Thank you, Chairman Rockefeller, Ranking Member 
Hutchison, and Members of the Committee.
    I am honored to appear before you today as President 
Obama's nominee for the position of Deputy Administrator of 
NASA. I would like to thank Senator Stabenow for her kind 
introduction earlier and to Senator Nelson for your remarks and 
support. It was wonderful to work with you on the campaign and 
the transition.
    A few of my Michigan relatives are here with me, although 
they had to stand in line with the 60 South Carolinians. My 
mother, Peggy Garver and my uncle, Dick Allen, along with my 
husband, David and our sons, Wesley and Mitchell.
    I would also like to give a shout-out to my women in 
aerospace, colleagues who I worked with for 20 years, as well 
as my friends, the McLean desperate housewives, who also have 
been waiting in the hall a couple of hours.
    I was raised in Michigan by a family who considered public 
service an expectation, similar to what you said, Mr. Chairman. 
My grandfather and uncle were both farmers, and spent a 
combined 24 years in the State House and Senate. I have been in 
campaign parades for them since before I could walk, and, I 
took a semester off of college to work on one of my uncle's two 
bids for Congress.
    When I graduated from college, although I had never been to 
Washington, I moved here to try and make a contribution. 
Working for John Glenn, my first job exposed me to space policy 
and to NASA. For me, space offered the challenge of a 
generation who had grown up with Apollo. Space development 
opened up instantaneous worldwide communications that helped 
bring an end to the Cold War, the greatest geopolitical 
challenge of the time.
    This exposure led me to my Master's degree in space policy 
and to the National Space Society, where I developed my belief 
that the space program is for all of us. Our government space 
program must be responsive to the American taxpayer in order to 
be meaningful and sustainable.
    This understanding only deepened during my 5 years working 
on communications and policy at NASA and exposed me to the 
incredible talent of the NASA workforce. The unbelievable 
achievements of this team over its 50-year history are 
unmatched.
    The last 8 years of my career have been spent working in 
the commercial sector with aerospace industry, and this 
experience has taught me that the incredible talent and 
dedication of the workforce not only resides at NASA, but also 
within private industry.
    President Obama has promised to lead our government to a 
direction to make it work as effectively as it can for the 
American people. Every aspect of NASA's program can and should 
contribute in this way. NASA helps lead the world in scientific 
understanding of our planet, our solar system and our place in 
the universe.
    Human spaceflight is a symbol of U.S. leadership and 
technological advancements. I believe we can and should do more 
to share this amazing chapter of space exploration with the 
public. And thus, when NASA has led to new industries entirely 
independent from government funding, they have contributed 
greatly to the U.S. economy over the past half century. One of 
the most visible of these successful industries is aeronautics. 
NASA research has contributed much to this global industry, and 
I believe we can and should do more.
    I am excited about the opportunity to serve under Charlie 
Bolden's leadership. We have spent the last few months 
discussing how we could better address these challenges, if we 
are indeed confirmed. We have appreciated our meetings with 
many of you, hearing your ideas and concerns, and it would be 
an honor to work together toward our common goals.
    It has been many years since I lived in Michigan. My most 
recent years have been spent in Virginia raising our two boys. 
I have tried to be an example to them, to develop their passion 
for service. So far, Wes plans to broker world peace and Mitch 
hopes to discover a cure for cancer. With your support, I would 
like to get to work at NASA doing what we can to help address 
both of these challenges and so many others.
    Thank you for the opportunity to share these thoughts with 
you, and I look forward to your questions.
    [The prepared statement and biographical information of Ms. 
Garver follows:]

                 Prepared Statement of Lori B. Garver, 
                  Deputy Administrator-Designate, NASA

    Mr. Chairman, Ranking Member Hutchison, Members of the Committee, 
thank you. I am honored to appear before you today as President Obama's 
nominee for the position of Deputy Administrator of the National 
Aeronautics and Space Administration, NASA. I would like to thank 
Senator Stabenow for her support and for her kind introduction today. 
Many of my Michigan relatives are with me today, including my mother 
and my uncle, my husband David, and my sons, Wesley and Mitchell.
    I was raised in Michigan by a family who considered public service 
an expectation. My grandfather, a farmer, spent 12 years in the State 
Legislature. My uncle, a veterinarian and farmer, followed in his seat 
and served a combined 12 years in the State House and Senate. I have 
been in campaign parades with them before I could walk and I took a 
semester off of college to work on one of my uncle's two bids for 
Congress. Both of my parents, my sister, aunts, uncles and grandparents 
are teachers--another honored service contribution. I met my husband on 
an early political campaign and before he got the space bug, he was 
also a teacher. It has been my experience that most people who choose 
public service, do so as a contribution to Society and because they 
believe part of life's purpose is to leave things better than we found 
them. For me, space and politics have been that service and my calling 
for the past 25 years.
    When I graduated from college, I had never stepped a foot in the 
Nation's capital, but largely because of this upbringing, I drove 
across the country to come here to try to make a contribution. My first 
job in Washington, working for John Glenn's Presidential campaign, led 
to my early exposure to the space program. It didn't take long for me 
to be ``hooked''. For me, space offered the challenge of a generation 
who had grown up with Apollo. Space development opened up instantaneous 
worldwide communication that helped bring an end to the Cold War--the 
biggest geopolitical challenge of the time. I believe that space 
exploration helps bring us together as a collective human society. 
Astronauts, cosmonauts and taikonauts alike all remark on the unifying 
view from space and their changed perspective upon return. It was no 
coincidence that the first Earth Day was in 1970--following humanity's 
first tentative steps on another celestial body and the iconic 
photograph of Earth Rise from the Moon taken by the Apollo 8 crew.
    This exposure led to my Master's degree in space policy and to the 
National Space Society where I worked for 13 years--9 as Executive 
Director. NSS is a not-for-profit grass-roots space advocacy 
organization. This experience embedded my belief that the space program 
is for all of us. Our government space program must be responsive to 
American tax-payers in order to be meaningful and sustainable. This 
understanding only deepened during my 5 years working on communications 
and policy at NASA. My NASA experience exposed me to the incredible 
talent of the NASA workforce. The unbelievable achievements of this 
team over its 50-year history are unmatched.
    The last 8 years of my career have been spent working in the 
commercial sector, with aerospace industry. This experience has taught 
me that the incredible talent and dedication of the workforce not only 
resides at NASA, but also in private industry. During this time, one 
commercial project led me to Russia, where I began medical testing and 
training for a commercially-sponsored Soyuz flight to the International 
Space Station (ISS). I developed the project to utilize the unique 
opportunity of space tourism and commercial investment to help educate 
the public about the amazing achievements and capability of the ISS. At 
the time, our boys were ages 10 and 8 and we planned for them to stay 
with us in Star City for part of the training. The project, called 
``Astromom'' was about better communicating the excitement of space 
exploration to the general public, with the Discovery Channel filming 
my experience. Although ultimately unsuccessful, it was a life 
experience that taught me about international and commercial 
partnerships, their possibilities and their limitations.
    The NASA family is its most valuable resource and I am humbled by 
this opportunity to return in a leadership position. President Obama 
has promised to lead our government in a direction to make it work as 
effectively as it can for the American people. NASA must also continue 
to demonstrate its relevance, as a source of solutions for the problems 
we all face today. Every aspect of NASA's programs can contribute in 
this way:
    NASA helps lead the world in scientific understanding of our 
planet, our solar system and our place in the universe. What parent 
doesn't thrill at their children's first questions about the night sky? 
Walk through elementary schools today and look at the art on the walls 
that includes depictions of the planets (with or without Pluto--
depending on your age) and images from the Hubble Space Telescope. No 
matter how you feel about a cap and trade system, most of us agree that 
many scientific measurements of planetary climate change can uniquely 
be made from space, and should be expanded.
    Human spaceflight is a symbol of U.S. leadership and technological 
advancement. Depending on your age, different space exploration 
milestones are binding memories of society. For many of us, the Moon 
landings and Apollo-Soyuz. For some of us--Sally Ride's first flight, 
or Guy Bluford's. Why is it that universally, Americans can tell you 
where they were when they heard about the Space Shuttle accidents? I 
believe it is because space exploration represents the best in all of 
us. Our hearts and minds are a part of every mission. I believe we can 
and should do more to share this amazing chapter of space exploration 
with the public.
    Space exploration and cooperation on the International Space 
Station have opened up new relationships that continue to provide 
tremendous value to society. Expanded cooperative activities in robotic 
and human spaceflight should be considered.
    Jake Garn used to have a great line about spending money in space. 
He said, ``You know--you can't spend money in space--I didn't bring my 
wallet, as there is nothing to buy.'' The half of a percent of the 
Federal budget that we spend on space today is spent right here on 
Earth, employing our critical scientific and technological workforce. 
The Nation's investment in NASA has helped create a private sector 
workforce at least 10 times as large as the civil servant workforce. In 
addition, investment in NASA has led to new industries entirely 
independent from government funding that have contributed greatly to 
the U.S. economy over the past half century. I believe that a key role 
of NASA is to continue investing in programs and technologies that have 
the potential to develop into independent commercial industries of the 
future.
    One of the most visible of these successful industries is aviation 
and aeronautics. NASA (and its predecessor, NACA) research has 
contributed much to this global industry. Recent NASA research has 
helped reduce fuel consumption and noise in commercial and military 
aircraft and helped improve safety and efficiency. Yet--there is much 
more to be done. I believe NASA can and should do more to assist this 
critical industry to become leaders in green aviation and to improve 
aviation system efficiency.
    I am confident that NASA can address these critical challenges. I 
am excited about the opportunity to return to NASA in this leadership 
position, if confirmed. I'm also excited about the opportunity to serve 
under Charlie Bolden's leadership. We've spent the last few months 
discussing how we could better address these challenges, if we are 
given the opportunity. We've spent hours in meetings with many of you, 
listening to your ideas and concerns and it would be an honor to work 
together toward our common goals.
    It has been many years since I lived in Michigan. My most recent 
years have been spent in Virginia, raising our two boys. I've tried to 
be an example to my boys, to help them develop a passion for service. 
So far, Wes plans to broker world peace and Mitch hopes to discover a 
cure for cancer. With your support, I'd love to get to work at NASA 
doing what we can to help address both of those challenges and so many 
others.
    Thank you for the opportunity to share these thoughts with you. I 
look forward to your questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Lori Beth 
Garver.
    2. Position to which nominated: Deputy Administrator, National 
Aeronautics and Space Administration.
    3. Date of Nomination: June 22, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: The Avascent Group, 1225 Eye Street, NW, Washington, DC 
        20005.

    5. Date and Place of Birth: May 22, 1961; Lansing, Michigan.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: David William Brandt--Business Development Analysis 
        Manager, Lockheed Martin Corporation; children: Wesley Garver 
        Brandt, age 17; Mitchell Garver Brandt, age 14.

    7. List all college and graduate degrees. Provide year and school 
attended.

        The Colorado College (1979-1983)--BA, 1983.

        The George Washington University (1987-1989)--MA, 1989.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Staff Assistant--John Glenn Presidential Campaign, (1983-1984).

        Program Director, National Space Society (1984-1987) (National 
        Space Institute until 1986).

        Lobbyist (part time)--SpaceCause (1987-1988).

        Executive Director--National Space Society (1987-1996) [Mgmt.].

        Special Assistant for Communications to the Administrator--NASA 
        (1996-1997) [Mgmt.].

        Senior Policy Analyst--NASA (1997-1998) [Mgmt.].

        Associate Administrator, Policy and Plans--NASA (1998-2001) 
        [Mgmt.].

        Vice President--DFI International (2001-2003) [Mgmt.].

        President--Capital Space (2001-present).

        Consultant--The Avascent Group (formerly DFI International) 
        (2003-Present).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Aerobics Instructor--Fairfax County Government (local rec 
        center) (2002-2007).

        National Aeronautics and Space Administration--Consultant 
        through the Avascent Group (2006-2008).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Capital Space, LLC President (2001-Present).

        The Avascent Group (formerly DFI International)--Consultant, 
        (2003-Present).

        DFI International--Vice President (2001-2003).

        The Planetary Society--Consultant (2004-2008).

        The Johns Hopkins University, APL--Advisor (2005-2009).

        An Exhibition Group--Consultant (2001-2008).

        Ironsclad Solutions--Consultant (2007-2008).

        The Futures Channel--Consultant (2006-2008).

        Harmonic International--Consultant (2003-2008).

        GPS Solutions--Consultant (2006-2007).

        Kistler Aerospace--Consultant (2002-2005).

        Honeywell International--Consultant (2003-2004).

        The Boeing Company--Consultant through the Avascent Group 
        (2002-2008).

        Ball Aerospace--Consultant through the Avascent Group (2003-
        2007).

        EADS North American--Consultant through the Avascent Group 
        (2002-2008).

        Lockheed Martin Corporation--Consultant through the Avascent 
        Group (2001-2008).

        Northrop Grumman Corporation--Consultant through the Avascent 
        Group (2001-2008).

        United Launch Alliance--Consultant through the Avascent Group 
        (2007-2008).

        Raytheon Corporation--Consultant through the Avascent Group 
        (2006-2008).

        McLean Hamlet Association--Member, Board of Directors, (1997-
        2007).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        The Hamlet Swim and Tennis Club--member since 1997 (Board 
        Member from 1998-2000)--does not restrict membership.

        Women in Aerospace--member since 1989 (President in 1991-92, 
        Board Member from 2001-2003)--does not restrict membership.

        American Astronautical Society--member since 2001 (President in 
        2001-2002)--does not restrict membership.

        Andrew Chapel United Methodist Church--member since 1997--does 
        not restrict membership.

        The Planetary Society--member off and on from 1995--does not 
        restrict membership.

        The National Space Society--member off and on from 1984--does 
        not restrict membership.

        International Academy of Astronautics--member since 2001--does 
        not restrict membership.

        American Institute of Aeronautics and Astronautics--member off 
        and on from 1986--does not restrict membership.

        Democratic National Committee--member off and on from 1998--
        does not restrict membership.

        National Geographic Society--member off and on from 1996--does 
        not restrict membership.

        McLean Estates Community Association--member since 2002 
        current--does not restrict membership.

        Secure World Foundation--member and advisor, 2008-2009--does 
        not restrict membership.

        American Automobile Association--member since 1968--does not 
        restrict membership.

        Space Day Foundation--Member, Board of Directors (2001-2004)--
        does not restrict membership.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Senator Bill Nelson--$500 (2007).

        Congressman Mark Udall--$1,000 (2006-2007).

        Senator Mikulski--$1,000 (2007).

        John Kerry for President--$2,000 (2004).

        Bill Richardson for President--$1,000 (2007).

        Hillary Clinton for President--$2,300 (2007) (Also contributed 
        $2,300 for the general election which was returned after the 
        convention).

        Obama for America--$2,300 (2007).

        Obama for America--$2,300 (2008).

        Congressman Nick Lampson $1,500 (2006-2008).

        DNC--$500 (2004).

        Forward Together PAC--$1,000 (2006).

        DCCC--$500 (2006).

    Served as a volunteer space policy advisor on Presidential 
Campaigns for Senator Kerry, Senator Clinton and Senator Obama. 
Volunteered at Democratic Convention in 2000 and in 2004.
    Volunteered for Presidential candidate, Hillary Clinton, GOTV 
efforts in Iowa and some phone banking in Arlington, VA. Volunteered in 
local precinct for Democratic party on election day (GOTV efforts) 
2000--2008.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honorary Doctorate--Colorado College, 2000.

        Space Pioneer Award--National Space Society, 1997.

        Recipient, One of the 10 Who Made a Difference in 2004--Space 
        News.

        NASA Distinguished Service Medal--2001.

        NASA Distinguished Public Service Medal--1996.

        International Academy of Astronautics--2002-present.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
        ``Planetary News: Space Policy,'' occasional column for The 
        Planetary Society, The Planetary Report and website, 2005-2008.

        ``When Perception Becomes Reality: Evolving the American 
        Public's View of NASA,'' Co-authored with Robin-Marie Williams 
        for AIAA Space, 2006.

        ``Senator John Kerry's Space Policy,'' Space News, 2004.

        ``President's Column,'' Space Times, monthly from 2000-2002.

        ``A Worthwhile Effort,'' Space News, 2002.

        ``President's Column,'' Space Times, bi-monthly column, 2001-
        2002.

        ``Strategic Planning at NASA,'' co-authored with Mathew Crouch 
        for the International Astronautical Federation Congress, Rio de 
        Janeiro, Brazil, 2000.

        ``Between a Rocket and a Hard Place,'' co-authored with Dr. 
        Roger Launius for the International Astronautical Federation 
        Congress, Rio de Janeiro, Brazil, 2000.

        ``Creating a Spacefaring Civilization,'' Ad Astra, bi-monthly 
        column, 1988-1996.

        ``Congressional Perception of Public Reaction to the Threat,'' 
        co-authored with Robert Park and Terry Dawson, Hazards Due to 
        Comets and Asteroids, Tom Gehrels, 1994.

        ``Should NASA Continue Making Manned Space Exploration a 
        Priority?'' a debate with (former) Congressman Bill Green, The 
        Costco Connection, 1992.

        ``Ask the Customers what they Want,'' Space News, 1992.

        ``Mission to Planet Earth Day,'' International Astronautical 
        Federation Congress, Dresden, Germany, 1990.

        ``Constituency Building--The Key to a Successful Space 
        Program,'' Space News, 1990.

        ``Returning to the Moon: A Rationale for Solar System 
        Exploration,'' co-authored with Ronald McCandless, for the 
        International Astronautical Federation Congress, Torremolinos, 
        Spain, 1989.

        ``Political, Economic and Legal Considerations of International 
        Cooperation on a Lunar Base,'' co-authored with Ronald 
        McCandless, for the 9th Princeton Conference on Space and 
        Manufacturing, Princeton, New Jersey, 1989.
Speeches
        ``Providing Space Policy Guidance to New World Leaders,'' 
        (International Space University, Beijing, China, 2007).

        ``Congress and America's Future in Space,'' (Woodrow Wilson 
        International Center, Washington, D.C., 2007).

        ``Communicating with the Public on Space,'' (International 
        Space Development Conference, Los Angeles, CA, 2006).

        ``Political Outreach for Space,'' (International Space 
        Development Conference, Washington, D.C., 2005).

        ``Evaluating the New Space Policy,'' (The Marshall Institute, 
        Washington, D.C., 2004).

        ``Commercial Space Efforts,'' (National Space Symposium, 
        Colorado Springs, CO, 2002).

        ``Citizen Space Travel,'' (Washington Space Business 
        Roundtable, Washington, D.C., 2002).

        ``Commercial Space Opportunities,'' (World Space Congress, 
        Houston, TX 2002).

        ``Commercial Space Travel,'' (California Space Authority, Los 
        Angeles, CA, 2002).

        ``The Future of Our Aerospace Effort'' (Testimony to the 
        Commission on the Future of U.S. Aerospace Industry, 
        Washington, D.C., 2002).

        ``Turning Goals Into Reality'' (NASA Aerospace Technology 
        Conference, Washington, D.C., 2001).

        ``Twenty-First Century Space Development'' (Space 2000 
        Conference and Exposition, Albuquerque, 2000).

        ``Space Exploration Public and Private Partnerships'' (American 
        Institute of Aeronautics and Astronautics, Bermuda, 1999).

        ``International Space Cooperation: New Government and Industry 
        Relationships'' (American Institute of Aeronautics and 
        Astronautics, Banff, Canada, 1998).

        ``News from Out of this World: The Search for Extraterrestrial 
        Life'' (American University, Washington, D.C., 1996).

        ``Space Advocacy'' (Aerospace States Association, Washington, 
        D.C., 1996).

        ``Partnerships in Space'' (NASA Alumni League Annual 
        Conference, Houston, Texas, 1995).

        ``Space Science and Exploration: Vision for the 21st Century'' 
        (11th Symposium on Space Nuclear Power and Propulsion, 
        Albuquerque, New Mexico, 1994).

        ``Public Perceptions of the Threat: The Collision of an 
        Asteroid or Comet with Earth,'' (Erice International Seminar on 
        Planetary Emergencies, Italy, 1993).

        ``Social Implications of Nuclear Propulsion'' (Advanced 
        Technologies Symposium, NASA Lewis Research Center/AIAA, 
        Cleveland, Ohio, 1991).

        ``Mission to Planet Earth Public Outreach'' (International 
        Space Development Conference, San Antonio, Texas, 1991).

        ``Communicating the Vision'' (SOAR Conference, National Science 
        Teachers Association, Washington, D.C., 1990).

        ``Space and Education'' (International Space University, 
        Toronto, Canada, 1990).

        ``The New Space Race'' (The Space Summit, National Space Club, 
        Huntsville, Alabama, 1990).

        ``The Space Constituency: A U.S. Example'' (CNES, Paris, 
        France, 1989).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        July 13, 1990--Senate Committee on Finance: Subcommittee on 
        International Trade; Testimony on compliance for foreign 
        countries with trade agreements; Lori Garver, Executive 
        Director of the National Space Society.

        June 14, 1993--Senate Committee on Finance: Subcommittee on 
        International Trade; Testimony on Super 301 provision of the 
        Trade Act of 1974; Lori Garver, Executive Director of the 
        National Space Society.

        May 23, 1995--Senate Committee on Commerce, Science, and 
        Transportation: Subcommittee on Science, Technology, and Space: 
        Testimony on NASA Space Station Program; Lori Garver, Executive 
        Director of the National Space Society.

        March 26, 1996--Senate Committee on Commerce, Science, and 
        Transportation: Subcommittee on Science, Technology, and Space: 
        Testimony on NASA Budget; Lori Garver, Executive Director of 
        the National Space Society.

        May 20, 1999--Senate Committee on Commerce, Science, and 
        Transportation: Subcommittee on Science, Technology, and Space, 
        on issues relating to the commercial space launch industry; 
        Lori Garver, NASA Associate Administrator for Policy and Plans.

        Spring 1989-1996--House Science Committee, Subcommittee on 
        Space and Aeronautics, testimony on the NASA budget hearings; 
        Lori Garver, Executive Director of the National Space Society.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For the last 25 years of my professional life, I have worked in 
nearly every area of the civil space program and on many critical 
issues facing NASA. My start was at the National Space Society, where I 
served as Executive Director for 9 years. The 30,000-member 
organization was primarily educational, with a grassroots network of 
chapters throughout the country dedicated to bringing an appreciation 
of space and science into classrooms. One of our major goals was to 
inspire children to pursue careers in science, math, and engineering. 
It was during this period that I completed my Master's degree in space 
policy to help provide me with the necessary foundation to form 
informed policy positions.
    From the National Space Society I went to NASA, where I directed 
the agency's policies and strategic planning. As Associate 
Administrator, I worked to make the development of NASA policies more 
transparent, with a determination to reach out to all key stakeholders, 
including Members of Congress, industry, and international partners.
    Since leaving NASA in 2001, I have managed the space practice at 
DFI International and Avascent (a single company that changed its name 
in early 2007 as part of a management buyout). During that time I have 
worked on many space and aeronautics issues, with a broad spectrum of 
clients: non-profit organizations, aerospace primes, entrepreneurial 
start-ups, and NASA itself. Our work has been management consulting, 
providing strategic recommendations to companies and organizations on 
appropriate ways to expand business opportunities and organize 
themselves to be more successful in the fields of space and 
aeronautics.
    This experience has helped me to understand the objectives of each 
of NASA's missions and the complex interrelationships among them, 
including the goals of the various stakeholders. I have gained an 
appreciation of how NASA activities can support broader national 
objectives.
    I would like to use these diverse experiences to help NASA 
contribute even more to our Nation's future. I would like to assist in 
providing leadership to NASA so that our investment in this great 
agency can do even more for the country and for the public.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Management and accounting controls are a serious challenge at NASA. 
My work experience over the past two decades has taught me that 
applying business processes and approaches to program management can 
make NASA's efforts more successful and improve the probability that 
projects are completed on time and on budget.
    I have learned a great deal from my positions to date about 
successful management. Managing a non-profit required rigorous 
financial oversight, especially during the recession of the early 
1990s. I had to streamline operations and prioritize among projects, 
all the while growing the membership base and expanding the 
organization's reach.
    At NASA, I served as an Associate Administrator, reporting to the 
NASA Administrator. I worked directly with the NASA financial and 
accounting system, participated in all OMB and internal budget 
discussions, and had my own office ISO 9000 certified. It was an 
excellent education that taught me much about how the agency works.
    While a Vice President of DFI International, I had joint 
responsibility with other senior managers for project management and 
accounting at the firm. Part of the firm's strength is that it trained 
all managers, including myself, in financial analysis.
    I recognize that NASA is a large and complicated organization, with 
nine field Centers and a diverse mandate. My varied career has exposed 
me to many of the challenges facing the agency. Assessing accounting 
processes and program management will be at the top of my list of 
administrative priorities if I am confirmed as Deputy Administrator. I 
believe I am well equipped to help the agency implement a solid set of 
solutions to these management challenges.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    NASA's three most serious challenges are mission safety, 
maintaining a first-class workforce, and closing the gap in human space 
transportation.
Safety
    Much is riding on each and every mission that NASA conducts. Given 
the visibility and importance of NASA's activities, it is critical that 
the agency achieve and maintain a strong commitment to safety. When the 
lives of astronauts and the public are at stake, that commitment is at 
its most important.
    As the shuttle program winds down over the next couple of years, 
this focus on safety will be especially important to achieve.
Workforce
    NASA's workforce is the agency's greatest asset. The individuals 
who work for NASA, both directly as civil servants and indirectly as 
contractors, should be viewed as critical resources. These are highly 
educated and skilled people, with a tremendous history of 
accomplishment, and NASA should build on this foundation to ensure that 
their individual and collective knowledge can help NASA learn from past 
experiences.
    An important challenge for NASA as it transitions away from the 
shuttle program to the space transportation systems of the future will 
be to ensure that it retains as much of its workforce as possible, 
supporting and retraining its employees so that it can capture the 
skills they have learned over many years at the agency and translate 
these into greater success in the future.
Closing the Gap
    It is now clear that no matter what NASA does, the Nation will be 
faced with its first planned gap in human space transportation 
capability since the transition to the Space Shuttle program. The 
country will be reliant on Russia to transport its own astronauts to 
and from the International Space Station beginning after 2010. NASA 
must do everything it can to minimize this gap and to ensure a more 
robust future capability.
    If the United States hopes to maintain a global leadership 
position, part of that will mean closing the gap in human spaceflight 
as soon as possible. We are a Nation inspired by challenges, and this 
is a serious and pressing one. We need to marshal all our resources, 
government and commercial, to find the right solution and solve this 
problem.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Past retirement accounts, Avascent 401(K) will continue to be 
held--no further contributions to be made by me or by Avascent.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2007 and 2008, as a representative of The Planetary Society (a 
501(c)(3) organization), I attended several meetings of the Coalition 
for Space Exploration, which supported increased funding for NASA. In 
both the 2004 and 2008 Presidential elections, I served as a volunteer 
policy advisor on space policy to the Democratic nominees. From 1998 to 
2001, as NASA Associate Administrator for Policy and Plans, most of my 
work related in one way or another to public policy. In this capacity, 
I presented testimony in 1999 to the Senate Committee on Commerce, 
Science, and Transportation: Subcommittee on Science, Technology, and 
Space, on issues relating to the commercial space launch industry.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and NASA's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with NASA's designated 
agency ethics official and that has been provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        RESUME OF LORI B. GARVER

Work Experience
    President, Capital Space, LLC (2001-Present).

        Drawing on her extensive experience at NASA and with a career 
        in the space industry, Lori Garver established her own 
        consulting firm in 2001. In this capacity, Ms. Garver advises 
        corporations' on their aerospace interests in Washington, D.C. 
        In 2001 and 2002, Ms. Garver initiated a project to increase 
        the visibility and viability of space tourism. Supporting a 
        client who was paying for his own trip to space, led to her own 
        quest for a sponsored space flight aboard the Russian Soyuz 
        vehicle to the International Space Station. Garver worked to 
        raise sponsorship funding, as she began the initial medical 
        certification and training in Russia. This project has remained 
        on hold since the Space Shuttle Columbia accident.

    Consultant, The Avascent Group (formerly DFI International), (2003-
Present).

        Serves as the senior advisor to the firm's corporate space 
        systems practice. Ms. Garver provides strategic planning, 
        technology feasibility research, and business development 
        assistance, as well as merger, acquisition, and strategic 
        alliance support to financial institutions and Fortune 500 
        aerospace, defense, telecommunications, and information 
        technology companies.

    Vice President, DFI International, (2001-2003).

        As Vice President of the firm's corporate space practice, Ms. 
        Garver lead management, strategic planning and business 
        development efforts related to commercial and civil space 
        activities.

    Associate Administrator, Office of Policy and Plans, National 
Aeronautics and Space Administration (1998-2001).

        Reporting directly to the NASA Administrator, the A.A. for 
        Policy and Plans oversaw the analysis, development, and 
        integration of NASA policies and long-range plans, the NASA 
        Strategic Management System, the NASA Advisory Council, and the 
        History Division. Ms. Garver served as a primary spokesperson 
        for NASA, appearing on national news programs, giving public 
        speeches and visiting with students and educators. Ms. Garver 
        has presented testimony to Congress in this capacity and 
        represented NASA at numerous conferences and symposia.

    Senior Policy Analyst, Office of Policy and Plans, National 
Aeronautics and Space Administration (1997-1998).

        Served as an advisor to the Associate Administrator for the 
        Office of Policy and Plans. Ms. Garver served as the Office's 
        focal point for policy and planning issues related to the 
        Commercial Guidelines section of the National Space Policy and 
        in developing a strategy to commercialize and privatize NASA's 
        functions.

    Special Assistant for Communications to the Administrator, National 
Aeronautics and Space Administration (1996-1997).

        Reporting directly to the NASA Administrator, Ms. Garver 
        contributed to the public understanding of the U.S. Space 
        Program by analyzing political strategies and philosophies and 
        advising on how NASA's program should be presented to 
        accurately reflect the Administrator's goals and objectives. 
        Responsibilities of the position included providing advice on 
        relations with Congress and the media.

    Executive Director, National Space Society, (1987-1996).

        As Executive Director of this space advocacy organization, Ms. 
        Garver provided overall leadership and management for the 
        25,000-member association. She served as the organization's 
        primary spokesperson, appearing on national television and 
        regularly testifying on Capitol Hill.

    Program Director, National Space Society, (1984-1987), was National 
Space Institute until 1986).

        In this position, Ms. Garver led the legislative and media 
        activities of the Society for all projects including member/
        constituency visits, special events, direct mail and 
        fundraising.

    Staff Assistant, John Glenn Presidential Committee, (1983-1984).

        Ms. Garver joined the Committee early in the campaign and 
        worked in a number of positions including western political 
        desk officer and scheduling.
Education

        B.A. (Political Economy), Colorado College, 1983.

        M.A. (Science, Technology, and Public Policy), George 
        Washington University, 1989.

Public Presentations
    Ms. Garver has testified on matters relating to the overall NASA 
Budget and science program funding and mission posture before the 
Senate Subcommittee on International Trade, the Senate Subcommittee on 
Science, Technology, and Space, the House Subcommittee on Space, and to 
the Committee on the Future of the U.S. Space Program (Augustine 
Committee). In addition, she has made presentations to many symposia 
and conferences.

Public Relations
    While at Capital Space, Avascent, DFI, NASA and at the National 
Space Society, Ms. Garver serves(d) as a spokesperson promoting the 
importance of the U.S. Space Program as well as investment in science 
and technology. She has appeared on many major new programs, including 
NBC's Today Show, ABC's Good Morning America, CBS News, Night Watch, 
PBS's Lehrer News Hour and Technopolitics, USIA's Worldnet, Fox Morning 
News, MSNBC, CSPAN's Washington Report, CNN's Crier & Company, and 
Crossfire Broadcasts. She has participated in numerous radio interviews 
and call-in shows including NPR's All Things Considered, Talk of the 
Nation and Science Friday. She is regularly interviewed by the major 
science and space print journalists, including those from the New York 
Times, the Wall Street Journal, the Washington Post, the Washington 
Times and the Christian Science Monitor. Ms. Garver is often featured 
or quoted in the trade press including Space News, Aviation Week and 
Space Technology, Space Business News and the Washington Business 
Journal.

Policy Analysis
    As a policy analyst in the aerospace industry, Garver served on the 
science and technology committee for the John Kerry for President 
Campaign, leading the space policy team and representing the campaign 
in numerous interviews and debates. At NASA, Ms. Garver has been 
responsible for developing policy documents and guidelines relating to 
the NASA strategic management system, multi-media, commercial space and 
space transportation. She has participated in numerous policy workshops 
including American Institute of Aeronautics and Astronautics workshops 
on International Cooperation, the Strategic Avionics Technology Working 
Group (SATWG), the GMU Workshop on Constituency Building for Space 
Exploration, NASA Lunar Architecture Workshop, Ames Robotic Lunar 
Workshop and has briefed the NASA Advisory Council and several of the 
NAC sub-committees. She served on the program committee for the 
International Conference on the Public Understanding of Science, 
sponsored by the International Center for the Advancement of Scientific 
Literacy.

Other Affiliations and Awards
        Member, International Academy of Astronautics, 2001-present.

        Recipient, One of the 10 Who Made a Difference, Space News, 
        2004.

        Member, Board of Directors, Women in Aerospace, 2001-2003.

        Member, Board of Directors, Space Day Foundation, 2001-2004.

        Recipient, NASA Distinguished Service Medal, 2001.

        President, American Astronautical Society, 2001-2002.

        Recipient, Honorary Doctorate of Laws, The Colorado College, 
        2000.

        Recipient, National Space Society, Space Pioneer Award, 1997.

        Member, Board of Director's McLean Hamlet Association, 1997-
        2007.

        Recipient, NASA Distinguished Public Service Medal, 1996.

        Member, Steering Group, Space Transportation Association, 1996-
        1997.

        Member, Board of Advisors, 2111 Foundation for Exploration, 
        1996-1997.

        Member, Board of Directors, the Hill Pre School, 1995-1997.

        Member, Advisory Committee, D.C. Space Grant Consortium, 1995-
        1996.

        Member, Board of Directors, Spacecause, 1988-1996.

        Member, Board of Advisors, Students for the Exploration and 
        Development of Space, 1991-1996.

        Member, NASA Advisory Council, 1994-1996.

        Member, Department of Transportation's Commercial Space 
        Transportation Advisory Committee (COMSTAC), 1993-1996.

        Co-Chair, Education Committee, International Astronautical 
        Federation, 1988-1993.

        Member, Board of Directors, Women in Aerospace, 1989-1994.

        President, Women in Aerospace, 1991-1992.

Personal
    Ms. Garver is a citizen of the United States and lives in McLean, 
Virginia with her husband and two children.

    The Chairman. Thank you very much. We have been unable--all 
of us have 4 o'clock appointments, and we have been unable to 
secure somebody to run this show. So I am just going to abandon 
health care, which is also pretty important, and stay the 
course here.
    Neither of you addressed the questions that I was posing to 
you, although you indicated that you might. I characterized 
NASA as adrift, more a splendid story of the past, much 
involved in the Nation's psyche and emotion at a certain time. 
But that since then, it has been adrift and has lost the 
fascination to Americans, and has had some really bad mess-ups.
    And so, while you were discussing during these 2 months, 
Ms. Garver, with Mr. Bolden how you are going to reinvigorate 
the agency, I am very interested to know how you are going to 
do it, because NASA has to be earned each year? NASA is not a 
given. No agency is a given.
    Mr. Bolden. Sir, let me get back, and see if I can directly 
answer your question. Let me speak about my vision for the 
Agency. And it would start with safety and efficiency in the 
operations that we do. That has to be foremost.
    I think it is important for me to say that because if I, as 
the leader, do not put that as number one, then no one else 
would believe it when I say it.
    The Chairman. Oh, but I understand you at number one but, 
what are you going to do about it?
    Mr. Bolden. Sir, second, I think that we need to 
reinvigorate our investment in research and development. I 
would like to see NASA as the preeminent research and 
development agency in the United States. We have allowed that 
to wither, as has every agency, and the DOD in this country.
    Senator Glenn used to call it, I guess, eating our seed 
corn. We have not invested in basic technology. Aeronautics is 
something that is the big ``A'' in NASA, and we have allowed 
aeronautics to sort of wither on the vine.
    We have a very talented group of people, but they are 
aging. We have an aging workforce. And so, we would have to 
inspire young men and women, young boys and girls to want to 
come to work with NASA.
    If I go to a classroom today, it is different than when I 
went when I was an astronaut in 1980. I could ask, how many of 
you want to be an astronaut, and every hand went up in the 
class. When I go to a school today and asked that question, I 
may see three hands. And all of them want to go into business. 
So, we do have a challenge in trying to get young men and women 
interested in coming back into the science and engineering 
fields again. We have to look at Earth, our planet, and NASA 
has to lead in providing the space-born sensors to understand 
not just what is out there, but what is in here.
    My third mission, and there are a couple of my crewmembers 
present from that flight, which was called, ``NASA's first 
Mission to Planet Earth.'' I looked at our atmosphere. The 
thing I would tell you that was disappointing in that flight 
was that most of the experiment packages were done by Europeans 
and Japanese, not American scientists. So, NASA has to re-open 
that opportunity for American scientists.
    And Lori and I can talk forever about the necessity to 
involve commercial entities, what I call entrepreneurial 
persons in establishing where they are going.
    First of all, the Nation has to decide where it wants to 
go. I think it is beyond low-Earth orbit. But, we also, as you 
said, must understand our oceans. We have to understand our 
atmosphere, because that is where it all starts. But, we do 
have to really invigorate the interest of youth in this country 
if we are going to do anything.
    Ms. Garver. Senator, I share your concern, and I believe 
that as Charlie and I have been discussing this over the past 
few months, a major point for NASA in the future is to begin to 
make it relevant to the Nation and to the world. When I grew 
up, NASA was relevant because it was a symbol of us going to 
beat the Russians and to help us be a superior technological 
nation.
    I share your views that there is not that sense any more 
about NASA. Now, we are half of 1 percent of the Federal 
budget, but we recognize we need to earn that back.
    And Charlie spoke of several of the things we do that are 
tangible, that benefit the public. Frankly, I do not think NASA 
does a very good job of explaining to the public, and perhaps 
even to the Senate Commerce Committee, those kinds of things 
that we do that have helped to benefit our economic 
underpinnings. Obviously without Mission Plant Earth, and the 
Earth sciences that we have done, we would not know where our 
environment was, and we need to do more in these areas.
    But, in the area of human space flight, which is really all 
about being the best we can be in showing not only our own 
public, but the world, about the importance of exploration, my 
sense is that while we do not spend any of that money in space, 
we are spending it on Earth for technologies, and development 
going to other industries. It is also about what we have done 
cooperating internationally. If we look at the space station 
right now, it is one of the pinnacle cooperative efforts we 
have with the Russians, not to mention, our other partners. And 
I believe Charlie and I are interested in exploring those 
partnerships, exploring commercial development that helps our 
own economy in doing those things that are more relevant to the 
American taxpayer.
    The Chairman. Thank you very much. My time is up. Senator 
Hutchison.
    Senator Hutchison. Thank you very much.
    First of all, I want to say to Lori Garver that I should 
have mentioned you by name earlier as well as someone who I 
will support. And, I want to pursue the International Space 
Station, because Senator Nelson and I, when we were Chairmen 
and Ranking on the Space Subcommittee, designated the American 
part of the Space Station as a national laboratory. And it was 
for the purpose of being able to get outside experimentation 
either for other Federal agencies, universities, or 
corporations to be able to help with the funding level.
    But I want to say that when we passed the America COMPETES 
Act, a very bipartisan effort a couple of years ago to increase 
stem education and more research in our country, we doubled the 
budget of the National Science Foundation for research, because 
it is so important. But I had to fight very hard to just have 
NASA mentioned as another area where we ought to invest in 
research. And yet, the microgravity conditions in space offer 
unique opportunities that cannot be duplicated on Earth.
    I think your point is very well taken, but maybe NASA has 
not done enough to pursue these options, and make it known what 
is available that is unique. And so, I am going to ask you to 
expand on your answer about the International Space Station, 
because when Senator Rockefeller says, what are you going to do 
for me in the future, stop talking about the past, I think we 
have to give an answer, and I think the answer is this unique 
facility that we have invested hundreds of millions of dollars 
to build.
    We have international partners who have contributed 
enormous amounts, and expect it to be a viable option, and an 
opportunity to cooperate, and I just want your ideas, Mr. 
Bolden and Ms. Garver, on how you will pursue that as one of 
the ways we can show the importance of NASA's preeminence going 
forward, and not just resting on wonderful laurels, but 
nevertheless past laurels.
    Mr. Bolden. Senator, I think you probably are very well 
aware, much more so than many people, of the fits and starts 
through which the International Space Station has gone. It has 
taken us up until now to outfit it with a complete crew of six. 
We are doing housekeeping, and we are doing maintenance as 
opposed to an extensive amount of research, as we are now about 
to embark on an International Space Station.
    Even then, we have made some significant achievements 
there. If I look at things that have been done, not just on the 
International Space Station, but with other space vehicles, we 
would not have something that everybody is familiar with, CAT 
scan, or MRI or even the DeBakey Ventricular Assist Device that 
everyone in Houston knows about, a heart pump.
    Those are all things that came about, not because they were 
originally intended to be invented, but they were things we 
needed in order to be able to safely fly in space.
    The International Space Station represents, I like to call 
it, a bridge to exploration beyond the Earth orbit. It is the 
way that we would allow commercial ventures, entrepreneur 
adventurers, to have a place where they can seek to go to carry 
cargo, and one of these days, maybe even carry a crew. It is a 
long way to Mars. I want to go to Mars. I think everybody wants 
to go to Mars. Mars is a 20-year venture probably, if you look 
at NASA's plan right now.
    So, I cannot go out and tell a kid that I want you to come 
to work for NASA, because we are going to go to Mars. I can 
tell them, we have an International Space Station, if you would 
come help me design the biomedical research that we are going 
to do there. Colleges and universities, we are going to make 
the International Space Station available to you to do some 
basic research, what we call, level one, level two, level three 
research; stuff that most agencies do not like to do today 
because everybody wants an answer right now.
    But, we have got to get back to that, and those are some of 
the things that we will do to inspire young people to work and 
to want to get into science and engineering again.
    Ms. Garver. Senator, thank you for the question. In my 
view, the space station is a toe hold to the universe as you 
know, and as Charlie said, we have only had a full complement 
of crew these last few weeks, really. And, we are just 
beginning to do this research.
    Why doesn't NASA work with commercial industry as well as 
the medical community? I believe there is a great feature, as I 
know you do, in utilizing the space station for biomedical 
research.
    One of the experiences we worked on was a liver tissue 
experiment in a bioreactor where you could test metabolites 
that could potentially help people with liver disease, which, 
if we are able to develop that research, now that we have the 
full crew complement in the space station, could change life 
for millions.
    I feel that we have offered justifications for space 
station over the 20 years we have been planning to have one, 
and we are just now getting to the point where those are paying 
off.
    NASA has two agreements, is our understanding, one with the 
National Institutes of Health working on vaccines, one for 
salmonella, and we have to let this research continue with this 
investment. But another key, as you know, is developing a 
transportation system that can get to and from the space 
station more economically, and more efficiently, so that many 
of these experiments, whether they are commercial or 
governmental, can be done more regularly now that we have this 
laboratory.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, the question that you ask is 
really a question about how do you re-ignite the imagination 
and the excitement of the American people that we have 
experienced in the past, what are referred to as the glory days 
at NASA, when this agency had this can-do spirit and there was 
nothing that they would not tackle and try to achieve.
    Now, on a daily basis, they are continuing to do that, as 
you well know. And, we saw evidence of that in the last Hubble 
mission, where they go out and completely remake the Hubble, 
which is good for another 10 or 15 years, and would continue to 
anti up the secrets of the universe.
    But the question that you ask is so fundamental, and I 
appreciate you posing it, because a lot of that excitement, a 
lot of that magic has gone. And, I think that the real answer 
to your question is that NASA needs a leader. And, the only 
person that can lead America's space program is the President 
of the United States.
    It is that person that has to unleash the ingenuity of all 
these engineers now aging, and the younger ones coming. And, 
what we have seen is, over the last decade or so, that NASA has 
been starved of funds, and given too much to do with too 
little.
    Now, that then begs us to look at the importance of the 
Norm Augustine commission, because they want to basically lay 
out the blueprint for the Obama Administration. That is where 
they think NASA is going to go. We hope it is going to be a 
rigorous one. We hope that they are going to say, NASA is doing 
too much with too little in order for him to be able to have 
the safety and the efficiency that he needs.
    So, it all comes back to the President. And if the 
President will give that bold strike, then that team right 
there, I believe, can implement it. But, it has got to be the 
President that leads it.
    Now, the President, fortunately, as a candidate, made some 
fairly invigorating and bold statements about what--he said we 
are going to be on the moon by 2020. He said we want to close 
the gap that is going to cause a loss of 4,000 jobs just at the 
Kennedy Space Center when they shut down the Space Shuttle, 
because we did not give enough money to the development of the 
new rocket. And, it is going to be another 4 or 5 years before 
we develop that.
    And so, if the President would give that leadership and not 
let the Office of Management and Budget run NASA, which is what 
has happened, not just the last Administration, but the 
previous one too. So, this is bipartisan. If the President will 
say, here, take it, run with it, then I think this team is 
going to do that.
    So, rather than asking you a question, I know you all 
agreed with what I just said, is there any way you want to----
    Mr. Bolden. Senator, my handlers behind me are probably 
cringing at this moment, because they know that I will answer 
your question. Let me answer it with a couple of statements, 
because, Senator Rockefeller, I do not think we have adequately 
answered your question, because we went right to the 
International Space Station, and NASA is more than just an 
International Space Station.
    I do not know how many of you know what a C-130 is? It is a 
cargo plane. It flies--I see people shaking their heads. Its 
speed is now greatly increased, its efficiency is greatly 
increased, and it is because it carries a prop that is twisted. 
That came from NASA research that was done at formerly the 
Lewis Research Center, now the Glenn Research Center.
    We actually have an aircraft that some people do not like. 
It is called the MV-22, that the Marine Corps flies, and I 
happen to like. That is NASA technology.
    We have a lot of basic research. Franklin Chang Diaz, who 
is my idol, another astronaut, who now is in the 
entrepreneurial space business, has a vessel, a rocket engine, 
that, if it works, and I think it will, will take us to Mars in 
39 days, instead of 8 to 11 months. NASA provided him a very 
small stipend to get started, and to build his project to what 
we call the technology readiness level one, two and three. And 
now he is at the point where it is ready to fly, but he has 
done that, with what they call venture capitalists, private 
investors.
    That is what Lori and I talk about. The government cannot 
fund everything that we need to do, but we can inspire and open 
the door for commercial entrepreneurial entities to become 
involved, to become partners with NASA in this research and 
development that will enable things to come about.
    So, no, you cannot make enough money for NASA to do the 
things that I think you want to do. But together we can inspire 
young people to want to put their money that they do have, and 
are looking for places to invest, into science and technology. 
And together, I think, we will go back to the moon, and, 
eventually, we are going to Mars and other places even deeper 
in our solar system.
    The Chairman. Thank you.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. And thank you both 
for your testimony.
    As both of you discussed with me in my office, Mexico is 
the home to NASA's White Sands Test Facility, which for many 
years has supported the Space Shuttle programs as an 
alternative landing site and key place for developing and 
testing propulsion systems. And no doubt--White Sands 
capabilities and contributions to fulfilling NASA's mission to 
pioneer the future in space, exploration scientific discovery 
and aeronautics research. Yet, with the retirement of the 
Shuttle, the role of the White Sands Test Facility's personnel 
and infrastructure for future NASA and activities is not yet 
defined.
    What role do you foresee for the White Sands Test Facility 
under your leadership of NASA? I will just tell you it is an 
excellent facility with excellent people, and we would like to 
work with you very closely to see that a mission is defined and 
that it is utilized to its very best capabilities.
    Mr. Bolden. Senator, currently White Sands provides us with 
a location that gives us an opportunity to test explosives, 
very hazardous materials, that we cannot test anywhere else. I 
do not foresee that, to be quite honest, coming to an end any 
time soon.
    I cannot promise you what the future projects are going to 
be that would be taken to White Sands, but we have already 
given some consideration to things that we would like to do to 
reevaluate how NASA approaches the technological challenges 
that we face.
    So, as I mentioned to you in your office, I look forward to 
working with you and with the members of this committee, if 
confirmed, to see if we cannot find ways to optimize the way 
that we employ all of the facilities that are available. You 
happen to have some that we need to talk about infrastructure 
also, and so hopefully, we will have an opportunity to talk 
about that a little bit.
    Senator Udall. Thank you very much.
    And I will, Mr. Chairman, submit my additional questions 
for the record.
    The Chairman. I want to thank Senator Udall for taking 
over; this 4 o'clock to 5 o'clock meeting on healthcare is 
really seminal for the future of what is going to happen. 
Everything sort of hangs in the balance right now.
    Well, in front of me, I have witnesses who have vast 
responsibilities, and a lot of their friends and families, and 
supporters who are here to see them. So, I feel a little bit 
badly about leaving.
    But Senator Udall has agreed to be here, and he is really 
good, and he has got White Sands. And he is going to get all of 
those infrastructure problems worked out before this is over. 
So, I am going to leave now and beg your forgiveness for that, 
and look forward to open dialogue, not only with the two of 
you, but all the other excellent nominees, all of whom I would 
say that, the three of us agree, will be easily confirmed.
    Mr. Bolden. Thank you, Senator.
    Ms. Garver. Thank you, Senator.
    The Chairman. So we go back to Senator Nelson.
    Senator Nelson. I think we are done with the panel.
    The Chairman. Senator Nelson says you can go. Thank you 
very much.
    [Recess.]
    Senator Udall. Mr. Lidinsky will be back in just a minute. 
Thank you very much for being patient with us here and I think 
we will just--we will go ahead and start from the left and if 
Mr. Lidinsky is not back, Ms. Trottenberg, we will go second 
with you.
    Please, Ms. Hersman.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN-DESIGNATE, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Thank you very much, Senator Udall. It was a 
pleasure to meet with you earlier this week.
    I have very good memories of participating in the work that 
you and your colleagues do in this very room. Today is a very 
special day for me, and so I brought with me some of the most 
special people in my life, and if it is all right with you, I 
would like to introduce them.
    Senator Udall. Absolutely please introduce them and have 
them stand if they will.
    Ms. Hersman. Sure. If you all can stand? My husband, Niel 
Plummer and our three sons, Taylor, Wilson and Jackson. Dianna 
Lopez, Walt and Inga Hersman, my father and stepmother, Jenny 
Pye, Phyllis and Niel Plummer, my in-laws, I have many 
colleagues past and present who have joined me from the Safety 
Board, my Commerce days and House work and my dedicated staff, 
Nancy Lewis and Reshan Blackwell.
    These dear friends are the people who believe in me most 
and have supported me in all my endeavors. And I am honored by 
their presence here.
    I would like to begin by thanking President Obama for 
nominating me to the position of Chairman of the National 
Transportation Safety Board. I also thank you, Senator Udall, 
and the Members of the Committee for giving me an opportunity 
to tell you a little bit about the Safety Board and why I would 
be honored to be its Chairman.
    Since 2004, it has been my distinct privilege to serve the 
public as an NTSB board member. During those 5 years I have 
launched with our team to sixteen major accidents. I have 
watched them drop everything that they are doing, grab their 
go-bags, and head to an accident scene even before the smoke 
has cleared.
    They get on the scene and they begin the meticulous work of 
documenting the accident and others begin searching out 
witnesses and survivors. While investigators piece together the 
accident sequence, our Transportation Disaster Team reaches out 
to victims and their families to help them begin navigating 
through shock, grief and eventually healing.
    The work that we do with the victims and their families may 
seem difficult, but it is not. These families are a gift to the 
NTSB because they remind us with their grace and courage why it 
is so important to make sure that these accidents are prevented 
in the future.
    I am honored today with the presence of three such 
individuals, Hans Ephlaimson-Abt, Kendra St. Charles and Jim 
Hurd. In the past 5 years, I have come to know the NTSB very 
well and I would like to share with you what I see there.
    First, I see an extraordinary staff. They are smart, they 
are curious and they love to solve mysteries. To a person, they 
have an unparallel passion for transportation safety. This 
unique mixture of talent and enthusiasm is why they have been 
able to tell us in just the 5 years that I have been there the 
cause of over one hundred major transportation accidents 
including why a jetliner known as 587 broke up over New York, 
why two freight trains crashed and released chlorine gas in 
Graniteville, South Carolina, why a cargo vessel hit the pier 
of the Oakland Bay Bridge as it left San Francisco and why the 
I-35 Bridge in Minneapolis collapsed into the Mississippi 
River.
    Not only did they tell us what happened in these tragedies, 
they told us what needs to be done so that they never happen 
again. Therefore, I see dedicated professionals doing 
invaluable work at an annual cost of about thirty cents to each 
American.
    I also see an agency that is the safety conscience and 
safety compass of the transportation industry. As an 
independent, non-regulatory agency, the NTSB can articulate 
needed safety improvements and innovations without having to 
prove that they are cost beneficial or politically feasible.
    The NTSB has the full attention of industry leaders, other 
government agencies and policymakers like yourselves. 
Therefore, I see an organization that is uniquely situated to 
point the way toward a safer transportation system.
    Finally, I see an agency that has been around for 40 years 
and we are in a world now, in which the transportation industry 
looks very little like it did 40 years ago. The mission of the 
agency has not changed but the world has. To remain relevant in 
this fast-moving environment, the NTSB may have to make 
fundamental changes in the way that it approaches accident 
investigations and issues recommendations.
    Therefore, I see an agency whose challenge it is to be 
nimble enough to keep pace with changes that are occurring in 
transportation and communication often at a breathtaking pace. 
I look forward to the opportunity to lead this outstanding 
organization if you bestow me the honor and the privilege to do 
so.
    In the next few years it promises to be a very exciting 
time for the transportation industry. I hope to contribute by 
making it a safer industry. Thank you.
    Senator Udall. Thank you very much.
    [The prepared statement and biographical information of Ms. 
Hersman follows:]

 Prepared Statement by Hon. Deborah A.P. Hersman, Chairman-Designate, 
                  National Transportation Safety Board

    Thank you for that kind introduction, Chairman Rockefeller, and 
thank you to Ranking Member Hutchison and Members of the Committee for 
the opportunity to appear before you today. Mr. Chairman, as you know, 
my career began 20 years ago when I interned for Congressman Bob Wise 
of West Virginia. Returning here today, I recall my years spent working 
on the Commerce Committee and I have wonderful memories of 
participating in the critical work you and your colleagues do year 
after year in this very room.
    This is a special day for me, so I have brought with me some of the 
most special people in my life: my husband, Niel Plummer and our three 
sons: Taylor, Wilson, and Jackson; my father and stepmother, Walt and 
Inga Hersman; the Plummer family, who are the best in-laws ever; my 
dedicated staff, Nancy Lewis and Reshan Blackwell, many colleagues 
(past and present) and dear friends. These are the people who believe 
in me most and support me in all my endeavors.
    I'd like to begin by thanking President Obama for nominating me to 
the position of Chairman of the National Transportation Safety Board. I 
also thank you for giving me this opportunity today to tell you a 
little bit about the NTSB and why I would be honored to be its 
Chairman. Since June, 2004, it has been my distinct privilege to serve 
as an NTSB Board Member. During those 5 years, I have accompanied our 
investigators on 16 major accident launches. I have watched them drop 
whatever they were doing, grab their go-bags, and head to an accident 
scene to get there often before the smoke has cleared. Once on scene, 
they hardly stop to rest or eat. Some begin the meticulous work of 
documenting the scene in minute detail, while others seek out witnesses 
and survivors. While investigators begin piecing together the accident 
sequence, our Transportation Disaster Assistance team reaches out to 
victims and their families to help them begin navigating through shock, 
grief, and eventually, healing. The work we do with the victims' 
families may seem difficult, but it's not. These families are a gift to 
the NTSB, because they remind us, with their grace and courage, why it 
is so important to work together to make sure these accidents are 
prevented in the future.
    In the past 5 years, I have come to know the NTSB very well, and I 
want to share with you what I see there.
    First, I see an extraordinary staff. They are smart; they are 
curious; they love to solve mysteries; and to a person, they have an 
unparalleled passion for transportation safety. This unique mixture of 
talent and enthusiasm is why they have been able to tell us--just in 
the 5 years that I've been there--the causes of over one hundred major 
accidents, including why a jetliner known as Flight 587 crashed in New 
York, why two freight trains crashed and released chlorine gas in 
Graniteville, South Carolina, why a cargo vessel hit the pier of the 
Oakland Bay Bridge as it left San Francisco, why the I-35 bridge over 
the Mississippi River collapsed in Minneapolis, and why a gas line 
exploded causing an apartment building to burn down in Bergenfield, New 
Jersey. Not only did they tell us why these tragedies happened, they 
told us what should be done so that they never happen again somewhere 
else. Therefore, I see dedicated professionals doing invaluable work at 
an annual cost of about 30 cents per American.
    I also see an agency that is the safety conscience and compass of 
the transportation industry. As an independent, non-regulatory agency, 
the NTSB can articulate needed safety improvements and innovations 
without having to prove that they are cost beneficial or politically 
feasible. The NTSB has the full attention of industry leaders, other 
government agencies, and policymakers, like yourselves. Therefore, I 
see an organization that is uniquely situated to think about 
transportation safety in the ideal and then point the way toward a 
safer transportation system.
    Finally, I see a 40-year-old agency working hard to improve safety 
in a transportation world that looks very little like it did 40 years 
ago. The mission of the agency has not changed, but the world has. To 
remain relevant in this fast-moving environment, the NTSB may have to 
make fundamental changes, perhaps in the way it approaches accident 
investigations or the way that it issues its recommendations. 
Therefore, I see an agency whose challenge is to be nimble enough to 
keep pace with changes that are occurring in transportation and 
communication, sometimes at breathtaking speed.
    I look forward to an opportunity to lead this outstanding 
organization, if you bestow on me the honor and the privilege to do so. 
The next few years promise to be very exciting for the transportation 
industry; I hope to contribute by making it a safer industry.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Deborah Anne 
Plummer Hersman (Debbie).
    2. Position to which nominated: Chairman of the National 
Transportation Safety Board.
    3. Date of Nomination: June 18, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 490 L'Enfant Plaza East, SW, Washington, DC 20594.

    5. Date and Place of Birth: May 7, 1970; Edwards Air Force Base, 
California.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Philip Niel Plummer, Software Engineer, Lockheed 
        Martin; Sons: Taylor Niel Plummer (DOB: 8/14/2000), Wilson 
        Stephen Plummer (7/23/2002), Jackson Pierce Plummer (10/8/
        2005).

    7. List all college and graduate degrees. Provide year and school 
attended.

        International Studies, BA, 1992; Political Science, BA, 1992--
        Virginia Tech, Blacksburg, VA.

        Conflict Analysis and Resolution, MS, 1999--George Mason 
        University, Fairfax, VA.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Board Member, NTSB, 2004-present.

        Senior Professional Staff, Senate Commerce, Science, and 
        Transportation Committee, 1999-2004.

        Staff Director and Legislative Aide, Congressman Robert E. Wise 
        (Representative Wise served as Subcommittee Chairman and 
        Subcommittee Ranking Member on House Transportation and 
        Infrastructure Committee), 1992-1999.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        President, Southpointe Homeowners Association, 2004-2008.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    President, Southpointe Homeowners Association (SPHOA), 2004-2008. I 
may be considered a member of certain organizations as a result of my 
charitable giving (amounts of less than $300 annually), but I am not 
active in these organizations (for example, Red Cross, National Public 
Radio, Friends of the National Zoo, Smithsonian Associates, and Parent-
Teacher Organizations). I am not a member of any organization that 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Since 2004, I have served in an appointed position as a Board 
Member for the NTSB.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        $500 Obama for America, August 15, 2008.

        Volunteer for Obama-Biden, Fall 2008.

        Volunteer for Tom Daschle for Senate, October 2004.

        Volunteer for Bob Wise for Governor, 1999.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Kentucky Colonel (2007); Distinguished West Virginian (2004); 
        LBJ Intern (1991).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Articles

        April 2009--National Business Aviation Association, Guest 
        Commentary in First Annual Safety Magazine.

        January 2008--Air Line Pilot magazine, Guest Commentary, 
        ``Managing Fatigue Before it Reaches the Cockpit.''

        2007 Edition of ``Yachting in Chicago'' magazine, Guest 
        Commentary, ``Recreational Boating Safety Education Most Wanted 
        by the NTSB.''
Speeches
2009

        May 14, 2009--Testimony before the U.S. House of 
        Representatives Committee on Transportation and Infrastructure, 
        Subcommittee on Railroads, Pipelines and Hazardous Materials, 
        ``Reauthorization of the Hazardous Materials Programs,'' 
        Washington, D.C.

        April 22, 2009--Presentation at the Corporate Aviation Safety 
        Seminar in Orlando, Florida.

        March 24, 2009--Presentation at the 2009 International 
        Conference on Fatigue Management in Transportation Operations, 
        Boston, MA.

        March 6, 2009--Presentation at the Commercial Vehicle Safety 
        Alliance Bus Safety Summit, Arlington, VA.

        March 3, 2009--Presentation at the Air Charter Safety Symposium 
        in Ashburn, VA.

        February 27, 2009--Presentation to the Maritime Trades 
        Department Executive Board Meeting, Miami, FL.
2008

        November 19, 2008--Remarks to the Emergency Nurses Association 
        Regarding Emergency Nurses Association National Scorecard On 
        State Roadway Laws, Washington, D.C.

        June 25, 2008--Remarks before the Maryland Press Conference and 
        Child Passenger Safety Demonstration, Rockville, MD.

        May 21, 2008--Presentation to the Eno Leadership Conference, 
        Washington, D.C.

        April 30, 2008--Presentation to the Flight Safety Foundation--
        Corporate Aviation Safety Seminar, Palm Harbor, FL.

        March 27, 2008--Remarks on NTSB's Women's History Month 
        Program, Washington, D.C.

        February 23, 2008--21st Annual Fire Service Officers School for 
        Kentucky, Owensboro, KY.

        February 8, 2008--Airport Council International/ACI-NA 2008 
        Winter Board of Director's, Las Vegas, NV.

        January 17, 2008--Remarks on 30th Anniversary Of Child 
        Passenger Protection Laws, Washington, D.C.
2007
        November 19, 2007--Testimony before the U.S. House of 
        Representatives, Subcommittee on Coast Guard and Maritime 
        Transportation on ``San Francisco November 2007 Oil Spill 
        Causes and Response,'' Washington, D.C.

        September 13, 2007--Presentation to the FMCSA Motor Carrier 
        Safety Advisory Committee, Washington, D.C.

        November 6, 2007--Presentation to the National Air 
        Transportation Association Aviation Business Roundtable, 
        Washington, D.C.

        July 11, 2007--Testimony before the Committee on Transportation 
        and Infrastructure, Subcommittee on Highways and Transit, U.S. 
        House of Representatives, ``Motor Carrier Safety: The Federal 
        Motor Carrier Safety Administration's Oversight of High Risk 
        Carriers'', Washington, D.C.

        July 11, 2007--Presentation on Seat Belts on School Buses at 
        the NHTSA Public Meeting, Washington, D.C.

        May 21, 2007--Testimony before The Transportation and 
        Interstate Cooperation Committee, New Hampshire Senate on House 
        Bill 802 Seat Belt Legislation, Concord, New Hampshire.

        May 16, 2007--Presentation to the FMCSA Commercial Driver's 
        License Advisory Committee, Washington, D.C.

        January 8, 2007--Remarks before the Advocates for Highway and 
        Auto Safety, Washington, D.C.
2006
        November 1, 2006--Remarks before the Lexington Division of 
        Police Awards Banquet, Lexington, KY.

        October 21, 2006--Remarks before the 2006 National Boating 
        Federation 40th Anniversary General Meeting, Portsmouth, VA.

        September 12, 2006--Opening Statement for NTSB Public Forum on 
        Motorcycle Safety.

        August 15, 2006--Statement for the National Conference of State 
        Legislatures, Nashville, TN.

        July 12, 2006--Opening Statement for Public Hearing on 
        Investigation of Fire On-Board a United Parcel Service (UPS) 
        Airlines Flight 1307.

        May 10, 2006--Statement for the Corporate Aviation Safety 
        Seminar (CASS) 2006, Phoenix, AZ.

        April 30, 2006--Statement for the Signing of the Memorandum of 
        Understanding Between the National Marine Manufacturers 
        Association and the Outdoor Channel, 2006 American Boating 
        Congress, Washington, D.C.

        April 26, 2006--Statement for the 2006 Kentucky Lifesavers 
        Conference, Louisville, KY.

        January 26, 2006--Remarks before the Meharry Medical College/
        State Farm Awards Ceremony, Columbia, SC.

        January 23, 2006--Testimony before the Committee on 
        Transportation, Pennsylvania House of Representatives on Junior 
        Driver Licenses, Harrisburg, PA.
2005
        June 13, 2005--Opening Statement for Public Hearing on 
        Investigation of Aircraft Accident Pinnacle Airlines Flight 
        3701, Washington, D.C.

        May 19, 2005--Testimony before the Transportation Committee, 
        Wisconsin Assembly, on Assembly Bill 215--Primary Seat Belt 
        Enforcement.

        May 14, 2005--Remarks for Commencement, Virginia Polytechnic 
        Institute and State University, Blacksburg, VA.

        February 23, 2005--Remarks before the 2005 Motorcoach Expo, Las 
        Vegas, NV.

        February 14, 2005--Testimony before the Transportation 
        Committee, State of Connecticut, Regarding Child Passenger 
        Safety Legislation.

        January 13, 2005--Testimony before the Subcommittee of the 
        Transportation Committee, South Carolina Senate, Regarding SB 
        1--Primary Enforcement Legislation.
2004
        September 28, 2004--Testimony before the Senate Transportation 
        Committee, State of Michigan, Regarding Child Passenger Safety 
        Legislation.

        March 30, 2004--Testimony before the Senate Committee on 
        Commerce, Science, and Transportation, ``Nomination of Deborah 
        A.P. Hersman, et al,'' Washington, D.C.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        May 14, 2009--Testimony before the U.S. House of 
        Representatives Committee on Transportation and Infrastructure, 
        Subcommittee on Railroads, Pipelines and Hazardous Materials, 
        ``Reauthorization of the Hazardous Materials Programs,'' 
        Washington, D.C.

        November 19, 2007--Testimony before the U.S. House of 
        Representatives Committee on Transportation and Infrastructure, 
        Subcommittee on Coast Guard and Maritime Transportation, ``San 
        Francisco November 2007 Oil Spill Causes and Response,'' 
        Washington, D.C.

        July 11, 2007--Testimony before the Committee on Transportation 
        and Infrastructure, Subcommittee on Highways and Transit, U.S. 
        House of Representatives, ``Motor Carrier Safety: The Federal 
        Motor Carrier Safety, Administration's Oversight of High Risk 
        Carriers,'' Washington, D.C.

        March 30, 2004--Testimony before the Senate Committee on 
        Commerce, Science, and Transportation, ``Nomination of Deborah 
        A.P. Hersman, et al,'' Washington, D.C.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served as a Board Member of the NTSB since 2004. During the 
last 5 years, I have gained significant knowledge about the mission, 
personnel, responsibilities, internal processes, and public obligations 
of the NTSB. Not only have I served as a Board Member in public 
hearings, chairing Symposia and Boards of Inquiry, I have been briefed 
and participated, as appropriate, in the management of the agency 
itself. I believe my experience on scene at accidents, working with the 
victims' families and the various stakeholders, reviewing accident 
reports in all modes of transportation, advocating for NTSB 
recommendations to improve transportation safety, and my detailed 
understanding of the organization will serve the taxpayers well if I am 
confirmed.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe that as an effective steward of taxpayer dollars, I must 
oversee the broad mission of the NTSB while holding all employees to 
high standards for job performance and fiscal responsibility. Having 
been a member on the Board for the past 5 years, I have a unique 
understanding of the management needs of the agency. While I realize 
that, if confirmed, I would have authority and responsibility as the 
head of the agency, I also recognize that I must rely on and delegate 
many management functions to those employees who are best positioned to 
carry them out. Over the past 5 years, I have had the luxury and 
privilege of acquiring a working relationship with and in-depth 
familiarity and knowledge of the officials and offices on which I must 
rely to operate the NTSB effectively. For example, the Office of the 
Chief Financial Officer (CFO) has the responsibility for ensuring that 
appropriate accounting controls are in place and that the agency 
receives a clean independent financial audit each year. The Chief 
Information Officer (CIO) must ensure compliance with computer security 
protocols and quality control mandates. Our Managing Director must 
display a vision for the long-term future of the organization and 
demand timely, high-quality accident investigations that reaffirm the 
NTSB's position as a world-renowned, highly respected transportation 
accident investigation agency.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Highway Fatalities: Significant safety improvements have 
        been seen in every mode of transportation, yet the number of 
        highway fatalities remains unacceptably high. Approximately 
        43,000 deaths occur on our Nation's highways every year. This 
        issue deserves greater attention from the NTSB, but the number 
        of highway accident investigators is very small compared to the 
        number of investigators assigned to accidents in other modes, 
        most notably aviation. Achieving a greater emphasis on highway 
        safety issues may require additional resources or a 
        reallocation of resources within the agency to ensure that the 
        NTSB has the staff and funding to bring a sharper focus on 
        highway accidents and safety issues.

        2. International Aviation Accidents: Domestic commercial 
        aviation accidents have decreased significantly in the last 
        decade, but the NTSB continues to receive requests from other 
        countries to assist in investigations of aviation accidents 
        that occur abroad. These many requests are not only a function 
        of the rights of certain states under the Convention on 
        International Civil Aviation, but also are a direct consequence 
        of the stellar reputation the NTSB enjoys worldwide for 
        conducting thorough and expert accident investigations. The 
        NTSB's assistance to other countries should continue; not only 
        does it help to improve aviation safety around the world, but 
        we also learn important lessons that can be applied to domestic 
        aviation operations. I would like to see this part of the 
        agency's mission better recognized within our borders.

        3. Safety Studies: The majority of the NTSB's recommendations 
        for improved transportation safety arise from accident 
        investigations. However, the agency enjoys the talent and 
        expertise of a number of transportation researchers whose 
        knowledge can be tapped beyond the parameters of accident 
        investigation. In the past, the NTSB has conducted a number of 
        safety studies in all modes of transportation, producing 
        approximately one safety study per year. These studies have 
        generated recommendations to the transportation community that 
        have led to significant safety improvements. I believe the NTSB 
        should increase the output of safety studies because they 
        present an effective avenue to address emerging trends and 
        identify improvements in transportation safety without waiting 
        for a stand-alone fatal accident to prompt an investigation.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have been an employee of the Federal Government my entire career. 
I am a FERS employee and have a Thrift Savings Account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Board's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I have been an employee of the United States since 1992. I have not 
been engaged in private business relationships or transactions of any 
type, other than investment in retirement accounts and savings. In 
connection with the nomination process, I have consulted with the 
Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. The designated 
agency ethics official did not find evidence of any conflict of 
interest that would preclude my performing the duties of Member and 
Chairman of the NTSB. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Board's designated agency ethics official 
and that has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly'' or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have worked for both the Congress and the Executive Branch over 
the last 10 years. I have worked directly on legislation as a 
Congressional staff member and have advocated for improvements to 
transportation safety on behalf of the NTSB.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Board's 
designated agency ethics official and that has been provided to this 
Committee.
    I would like to note that, during my initial term as a Board Member 
over the last 5 years, I had a similar agreement with which I complied. 
During that term, no conflicts of interest or questions as to 
impartiality were identified that required my disqualification from 
duties central to my position as a Board Member.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    RESUME OF DEBORAH A. P. HERSMAN

Employment
        Board Member, National Transportation Safety Board, June 2004-
        present.

        Senior Professional Staff, U.S. Senate, Committee on Commerce, 
        Science, and Transportation, May 1999-June 2004.

        Staff Director and Senior Legislative Aide, U.S. House of 
        Representatives, Congressman Bob Wise (D-WV), August 1992-May 
        1999.

Experience
    National Transportation Safety Board

        Votes with Board on deciding probable cause and safety 
        recommendations from accident investigations. Served as the 
        Member-on-Scene and the NTSB's primary spokesperson at over a 
        dozen high-profile accidents, including the 49-fatal crash of 
        regional jet in Lexington, KY, the allision of a container ship 
        into the San Francisco Bay Bridge and the crash of a private 
        airplane into a building in New York City. Chaired a number of 
        public events hosted by the NTSB including a two-day forum on 
        motorcycle safety, a public hearing on motorcoach safety, and 
        public hearings on two aviation accidents. Testifies before 
        Congress and state legislatures and addresses numerous 
        transportation groups to advance the NTSB's safety 
        recommendations.

    Senate Commerce, Science, and Transportation Committee

        Responsible for legislative agenda, oversight and policy 
        initiatives for surface transportation issues including 
        economic rate regulation of the railroads, railroad safety and 
        passenger service, truck and bus safety, pipeline safety, and 
        hazardous materials transportation safety. Worked extensively 
        on aviation and maritime issues, as well as transportation 
        security initiatives. Key legislative accomplishments: Motor 
        Carrier Safety Improvement Act of 1999 (P.L. 106-159) that 
        created a new modal administration within the Department of 
        Transportation, and the Pipeline Safety Improvement Act of 2002 
        (P.L. 107-355).

    U.S. House of Representatives

        Responsible for overseeing Congressman's Washington, D.C., 
        office of 10 people and managing the budget and planning for 
        three offices. Served as staff contact for Transportation and 
        Infrastructure Committee activities, including hearings, mark-
        ups and conference committees. Key legislative accomplishments: 
        Transportation Equity Act of the 21st Century (105-178) and 
        Amtrak Reform and Accountability Act (105-134).

Education
        MS, Conflict Analysis and Resolution, 1999, George Mason 
        University, Fairfax, VA.

        BA, International Studies & BA, Political Science, 1992, 
        Virginia Tech, Blacksburg, VA

    And please proceed, Mr. Lidinsky, with your testimony.

STATEMENT OF RICHARD A. LIDINSKY, JR., COMMISSIONER-DESIGNATE, 
                  FEDERAL MARITIME COMMISSION

    Mr. Lidinsky. Thank you, Mr. Chairman. My name is Richard 
A. Lidinsky, Jr., and I am a nominee for Commissioner at the 
Federal Maritime Commission. I would like to take a moment to 
introduce members of my family that are here. My wife, Mary 
Duston; my sister, Mary Angela Mahoney; my brother, Frank; my 
nephew, Dennis, who represents not just the family but the 
Notre Dame football team.
    [Laughter.]
    Mr. Lidinsky. My older son lives in Los Angeles. He is not 
able to be with us. He is in Los Angeles with his wife. My 
younger son, John, cannot be here today because he is being 
tested for entry into the Navy.
    I am now going to re-thank Senator Mikulski and Senator 
Cardin for their statements of support as well as Chairman 
Brennan, Commissioner Dye, former Commissioner Creel and the 
FMC staff for their courteous cooperation preparing for this 
hearing, testimony.
    Since Senator Mikulski reviewed my biographical background, 
I am going to skip over that, except to say my entire legal 
public service and business careers have revolved around the 
various shipping statutes administered by the Federal Maritime 
Commission. This small but dedicated agency has encouraged 
innovation of commercial tools such as single bills of lading, 
service contracts to move cargo rapidly, intermodally and 
economically to and from our vast interior markets.
    Containerization, the technology that transformed the face 
of shipping, resulted in the greatest surge of trade the world 
has ever witnessed, had an early and strong advocate in the 
Commission. The FMC has played and continues to play today a 
pivotal role in the protection of U.S. flag vessels, American 
consumers, cruise passengers, importers, exporters and others 
engaged in international waterborne commerce.
    To deal with the realities of international maritime trade 
in the 21st Century, I believe that the first priority of the 
FMC today is to play a role in our economic recovery. We meet 
today as our ports are suffering double digit percentage cargo 
declines. Over 500 container ships are laid up or at anchor 
awaiting work. On certain foreign trade routes, carriers are 
moving containers virtually for free, charging just handling 
and fuel costs.
    Experts predict that any growth will not be seen before 
next year. It is, therefore, the role of the FMC through its 
regulatory powers to assist all segments of our waterborne 
commerce, vessels, ports, support industries, labor both on 
board on our ships and on our terminals, truckers and railroads 
in regaining their economic vitality and jobs until and when 
the upturn comes.
    If confirmed, I would work to ensure that the FMC 
discharges its legislative mandates, closely monitors currently 
dominant and newly emerging trades, while also observing the 
impact on our country of how other nations now regulate their 
ocean carriers.
    The Commission can also help carriers, ports and those 
involved in their operations with green projects and other job 
creating innovations consistent with FMC authority. For the 
opportunity to confront those and other challenging issues with 
my fellow Commissioners, I am most grateful to the President 
for this nomination, and if confirmed, I look forward to 
working with this committee for our country's protection and 
prosperity on the world's sea trade routes.
    Thank you for allowing me this opportunity to speak today. 
I stand ready to answer any questions you might have.
    [The prepared statement and biographical information of Mr. 
Lidinsky follows:]

Prepared Statement of Richard A. Lidinsky, Jr., Commissioner-Designate, 
                      Federal Maritime Commission

    Good afternoon, Mr. Chairman, Senator Hutchinson and Members of the 
Commerce Committee. My name is Richard A. Lidinsky, Jr., and I am a 
nominee for Commissioner at the Federal Maritime Commission.
    It is a great honor to appear before you today. I would like to 
introduce my wife of 37 years, Mary Duston. Our older son, Richard III, 
lives in Los Angeles with his wife, Tiffany Tuttle, and so cannot be 
here today. Our younger son, John, cannot be here because he is being 
tested today for entry into the Navy.
    My entire legal, public service and business careers have revolved 
around the various shipping statutes administered by the FMC. After 
serving on the staff of the House Merchant Marine and Fisheries 
Committee, I was appointed Legislative Counsel at the FMC during one of 
the Commission's most active and important regulatory periods. I served 
next as Port Counsel and Director in my home port of Baltimore, leaving 
after a decade to join as a Vice President of Sea Containers, a global 
marine manufacturing, leasing, and trading company. During my twenty 
years in the private sector, I worked closely with the Pentagon to 
containerize supplies for our troops. I also had the privilege of 
serving as an advisor to our NATO Delegation on port and intermodal 
matters.
    Over recent decades the FMC has encouraged the innovation of 
commercial tools, such as ``single bills of lading'' and ``service 
contracts'' to move cargo rapidly, intermodally and economically to and 
from our vast interior markets. Containerization, the technology that 
transformed the face of shipping, resulting in the greatest surge of 
trade the world has ever witnessed, had an early and strong advocate in 
the Commission. The FMC has played a pivotal role in protecting U.S. 
flag vessels and American consumers, cruise passengers, importers/
exporters and others engaged in our international waterborne commerce.
    To deal with the realities of international maritime trade in the 
21st Century, I believe that the first priority of the FMC is to play a 
role in our economic recovery. We meet today as our ports are suffering 
double-digit percentage cargo declines. Over five hundred container 
ships are laid up or at anchor awaiting work. On certain foreign trade 
routes, carriers are moving containers virtually for free, charging 
just handling and fuel costs. Experts predict that any growth will not 
be seen before next year. It is the role of the FMC, through its 
regulatory powers, to assist all segments of our waterborne commerce--
vessels, ports, support industries, labor both on board our ships and 
on our terminals, truckers and railroads--in regaining their economic 
vitality and jobs when the upturn comes.
    If confirmed, I would work to ensure that the FMC discharges its 
legislative mandates and monitors currently dominant and newly emerging 
trades, while also observing the impact on our country of how other 
nations now regulate their ocean carriers. The Commission can also work 
with U.S. flag carriers, ports and those involved in their operations 
with Green projects and other job-creating innovations consistent with 
FMC authority.
    For the opportunity to confront these and other challenging issues 
with my fellow Commissioners, I am most grateful to the President for 
this nomination. If confirmed, I look forward to working with this 
Committee for our country's protection and prosperity on the world's 
sea trade routes.
    Thank you for allowing me to speak with you today. I stand ready to 
answer any questions you might have for me.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Richard Anthony Lidinsky, Jr. (Rick).

    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: June 18, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: #320--8600 LaSalle Road, Baltimore, MD 21286.

    5. Date and Place of Birth: September 21, 1946; Baltimore, MD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Mary Duston Lidinsky, part-time teacher, Baltimore City 
Community College; children: Richard Anthony Lidinsky III, 33; John 
Eric Lidinsky, 23.
    7. List all college and graduate degrees. Provide year and school 
attended.

        American University, BA, School of Government and Public 
        Administration, 1968.
        JD, University of Maryland School of Law, 1972.

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1969, Active duty U.S. Coast Guard (transferred to active 
        reserve in July 1969 and served until 1975 when I was honorably 
        discharged).

        1970-1973, U.S. House of Representatives Merchant Marine and 
        Fisheries Committee and Office of Edward A. Garmatz, MC (3rd, 
        MD).

        1973, Bill drafter, MD General Assembly.

        1973-1975, Office of General Counsel, Legislative Counsel, 
        Federal Maritime Commission.

        1975-1986, MD Port Administration, Port of Baltimore, Counsel 
        and Director of Tariffs and National Port Affairs.

        1986-2006, Vice President, Governmental Affairs, Sea Containers 
        America and Sea Containers Ltd., Washington, D.C., and London.

        2006-Present, Solo attorney practitioner (I use office space 
        within the Law Office of Frank G. Lidinsky).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        1995-2005, appointment by U.S. Department of the Army to serve 
        as a NATO High Level Expert (top secret clearance) for Ports 
        and Containers Transport Committee.

        City of Baltimore: 2007, Vice Chairman of Compensation 
        Commission for Elected Officials.

        2004-2009, Member of Excellence in Public Service Award 
        Committee.

    11.List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        1986-2006, Vice President, Governmental Affairs, Sea Containers 
        America.

        2000-2006, Board Member of the British American Business 
        Association.

        2007-present, Director/Secretary of Theresa F. Truschel 
        Charitable Foundation, Inc.

        2009, Legal advisor to Maryland Bar High School Court 
        Competition Committee.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        National Defense Transportation Association (1986-2006) 
        (Sealift Transportation Committee Member from 1996-2006).

        British American Business Association (1986-2006).

        Gamma Eta Gamma Legal Fraternity (1971-2009).

        Bar Associations of Maryland and District of Columbia (1973-
        present).

        Maritime Administrative Bar Association (1973-present).

        North Atlantic Ports Association (1976-present).

        St. Thomas More Society (1986-present).

        European Maritime Law Organization (1990-present).

    Gamma Eta Gamma Legal Fraternity restricts membership based on sex; 
otherwise, none of these organizations restricts membership on the 
basis of sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Unsuccessful Democratic candidate for MD House of Delegates, 47th 
District, 1978, no outstanding debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        O'Malley for Mayor of Baltimore--$500 (1999).

        Paul Sarbanes for Senate--$1,500 (1999).

        National Republican Congressional Committee--$500 (2000).

        Howard Coble for Congress--$500 (2000).

        Don Young for Congress--$1,000 (2000).

        National Republican Congressional Committee--$500 (2001).

        Don Young for Congress--$1,000 (2001).

        Helen Bentley for Congress--$1,000 (2002).

        Don Young for Congress--$500 (2002).

        Howard Coble for Congress--$500 (2002).

        Ernest Hollings for Senate--$500 (2002).

        B. Mikulski for Senate--$500 (2004).

        Don Young for Congress--$500 (2004).

        Howard Coble for Congress--$500 (2004).

        O'Malley for Governor--$3,680 (2004-2006) (I also volunteered 
        as a maritime advisor).

        Don Young for Congress--$500 (2005).

        B. Cardin for Senate--$500 (2006).

        Howard Coble for Congress--$500 (2006).

        Jack Reed for Senate--$500 (2006).

        S. Dixon for Mayor of Baltimore--$500 (2007).

        J.P. Sarbanes for Congress--$500 (2008) (I also gave him $250 
        in 2005).

        Barack Obama for President--$500 (2008).

        J. Rosapepe for Maryland Senate--$1,000 (2008).

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Outstanding Service Award from U.S. Army for NATO service 
        (2000).

        North Atlantic Ports Traffic Board award for legal service 
        (1986).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``The Federal Regulation of American Port Activities,'' The 
        International Trade Law Journal, Fall-Winter 1981-1982.

        ``American-Canadian Cross Border Container Traffic: Innovation 
        or Cargo Diversion?'' Journal of Maritime Law and Commerce, 
        Spring 1984.

        Statement of Sea Containers America, Inc. to the Commission of 
        Merchant Marine and Defense, May 1988; NATO Alliance Intermodal 
        Handbook, January 2004.

        While I worked at the Port of Baltimore from 1975-1986, I 
        occasionally spoke on conference panels about maritime matters, 
        but I have not retained any notes or records of these remarks.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    While serving as Legislative Counsel to the Federal Maritime 
Commission from 1973 to 1975, I made several appearances before the 
House Merchant Marine and Fisheries Committee and the Senate Commerce 
Committee on legislation that would impact FMC authority in the areas 
of rate regulation, intermodalism, monitoring of foreign ocean carrier 
commercial activity, general trade issues, energy matters, resolution 
of jurisdictional conflicts with other Federal agencies, and regular 
budgetary procedures.
    I also testified on a number of occasions before these same two 
committees and the Senate Foreign Relations and Armed Services 
Committees while working at the Port of Baltimore from 1975 to 1986. I 
testified on Federal agency/departmental legislation, as well as issues 
relating to dredging, trade and general port industry matters. During 
this same period, on behalf of the Port of Baltimore, and in 
conjunction with the North Atlantic Ports Association, and the American 
Association of Port Authorities, I testified on topics such as Canadian 
cargo diversion from U.S. ports, inland rate equalization, 
deregulation, the Panama Canal Implementing Legislation, and the 
Shipping Act of 1984.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I wish to serve our country by applying my public and private 
sector experience to help make the Federal Maritime Commission a vital 
force in regulating our foreign ocean-borne commerce. The 
Administration's message of change, in my opinion, directs this agency 
to be more proactive in anticipating the issues and needs of all 
sectors of the American economy under its jurisdiction.
    My entire maritime and legal career has been linked to the mission 
of the FMC, beginning with my service as an aide on the House Merchant 
Marine and Fisheries Committee and continuing through my tenure as 
Legislative Counsel at the FMC itself, my time at the Maryland Port 
Administration, where I assisted in crafting the port sections of The 
Shipping Act of 1984, and finally as VP for Governmental Affairs for 
Sea Containers where I acquired private sector experience and 
perspective on government regulation of the global maritime industry.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As a Commissioner, my management role would be limited by the FMC's 
current structure and the authority of the Chairman, but I will do my 
part to ensure the Commission has proper and effective management and 
accounting controls. I have served in senior management positions in 
state government and in an international corporation. As the Counsel 
and Director of Tariffs and National Port Affairs at the Port of 
Baltimore and as Vice President for Governmental Affairs at Sea 
Containers, I managed staff in different organizational structures and 
have spent time reflecting on various management practices.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. In this period of severe economic downturn for international 
        waterborne commerce, I believe the FMC must continue to closely 
        monitor and analyze any long-term impacts on our ports, labor 
        force, inland transport links to our importers/exporters, as 
        well as the ocean carriers serving them, so that when the 
        upturn begins all are in a position to quickly restore growth 
        and employment.

        2. I believe the FMC should ensure that it is using all of its 
        statutory authority in order to be proactive in its duties.

        3. The FMC must anticipate future challenges in certain 
        dominant and emerging trades, working with all parties to 
        assist in Green port projects, and understanding the full 
        impact on our country of new transport patterns, policies, and 
        regulations abroad.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    From previous employer (Sea Containers) I have two retirement 
accounts: LaSalle Street Securities, LLC, 2006 IRA account and 
Ameritrade Institutional--Litman Gregory III, Balanced 2007 IRA 
account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FMC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FMC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Vice President at Sea Containers, I worked with colleagues to 
express the company's support, including through letters to Congress 
and the Administration, for various free trade agreements that would 
impact maritime commerce growth. As a member of the Sealift Committee 
of the National Defense Transportation Association, I worked with 
others to draft and support eventual legislation for the Maritime 
Security Program that provides vessels to the Pentagon in time of need.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FMC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    While I was employed by Sea Containers, the company was involved in 
a handful of corporate civil litigation cases. I was never named as a 
party and none of my actions were ever at issue. Also, in my capacity 
as Vice President/Attorney at Sea Containers, I filed numerous Federal 
contract bids. On occasion, the company would protest a contract loss 
or allege a bid irregularity or, conversely, the company would win a 
contract and be the target of a protest. All of these proceedings were 
reviewed and resolved at the agency administrative level.
    In December 1985, my wife and I adopted our second son. In 1986, 
the biological mother sought a court order to rescind the adoption. The 
court denied her claim and ruled in our favor.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                RESUME OF RICHARD A. LIDINSKY, JR., ESQ.

    2006-Present, Private Practice

    1986-2006, Vice President, Governmental Affairs, Sea Containers 
America Inc./GE SEACO/Orient Express Hotels, Washington, D.C. and 
Baltimore, MD.

        Responsible for representing entire corporate group in London, 
        New York and various international offices by monitoring and 
        lobbying for company interests in regulatory, trade and customs 
        matters before the U.S. Congress and with Federal departments 
        and agencies; negotiated contracts with Department of Defense 
        for container supply.

    1995-2005, U.S. Delegation, NATO, Brussels, Belgium

        Served as High Level Expert for Ports and Containers 
        Transportation Committee along with member countries ocean 
        shipping and intermodal activities; new member transportation 
        transition sub-committee service.

    1975-1986, Director of Tariffs and National Port Affairs, Maryland 
Port Administration, Baltimore, MD.

        Responsible for preparing and publishing port tariffs and 
        negotiating agreements with ocean carriers; representing the 
        port before the Maryland General Assembly, U.S. Congress and 
        Federal departments and agencies; and monitoring laws, 
        regulations and actions proposed and enacted in the U.S. and 
        internationally affecting the Port of Baltimore; drafted port 
        use agreements during foreign trade missions.

    1973-1975, Office of General Counsel-Legislative Counsel, Federal 
Maritime Commission, Washington, D.C.

        Drafted agency legislation, prepared agency testimony for 
        presentation to Congress and served as liaison with the Office 
        of Management and Budget and other Federal departments and 
        agencies; general staff attorney duties.

    1973, Bill Drafter, Maryland General Assembly.

    1970-1973, Staff, U.S. House of Representatives and House Merchant 
Marine and Fisheries Committee.

    1969-1975, U.S. Coast Guard Active Duty and Reserve Service.
Organizations/Professional and Civic Activities Past and Current
    Member, Maryland, Washington, D.C. and Federal Bars.

    British American Business Association, Washington D.C.

        Board Director.

        Member, Defense, Transportation and Port Security Committee.

    National Defense Transportation Association.

        Member, Sealift Transportation Committee.

    North Atlantic Ports Association.

        Chairman, Panama Canal Committee.
        Special Counsel to Traffic Board.

    Vice-Chairman, City of Baltimore Compensation Commission for 
Elected Officials (2007) and City Committee for Excellence in Public 
Service Award (2004-2009).

    Member, Maryland State, Maritime Administrative Bar Associations 
and European Maritime Law Organization.

Publications
        Co-Author, ``American-Canadian Cross Border Container Traffic: 
        Innovation Or Cargo Diversion?'' Journal of Maritime Law and 
        Commerce, Spring 1984.

        Co-Author, ``The Federal Regulation of American Port 
        Activities,'' The International Trade Law Journal, Fall-Winter 
        1981-1982.

        Co-Author, NATO Alliance Intermodal Handbook, January 2004.

Education
        JD--University of Maryland School of Law, Baltimore, MD, 1972.

        BA--American University School of Government and Public 
        Administration, Washington, D.C., 1968.

    Senator Udall. Thank you very much for your testimony.
    Please proceed, Ms. Trottenberg.

                STATEMENT OF POLLY TROTTENBERG,

                 ASSISTANT SECRETARY-DESIGNATE,

           UNITED STATES DEPARTMENT OF TRANSPORTATION

    Ms. Trottenberg. Thank you, Senator Udall. I will keep my 
remarks brief.
    It is a privilege for me to appear today before you as 
President Obama's nominee for Assistant Secretary for 
Transportation Policy. I would also like to introduce my 
family, my husband, Mark Zuckerman, my stepson, Noah, my niece, 
Sarah Godfrey, and also gratefully acknowledge the friends and 
colleagues who lasted this long and who are still here.
    I would also like to thank Senators Boxer and Schumer and 
Governor Rendell for their very generous remarks earlier today.
    As you heard, I worked twelve years here in the Senate. 
During that time I have worked on much of the transportation 
legislature this body has considered. And, if confirmed, I look 
forward to bringing that invaluable experience to the 
Department of Transportation.
    Prior to coming to the Senate, I worked at both the 
Massachusetts Port Authority and the Port Authority of New York 
and New Jersey and learned firsthand about the challenges we 
face at some of our Nation's busiest and most congested ports 
and airports.
    As Governor Rendell mentioned, I currently serve as 
Executive Director of Building America's Future, a bipartisan 
coalition of state and local elected officials chaired by 
Governor Rendell, Governor Schwarzenegger and Mayor Bloomberg, 
which seeks to increase investment in our Nation's 
infrastructure and also focuses on program reform and 
accountability.
    If confirmed, I hope these experiences will enable me to 
work with Congress as well as state and local governments to 
help craft and implement Secretary LaHood's and President 
Obama's national transportation priorities. These priorities 
include job creation and economic growth, environmental 
sustainability, reducing carbon emissions and our dependence on 
fossil fuels, fostering livable communities and constantly 
improving safety and security in all our modes of travel.
    I am deeply committed to these goals and believe we have a 
once in a generation opportunity to achieve them as Congress 
and the Obama Administration prepare to rewrite our Nation's 
surface transportation policy and work to ensure its long term 
financial stability and sustainability.
    I will conclude with thank you, Senator Udall, and the 
community for scheduling this hearing. If confirmed, I pledge 
to work closely with this Committee and Members of Congress in 
finding common solutions to the great transportation challenges 
and opportunities our Nation faces. And I would be happy to 
answer any questions.
    [The prepared statement and biographical information of Ms. 
Trottenberg follows:]

Prepared Statement of Polly Trottenberg, Assistant Secretary-Designate, 
               United States Department of Transportation

    Chairman Rockefeller, Ranking Member Hutchison, Members of the 
Committee, it is a privilege for me to appear before you today as 
President Obama's nominee for Assistant Secretary for Transportation 
Policy.
    I would like to introduce my husband, Mark Zuckerman, and my 
stepson, Noah, and gratefully acknowledge the friends and colleagues 
who are here today.
    I have been fortunate to spend the majority of my career helping to 
shape transportation policy in one of the world's greatest policy 
shops--the U.S. Senate.
    I served 12 years here working for Senator Barbara Boxer, Senator 
Charles Schumer, and the late Senator Daniel Patrick Moynihan. And 
during that time I worked on much of the major, highway, transit, rail, 
air and maritime legislation this body considered and I look forward to 
bringing that invaluable experience to the Department.
    Prior to coming to the Senate, I worked at both the Massachusetts 
Port Authority and the Port Authority of New York and New Jersey and 
learned firsthand about the challenges we face at some of our Nation's 
busiest ports and airports.
    I currently serve as Executive Director of Building America's 
Future, a bipartisan coalition chaired by Governor Edward Rendell, 
Governor Arnold Schwarzenegger and Mayor Michael Bloomberg, which seeks 
to increase our Nation's investment in infrastructure while focusing on 
reform and accountability.
    In my current position, I work closely with many state and local 
elected officials and have seen the fiscal, operational and political 
challenges they face in maintaining and modernizing their 
transportation systems. I have also been inspired by what states, 
regions and localities across the country are doing to collaborate, 
innovate and experiment on transportation.
    If confirmed, I hope this experience will enable me to work with 
Congress, as well as state and local governments, to help craft and 
implement Secretary LaHood's and President Obama's national 
transportation priorities.
    Those priorities include: job creation and economic growth, 
environmental sustainability, reducing carbon emissions and our 
dependence on fossil fuels, fostering livable communities, and 
constantly improving safety and security in all modes of travel.
    I am deeply committed to these goals and believe we have a once-in-
a-generation opportunity to achieve them as Congress and the Obama 
Administration prepare to rewrite our Nation's surface transportation 
policy and work to ensure its long-term financial stability and 
sustainability.
    One key to achieving that sustainability will be to create a 
transportation program that is multi-modal, performance-driven, 
transparent, and accountable. To do so, we must greatly strengthen our 
ability at the Federal, state and local level to conduct cross-modal 
comparisons of projects and track and measure program costs, timelines 
and outcomes.
    If confirmed, I look forward to assisting the Department of 
Transportation in strengthening its own data-collection, research and 
analysis capabilities, as well as assisting states, localities, MPOs 
and transportation agencies to ensure that they have the tools and 
capacity needed to conduct better investment analysis and meet the 
challenge of transitioning to a 21st Century performance-based system.
    To conclude, Mr. Chairman, thank you for scheduling this hearing. 
If confirmed, I pledge to work closely with this Committee and the 
other committees of jurisdiction in finding common solutions to the 
great transportation challenges and opportunities our Nation faces.
    I would be happy to respond to any questions you and other Members 
of the Committee may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Polly Ellen 
Trottenberg.
    2. Position to which nominated: Assistant Secretary for 
Transportation Policy, Department of Transportation.
    3. Date of Nomination: June 8, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Building America's Future, 1301 Pennsylvania Ave., NW, 
        Suite 350, Washington, DC 20008.

    5. Date and Place of Birth: March 16, 1964; Boston, MA.
    6. Provide the name, position. and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Mark Zuckerman, Staff Director, House Committee on 
        Education and Labor, 2181 Rayburn HOB, Washington, DC 20515; 
        children: Naomi Zuckerman, age 19; Noah Zuckerman, age 14.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA in History, Barnard College, Columbia University, May 1986.
        Masters in Public Policy, Kennedy School of Government, Harvard 
        University, June 1992.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Building America's Future, Executive Director, Washington, 
        D.C., Aug. 2008-Present (managerial, related).

        Senator Barbara Boxer, Deputy Chief of Staff and Legislative 
        Director, Washington, D.C., Jan. 2006-July 2008 (managerial, 
        related).

        Senator Charles E. Schumer, Legislative Director, Washington, 
        D.C., Jan. 1999-Dec. 2005 (managerial, related).

        Senator Daniel Patrick Moynihan. Legislative Assistant for 
        Transportation, Public Works, and Environment, Washington, 
        D.C., Oct. 1996-Dec. 1998 (non-managerial, related).

        Port Authority of New York & New Jersey, New York, NY, Senior 
        Executive Assistant to the Director of Aviation and Executive 
        Assistant to the Executive Director, Oct. 1994-Sept. 1996 (non-
        managerial, related).

        Massachusetts State Senate, Boston, MA, Policy Analyst, Joint 
        Committee on Commerce and Labor, State Senator Lois Pines, 
        Chair, June 1992-Sept. 1994 (non-managerial, related).

        Massachusetts Port Authority, Boston, MA, Research Associate, 
        Department of Administration and Finance, Summer 1991 (non-
        managerial, related).

        Perry Davis Associates, New York, NY, Research Director, March 
        1988-April 1990 (non-managerial).

        Freelance Writer and Editor, New York, NY and Chicago, IL, 
        September 1986-February 1988 (non-managerial).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        National Democratic Institute for International Affairs, 
        Pristina, Kosovo, served as a legislative expert working with 
        Members and staff of the Kosovo Assembly, December 2006.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Working World TV, Founding Member, February 2005 to October 
        2007.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Women's Transportation Seminar (WTS) Jan. 2009-Present.
        WTS does not restrict membership.

        Women's Leadership Network Dec. 2008-Present.
        WLN restricts membership based on sex.

        Barnard in Washington Club 1996-Present.
        Barnard in Washington Club restricts membership based on sex.

        The Road Gang March 2009-Present.
        The Road Gang does not restrict membership.

        Member of the Economic Policy Institute's Transportation 
        Infrastructure Research Project Advisory Committee 2009-
        Present.
        EPI does not restrict membership.

        Member of the of the America 2050 ``Visualizing a 21st Century 
        Transportation System'' Policy Subcommittee 2009-Present.
        America 2050 does not restrict membership.

        In addition, over the last several years I have donated money 
        to various organizations that consider their contributors 
        ``members.'' These include: Rock Creek Pool, Inc.; Friends of 
        Rock Creek's Environment (FORCE); WAMU 88.5 American University 
        Public Radio; Environmental Defense Fund; Humane Society of the 
        United States; Natural Resources Defense Council; Smart Growth 
        America; Friends of the Earth; The Nature Conservancy; Sierra 
        Club; National Trust for Historic Preservation; and Chesapeake 
        Bay Foundation.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Obama for America--$800 in 2008.

        Friends of Dan Maffei--$700 in 2008, $200 in 2005.

        Democratic Senatorial Campaign Committee--$700 in 2008, $250 in 
        2006.

        John Kerry for President--$1,750 in 2004.

        DNC--$1,000 in 2004.

        Emily's List--$1,000 in 2004.

    Campaign volunteer work:

        Gore/Lieberman, Oct.-Nov. 2000.

        Dutch Ruppersberger for Congress, Oct. 2002.

        Frank Lautenberg for Senate, Oct. 2002.

        Tim Bishop for Congress, Nov. 2002.

        Charles Schumer for Senate, July-Oct. 2004.

        Kerry/Edwards, Oct.-Nov. 2004.

        Ron Klein for Congress, Oct. 2006.

        Lois Murphy for Congress, Oct. 2006.

        Obama/Biden, Oct.-Nov. 2008.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Phi Beta Kappa, 1986.
        Ellen Davis Goldwater History Prize, 1986.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Written
        Research paper for America 2050--``Federal Decision-Making in 
        Transportation Investments: Getting the Federal Government to 
        do `the Math' ''--December, 2008.

        As a freelance writer from 1986 to 1988 I covered real estate 
        and business topics. Generally my writings were not published 
        under my name and were used in newsletters, textbooks and 
        business journals. I do not have any records of them now and I 
        believe that all the entities I wrote for then have long since 
        gone out of business.
Speaking
        Panel discussion at the America 2050 Forum ``Infrastructure 
        Strategies for the Southwest Megaregion'' on ``The Federal 
        Government, America 2050 and Megaregions'' June, 2009.

        Panel Discussion at the Climate and Energy Funders Group Annual 
        meeting on ``Mapping a New Transportation Future,'' May 2009.

        ``Building America's Future and our vision for the 
        reauthorization of the surface transportation legislation'' at 
        The Road Gang, May 2009.

        ``Advancing Passenger and Freight Rail in the Nation's 
        Transportation System,'' at a conference hosted by Railway 
        Supply Institute, OneRail and Women in Government Relations 
        entitled ``Selling to America's Railroads: Freight, Intercity 
        and High-Speed Rail Development'' in May, 2009.

        Panel discussion at the Regional Plan Association 19th Annual 
        Forum on ``Transportation Projects in an Economic Downturn,'' 
        in NYC in April, 2009.

        Panel discussion at the Transportation Research Forum 50th 
        annual meeting on ``The Future of Federal Surface 
        Transportation Policy'' in Portland, OR. March 2009.

        The 5th Annual Public Private Partnerships USA Summit in 
        Washington, D.C., March 2009.

        The RPA/Urban Land Institute National Association of Regional 
        Councils' 7th Annual Metropolitan Regions Forum in Washington, 
        D.C., February 2009.

        The National Association of City Transportation Officials 
        (NACTO) workshop on ``Improving the Federal Funding Process and 
        Achieving a State of Good Repair'' in New York, NY, February 
        2009.

        The Governing Magazine's ``Outlook in the States 2009 
        Infrastructure Initiatives'' panel with PA DOT Secretary Allen 
        Biehler in Washington, D.C., February 2009.

        Roundtable discussion at the Transportation Research Board 
        annual conference--``The Future of Federal Transportation 
        Funding and Finance--Paradigm Shift or More of the Same?'' in 
        Washington, D.C., January 2009.

        Chaired the America 2050 ``Trans-American Network'' Intercity 
        Passenger Travel Working Group and presented paper on ``Federal 
        Decision-Making in Transportation Investments'' at America 2050 
        Workshop, in Pocantico, NY, December 2008.

        ``Politics and Policy: Transportation and Climate'' panel at 
        the ``Moving Cooler: Leveraging Transportation Policy to Fight 
        Climate Change'' summit hosted by NRDC, Friends of the Earth, 
        Center for Clean Air Policy and EESI in Washington, D.C., 
        November 2008.

        The Euromoney Conference on Public Private Partnerships in New 
        York, NY, September 2008.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Office of Transportation Policy is the office responsible for 
recommending overall surface transportation policy initiatives to the 
Secretary. The office coordinates multi-modal initiatives and 
processes, such as the development of DOT's proposed reauthorization 
language. The office is the chief domestic policy office for the 
department and is responsible for analysis, development, communication 
and review of policy and plans for domestic transportation issues, 
including intermodal initiatives involving the department's multiple 
operating administrations.
    I have nearly 20 years of diverse policy-making experience in state 
government, two regional port authorities, the U.S. Senate, and running 
an infrastructure non-profit heavily focused on transportation.
    My 12 years on Capitol Hill working for three U.S. Senators, the 
late Senator Daniel Patrick Moynihan, Senator Charles Schumer and 
Senator Barbara Boxer, enabled me to participate directly in all of the 
major transportation legislation during that period and to work closely 
with all Senate Committees of jurisdiction--Environment and Public 
Works; Commerce, Science, and Transportation; Banking, Housing and 
Urban Affairs; and Finance, as well as the Appropriations Committee.
    My current job as Executive Director of Building America's Future 
(BAF), a bipartisan infrastructure coalition chaired by Governor Edward 
Rendell, Governor Arnold Schwarzenegger and Mayor Michael Bloomberg, 
has enabled me to work closely with many state and local elected 
officials and get a deeper understanding of how Federal transportation 
policy affects them and what states and localities are doing to 
innovate and experiment. Through BAF, I have also been able to 
participate directly in many of the current transportation policy 
debates throughout the country.
    I believe that our Nation currently faces a once-in-a-generation 
opportunity to build a 21st Century transportation system that will 
bolster U.S. economic growth and long-term prosperity, address global 
warming and our dependence on fossil fuels, grow our freight system 
capacity, foster rural mobility, and enhance the safety and the quality 
of life for our citizens and communities.
    I have had a lifelong interest and passion in transportation policy 
and what it can do to improve the lives of ordinary Americans and our 
Nation's economy. I believe that my background and extensive experience 
with transportation policy at the local, state and Federal levels, and 
my intimate knowledge of the legislative process, have prepared me to 
serve in this role.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    In many ways the U.S. Department of Transportation is a grant-
making agency, disbursing billions of dollars to State DOTs and 
transportation agencies. It is extremely important that those Federal 
dollars are spent in as accountable, transparent and goal-oriented 
manner as possible. I believe one of the key functions of the Office of 
Policy is to focus on the oversight of that spending, ensuring it 
achieves national policy goals and Congressional intent.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        a. The Next Surface Transportation Authorization. With SAFETEA-
        LU set to expire at the end of September 2009, a robust debate 
        about the financing and policy direction of the next surface 
        transportation bill is well underway in Congress and throughout 
        the country. I believe it is essential that the Department of 
        Transportation, working with Congress, provide leadership and 
        help set forth a national vision for transportation policy as 
        well as articulate goals and program specifics for this 
        important bill that has the power to establish transportation 
        investment decisions over the long-term. The challenges are 
        formidable--the Highway Trust Fund is insolvent and gas tax 
        revenues at their current levels can no longer sustain the 
        highway and transit programs, let alone support Administration 
        priorities in freight and passenger rail. The system has a huge 
        backlog of maintenance needs as well as a need for significant 
        new investment in the coming years.

        b. Aviation Policy. Congress is also set to once again take up 
        the FAA reauthorization and many key issues are on the table in 
        a very unfavorable economic climate for the aviation industry. 
        DOT and FAA will need to provide leadership in resolving the 
        long-standing contract dispute with the Air Traffic Controllers 
        and in aviation safety. DOT and FAA will also need to work with 
        Congress to ensure that the NextGen satellite-based navigation 
        system is sustainably funded and finally underway, working with 
        the other Federal agencies involved--the Department of Defense, 
        NASA and the Department of Homeland Security.

        c. Intermodalism and Strengthening the Connections between 
        Transportation, Economy, Environment, Energy and Housing. U.S. 
        transportation policy has been ``stovepiped'' by mode, each 
        with its own funding source, policy imperatives, constituency 
        groups and modal administration within DOT. This often fosters 
        building projects because a given funding source exists instead 
        of seeking to address national transportation policy goals in 
        the most efficient and effective way possible. It has resulted 
        in a transportation policy where highways, transit, rail, ports 
        and aviation receive widely varying levels of Federal support 
        and limits the abilities of states, localities and 
        transportation agencies to make sound investment choices that 
        best meet the needs of their citizens and businesses.

        In addition, DOT must improve coordination with other agencies, 
        including the Departments of Treasury, Energy, Housing and 
        Urban Development, and the Environmental Protection Agency. 
        These agencies share many complex and cross-cutting challenges, 
        including increasing economic opportunities for Americans, 
        reducing U.S. dependence on fossil fuels and addressing climate 
        change, and creating sustainable and livable communities. These 
        shared challenges require unprecedented communication and 
        coordination.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a Thrift Savings Plan (TSP) account for retirement.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I worked in the U.S. Senate for most of the last decade and so have 
worked on many pieces of legislation. Key legislative issues that I 
covered included: TEA-21, SAFETEA-LU, FAA Reauthorization, Amtrak 
reauthorization, Coast Guard reauthorization, Airline Passenger Bill of 
Rights, various Water Resources Development Act bills, numerous 
Appropriations bills, Greater Access to Affordable Pharmaceuticals Act 
of 2001, Bankruptcy Reform Act, Post 9/11 Victims Compensation Fund, 
Help America Vote Act, Energy Policy Act of 2005, Farm Conservation and 
Energy Act of 2008, Child Custody Protection Act, and the Consumer 
Product Safety Act. As Executive Director of Building America's Future, 
I have also been involved in debates about the American Recovery and 
Reinvestment Act of 2009, as well as the next surface transportation 
reauthorization and the next FAA reauthorization.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nosh 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 

                     RESUME OF POLLY E. TROTTENBERG

Professional Experience
    Building America's Future, Washington, D.C., Aug. 2008-present, 
Executive Director.

        Manage a new bipartisan non-profit organization, Building 
        America's Future (BAF), created to advocate for increased 
        investment in infrastructure and major transportation policy 
        reform. BAF is chaired by Governor Edward G. Rendell, Governor 
        Arnold Schwarzenegger and Mayor Michael R. Bloomberg and has a 
        membership of elected officials from across the U.S.

        Responsible for organization's startup operations, including 
        representing the organization publicly and in the press, 
        fundraising, hiring, policy development, advocacy, coalition-
        building and media strategy.

    Senator Barbara Boxer, Washington, D.C., Jan. 2006-July 2008, 
Deputy Chief of Staff and Legislative Director.

        Chief policy advisor to Senator Boxer, responsible for 
        developing comprehensive legislative agenda, media and 
        political strategy, with focus on the Environment and Public 
        Works and Commerce Committees. Areas of expertise include 
        transportation, environment, appropriations, and economic 
        development.

        Extensive experience on transportation legislation, including 
        FAA Reauthorization, Airline Passenger Bill of Rights, Amtrak 
        reauthorization, developed legislation to address Coast Guard 
        and oil spill issues in the wake of the Cosco Busan accident in 
        San Francisco Bay.

        Twelve years legislative experience in the U.S. Senate, 
        specializing in bipartisan coalition-building to achieve 
        successful legislative outcomes. Extensive management and 
        leadership experience, responsible for the hiring, training, 
        and supervision of legislative staff of 15.

    Senator Charles E. Schumer, Washington, D.C., Jan. 1999-Dec. 2005, 
Legislative Director.

        Chief policy advisor to Senator Schumer, responsible for 
        developing comprehensive legislative agenda, media and 
        political strategy, with focus on the Banking, Housing and 
        Urban Affairs, Energy, Judiciary, and Finance Committees, with 
        focus on transportation. Assisted in the creation and 
        organization of all aspects of a new Senate office.

        Extensive experience on transportation legislation and policy, 
        including SAFETEA-LU with a focus on mass transit funding, 
        Amtrak, port and aviation issues, including helping to bring 
        new airline service to Upstate New York, and transportation 
        appropriations.

        Led the development of New York's bipartisan post-September 11 
        legislative agenda, working closely with the Bush 
        Administration, including securing $21 billion in 
        appropriations, crafting a $5 billion business recovery tax 
        package and a $4.5 billion transportation infrastructure plan 
        for Lower Manhattan.

    Senator Daniel Patrick Moynihan, Washington, D.C., Oct. 1996-Dec. 
1998, Legislative Assistant for Transportation, Public Works, and 
Environment.

        Lead advisor to Senator Moynihan on the Environment and Public 
        Works Committee. Responsible for developing policy and 
        political strategy on transportation, public works, and 
        environmental issues. Areas of expertise included TEA-21, 
        Amtrak, mass transit, aviation, water resources, public 
        buildings, and transportation appropriations.

        Developed political strategy for Northeast and urban states to 
        maintain environmentally sustainable highway and mass transit 
        programs during authorization of TEA-21. Won passage of 
        initiative to encourage employers to offer mass transit 
        benefits to employees.

    Port Authority of NY & NJ, New York, NY, Oct. 1994-Sept. 1996, 
Senior Executive Assistant to the Director of Aviation, Gerald P. 
Fitzgerald.

        Directed the Port Authority Board approvals process for the 
        Aviation Department, which operates the region's three major 
        airports--Kennedy, Newark, and LaGuardia. Supervised a staff of 
        seven who provided administrative and policy support for 1,800-
        person department.

    Executive Assistant to the Executive Director, Stanley Brezenoff

        Provided administrative and policy analysis support to the 
        Executive Director in key areas, including negotiation of New 
        York City Airport Lease, the AirTrain Project and Port 
        dredging.

    Massachusetts State Senate, Boston, MA, June 1992-Sept. 1994, 
Policy Analyst, Joint Committee on Commerce and Labor, State Senator 
Lois Pines, Chair.

        Developed legislative initiatives for the Committee on labor 
        and business issues, including economic and industrial 
        development, defense conversion, welfare reform, job training, 
        unemployment insurance, consumer protection, foreign trade, and 
        tourism.

    Massachusetts Port Authority, Boston, MA, Summer 1991, Research 
Associate, Department of Administration and Finance.

        Conducted financial analysis projects, including the 
        development and design of a new rate methodology and fee 
        structure for Logan Airport's International Terminal and 
        determined its financial implications for airline carriers and 
        Massport.

    Perry Davis Associates, New York, NY, March 1988-April 1990, 
Research Director.

        Supervised research and writing for economic development 
        consulting firm, specializing in public/private partnerships, 
        conducted field surveys and interviews, created and drafted 
        Federal and private foundation grant proposals, and implemented 
        design and presentation of economic development initiatives, 
        including a $1.5 million high school health careers education 
        program for Bronx-Lebanon Hospital.

Education
    Harvard University, John F. Kennedy School of Government, 
Cambridge, MA.

        Master of Public Policy, June 1992.
        Editor-in-Chief, Kennedy School Beacon, 1991-1992. Reporter, 
        1990-1991.

    Columbia University, Barnard College, New York, NY.

        B.A., magna cum laude, in History, May 1986.
        Elected to Phi Beta Kappa, April 1986.

Other Activities

        Speaker at events hosted by a variety of transportation and 
        infrastructure groups.

        Current Member of the Economic Policy Institute's 
        Transportation Infrastructure Research Project Advisory 
        Committee.

        Current Member of the America 2050 ``Visualizing a 21st Century 
        Transportation System'' Policy Subcommittee.

        Chaired the America 2050 ``Trans-American Network'' Intercity 
        Passenger Travel Working Group and presented paper on ``Federal 
        Decision-Making in Transportation Investments'' at America 2050 
        Workshop, December 2008.

        Aspen Institute Socrates Society Congressional Scholar at ``The 
        Terrorist Threat: Six Years After 9/11, How Safe Are We?'' 
        seminar, October 2007.

        National Democratic Institute for International Affairs, 
        Pristina, Kosovo, served as a legislative expert working with 
        Members and staff of the Kosovo Assembly, December 2006.

    Senator Udall. Thank you. Thank you very much.
    And I guess this one I am going to direct to Ms. Hersman 
for a minute. Shortly after we met, I was reminded of the 
NTSB's important role in protecting public safety. The fatal 
Metro accident here in Washington is a reminder to all of us 
that the work of ensuring public safety is never finished.
    In your testimony, you state that NTSB is uniquely situated 
to point the way toward a safer transportation system. One 
concern that I have is that NTSB recommendations to 
transportation agencies are voluntary. When you identify 
specific safety concerns, transit authorities are not required 
to implement your recommendations.
    How will you help insure that the NTSB recommendations are 
implemented instead of ignored?
    Ms. Hersman. Well, Senator, I have to say that one of the 
best ways for those recommendations to get implemented and not 
ignored is when the Congress, and in particular this committee, 
pays attention to them. The Safety Board held a 3-day public 
hearing on the fatal Colgan accident when there were 50 
fatalities, and I think that we were able to give you all a 
head start on some of the work that you are doing. This 
Committee held two hearings, looking at some of the early 
issues that were raised in that accident.
    This Committee also was able to address two issues that 
have been on our Most Wanted List of Safety Improvements in the 
Rail Industry last year with the Rail Safety Improvement Act. 
This Committee required changes in hours-of-service laws that 
had not been updated for decades, and it mandated the 
implementation of positive train control, which has been on our 
most wanted list since its inception. So sometimes I think we 
can push and the public can be focused.
    Certainly would like to see the regulatory agencies take 
action just because we asked them to, but if they have not, we 
feel fortunate that you all are sometimes looking over our 
shoulder, holding them accountable for some of the issues that 
you think are the most important.
    Senator Udall. And we hope that you will continue to be 
aggressive. I think one of the things that you mentioned to me 
when we met in my office was trying to focus on deadlines and 
bringing the public's attention to what has happened. So I hope 
that you will continue to do that, too.
    Ms. Hersman. Thank you, sir.
    Senator Udall. Thank you.
    Mr. Lidinsky, you state in your testimony that the Federal 
Maritime Commission can work with U.S. flag carriers, ports and 
those involved with their operations with green projects and 
other job creating innovations. I believe there is a tremendous 
potential in green initiatives and technologies to create new 
jobs and innovations that would enhance environmental 
sustainability, yet last year the Commission delayed 
implementation of a clean trucks program to improve air quality 
of congested ports in Long Beach in Los Angeles. And I am 
concerned that the Commission would block what appears to be a 
reasonable environmental initiative.
    As Commissioner, will you fairly consider efforts to 
promote environmental sustainability while ensuring the 
efficient flow of goods from our Nation's ports?
    Mr. Lidinsky. Senator, I am well aware of the Los Angeles 
Long Beach case. And since it is still in litigation before the 
Commission, I cannot comment on the specifics on that case; 
however, I would say that I would give it very full and fair 
consideration. I think the maritime industry is one of the last 
industries coming to the green issues.
    The EPA has just imposed certain requirements on vessels 
along with the International Maritime Organization, clean air, 
or other issues are being imposed state by state. So I think we 
are in an infancy period, but certainly one that all parties 
can work together to really put a green agenda in play for 
these ports throughout the country.
    Senator Udall. Thank you, and that is very, very 
encouraging to hear that.
    Ms. Trottenberg, New Mexico, like every other state, relies 
first and foremost on roads for transportation; however, I 
believe that Americans need more alternatives to driving in 
order to reduce both our dependence on foreign oil and 
emissions that contribute to global warming.
    The New Mexico Rail Runner, a new rail line in New Mexico 
from Belen to Santa Fe, just celebrated its two millionth rider 
since it just opened and it has been opened less than a year. 
It is comfortable, an efficient way to travel, it gets people 
out of their cars and off congested highways. I believe that 
the Rail Runner is an example of a forward thinking 
transportation investment that will provide benefits to the 
state for years to come.
    In your testimony, you state that the Department of 
Transportation should strengthen its own capabilities while 
also assisting the state and local transportation agencies to 
ensure that they have the tools and capacity needed to meet the 
challenge of transitioning to a 21st Century performance-based 
system.
    Have you explored how the Department of Transportation can 
build state and local agency capacity to meet the 
transportation needs of rural states like New Mexico and many 
of our states out West?
    Ms. Trottenberg. Well, Senator Udall, the Department 
actually has a proposal out now in conjunction with its desire 
to do an 18-month extension on the current safety rule 
authorization, which I think would authorize grants to go to 
states and localities all over the country, urban, suburban and 
rural, and help them start the process of doing the kind of 
data gathering and evaluation and project evaluation that they 
need.
    Like New Mexico, there are places all over the country now 
that are experimenting with transit. It is not just the 
traditional big coastal cities. Much more rural areas are 
discovering that transit can be a fantastic option, but a lot 
of them still need some of the tools to help figure out how to 
put those projects together. I think the DOT is going to be 
very enthusiastic about helping them.
    Senator Udall. Thank you. Thank you. Let me, I believe 
Senator Lautenberg is on the way. He does want to ask a 
question, so I will ask one more here while we are--hopefully 
he will be here within a few minutes. And we are expecting 
votes to occur here in the next 5 or 6 minutes, so we are not 
trying to shortchange you in terms of your testimony.
    And as you heard from the Chairman, no doubt you all come 
with great recommendations and I think the Members of this 
Committee feel that they can no doubt recommend you.
    Senator Lautenberg, good to have you here. You arrived 
and----
    Senator Lautenberg.--make the quorum, Mr. Chairman.
    Senator Udall. Well, you do not make a quorum, but it is 
wonderful to have you here. And if you are ready to proceed to 
questioning, we are ready to recognize you.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. That is very kind, Mr. Chairman, and I 
appreciate it. And despite the appearance, at this moment, I am 
junior to this fellow.
    [Laughter.]
    Senator Lautenberg. Thanks very much, Mr. Chairman. I 
appreciate you monitoring this--these very capable 
presentations, these very capable folk here who are well 
qualified.
    It was said earlier by a colleague, Senator Mikulski from 
Maryland, when going over a list of nominees, she said even 
though I do not know Polly Trottenberg, I am for her anyway. 
And I can say that for Mr. Lidinsky and Deborah Hersman, I am 
for you anyway, so----
    [Laughter.]
    Senator Lautenberg. But I wanted to just acknowledge that 
each of you comes particularly well trained for these 
assignments and we wish you well.
    I have a couple of questions that I would like to review 
but I just want to say to you each, thank you for your past 
service to our country and for agreeing to serve once again. I 
did it. I liked it, as a matter of fact. I stepped away for 2 
years and decided that I was more lonesome for the place than 
the place was for me. I let the people of New Jersey make that 
decision.
    I want to focus my remarks on the nominees, the National 
Transportation Safety Board, the Department of Transportation 
and the Federal Maritime Commission. Washington is, as everyone 
knows, is still recovering from last month's rail crash where 
nine people died. That accident reminds us that we need to make 
our trains, subways and buses safer because more Americans are 
riding them than ever before. I am a regular Amtrak user, going 
between Washington and New Jersey, and I see the crowding that 
is taking place there.
    I also use New Jersey Transit, the transit system, and I 
see that people are going to these facilities to use them 
because it is far more reliable than the highway traffic or 
the--the airline companies will forgive me--than we have seen 
in the aviation business.
    So this Committee has held two hearings on the tragic crash 
of Colgan Flight 3407 in Buffalo. Fifty people died in that 
accident, which was a reminder that we must make our aviation 
system safer and even more reliable. From the ground to the 
air, we need the NTSB's help in this pursuit, and Ms. Hersman 
was nominated to be the Chairperson of the NTSB, a very 
responsible position. And the fact that you are nominated for 
this purpose is testimony to the skill that you bring and the 
commitment that you have.
    So Board member, I know that you have been on the scene of 
more than fifteen major transportation accidents, including the 
recent rail crash in Washington. If confirmed, we will look to 
you to help make the Nation's roads, airways, railroads, 
transit lines and pipelines safe for people who use and work on 
them.
    Ms. Trottenberg is nominated to be the Assistant Secretary 
of Transportation Policy at DOT and, if confirmed, you will 
play an integral role in fashioning the next surface 
transportation bill. I look forward to working with all of you 
and the Administration in crafting a comprehensive bill that 
meets our Nation's evolving transportation needs.
    These needs include our freight network, particularly 
moving goods by rail and by barge. I have introduced a bill to 
encourage more freight to be carried by barges and ships. 
Shipping by barge reduces congestion on roads, cuts emissions 
and energy consumption and improves safety.
    And finally, Richard Lidinsky is nominated to be 
Commissioner of the Federal Maritime Commission. And if 
confirmed, we are going to need your leadership to ensure that 
our Nation's ports and maritime infrastructure can meet the 
growing demands placed on them.
    Mr. Chairman, I have cheated just a little bit and I 
included an opening statement. Do we still have time for me to 
give questions?
    Senator Udall. Yes, we still have time for questions. I 
have asked my questions and I am deferring to you on questions. 
So please proceed.
    Senator Lautenberg. Ms. Hersman, runway safety and aircraft 
overruns continue to be significant problems. A law that I 
wrote in 2005 set a deadline of 2015 for compliance with the 
FAA runway standards.
    Earlier this year, a DOT Inspector General report stated 
that FAA overstated the number of airports meeting FAA runway 
standards.
    Now, do you have doubt about his statements? Do you believe 
that airports are on track to meet the runway standards by the 
2015 deadline?
    Ms. Hersman. Senator Lautenberg, I can tell you that we are 
very concerned about runway safety and the compliance of those 
airports. I know the IG's report mentioned that there were 
quite a few major airports of the 30 largest that were not 
going to be compliant.
    Unfortunately, I launched with our team to Teterboro, New 
Jersey, to the overrun that occur into a warehouse there. We 
have made numerous recommendations about runway safety areas, 
and we do appreciate what you did in the legislation to try to 
move those around.
    We are going to continue to monitor those closely. We know 
that we are seeing so many more excursions and overruns, 
including at Midway in Chicago and at Teterboro. We have seen 
quite a few in the last few years and it is an area of focus 
for the Safety Board and we will continue to look at that.
    Senator Lautenberg. We have your commitment.
    Ms. Trottenberg, last month in New Jersey, we broke ground 
on the largest mass transit project in the country. It is a new 
rail tunnel under the Hudson River connecting New Jersey and 
New York. Unless it is not clear, this is, in my view, a 
national priority. It is not simply connecting the two states 
and their commerce, but it really reflects our interest in 
making sure that commerce can flow freely. If we can improve 
the scheduling on Amtrak and other rail service that go under 
the Hudson River, it is going to make things work a lot more 
efficiently.
    This project is going to create jobs, shorten commutes, 
reduce emissions and when complete, it will take 22,000 cars 
off the roads daily.
    If confirmed, are you prepared to make this issue a 
priority, and do you see things going where there is a large-
scale transformational project like the Hudson River Tunnel?
    Ms. Trottenberg. I thank you, Senator Lautenberg. I have 
been an enthusiastic supporter of the ARC Project even since my 
days at the Port Authority, and I can assure you I think there 
is great enthusiasm for it in the Department of Transportation. 
And if confirmed, yes, it would certainly, I agree with you, 
that it is a transformational project for the New York, New 
Jersey region.
    And you raise a very good question and something I know 
that the Secretary has talked about in part of what he is going 
to be looking for, for starters in the $1.5 billion 
discretionary program, finding a way to fund these sort of 
large transformational projects of national significance which 
often straddle different states and are very, very complex and 
are hard to get Federal funding for.
    So I can tell you I think that is going to be a big 
priority for the Department.
    Senator Lautenberg. So you had time with the Port 
Authority?
    Ms. Trottenberg. I did before----
    Senator Lautenberg. You know when I came here I was the 
Commissioner of the Port Authority----
    Ms. Trottenberg. I know that.
    Senator Lautenberg.--when I came to the Senate. And what I 
tried to do was hang on for a bit of time because I really felt 
the Port Authority of New York and New Jersey a very important 
agency and demonstrates that bi-state arrangements can be made 
and function efficiently.
    Well, it took take about 2 weeks before the New York Times 
said, hey, you have got one job--well, the Port Authority did 
not pay at all. I will not comment on the Senate job. But it is 
a real agency.
    Ms. Hersman, remember people--crashing with large trucks 
already average 5,000 each year, yet some have proposed 
relaxing the ban on large trucks that weigh more than 80,000 
pounds. They are longer than 53 feet on our interstate highway 
system.
    Relaxing this ban, does it sound like it might be adding a 
significant safety risk to the driving public?
    Ms. Hersman. Senator Lautenberg, the Safety Board has not 
looked at this issue, but I can tell you that we have paid very 
close attention to heavy truck accidents on our Nation's 
highways. I think one of the issues that is very important is 
that this number has remained relatively flat since the Federal 
Motor Carriers Safety Administration has been created.
    The Safety Board has made numerous recommendations for 
enhanced oversight, enforcement and technologies. No matter 
what size the truck is, we do not want to see accidents between 
heavy trucks and other vehicles, because we know that they do 
not turn out well.
    If a truck driver gets fatigued and plows into a stand of 
cars at a toll plaza, it is very likely that we are going to 
see fatalities in either the buses or the cars that are hit, as 
we did in the Marengo Toll Plaza in Illinois.
    So I can tell you that we have a number of concerns about 
the safety of trucks, but the Safety Board has not weighed in 
on heavy trucks size and weight issues.
    Senator Lautenberg. Well, I encourage your views.
    And, last, Mr. Chairman, I want to ask Mr. Lidinsky----
    Senator Udall. The Chair would just like to advise 
everybody we are about 12 minutes into a 15-minute vote now on 
the Senate floor. The vote began, I believe, at 4:47, so please 
Senator Lautenberg, please continue.
    Senator Lautenberg. OK, well if we had time, Mr. Lidinsky, 
I would have asked you this.
    [Laughter.]
    Senator Lautenberg. During your years of experience with 
the maritime industry, did you think that the level of 
communication between industry and the Federal Maritime 
Commission is readied up to be? That can be a yes or no 
question.
    Mr. Lidinsky. The answer is it should be better, and we are 
going to work for that goal, Senator.
    Senator Lautenberg. All right. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Udall. Thank you, Senator Lautenberg. Just a couple 
of quick housekeeping measures. Without objection, I would like 
to enter a statement and additional materials for Senator 
Rockefeller regarding Mr. Bolden's nomination in the hearing 
record. Without objection other members have 3 days to enter 
statements for the record, and I would ask all members to send 
questions for the record by 6 p.m. tonight to give nominees 
sufficient time to answer.
    And we would like to thank this distinguished group of 
nominees. We look forward to moving you forward quickly. And 
the hearing is adjourned.
    [Whereupon, at 5 p.m., the hearing was adjourned.]

                            A P P E N D I X

                Statement of Hon. John D. Rockefeller IV

    I am entering into the hearing record memoranda prepared by the 
Congressional Research Service (``CRS''), at my request, and the 
Department of Justice's Office of Legal Counsel (``DoJ OLC'') regarding 
the statutory requirement that the NASA Administrator come from 
civilian life and its application to Mr. Bolden.
    Section 2472(a) of title 42 states that NASA shall be headed by an 
``Administrator, who shall be appointed from civilian life by the 
President by and with the advice and consent of the Senate.'' If a 
nominee for Administrator is found not to be from civilian life, a 
waiver would be required for him to be appointed as was done in the 
appointment of Admiral Richard Truly in 1989, who was not yet retired 
at the time of his nomination.
    Mr. Bolden retired from the United States Marine Corps in 2003 and 
is currently on the Department of Defense's ``retired'' list. He has 
worked in the civilian sector since his retirement from the Marine 
Corps and is currently the Chief Executive Officer of a private 
consulting company.
    Both DoJ and CRS have reviewed the relevant law and Mr. Bolden's 
individual facts, and have concluded that he is ``appointed from 
civilian life'' as required by the NASA Act, and that a waiver is not 
required for him to be appointed as Administrator.
    I fully agree with the CRS and DoJ analysis that Mr. Bolden meets 
the requirement that the Administrator be appointed from civilian life, 
despite his status as a retired military officer. The Committee has 
reviewed this issue and I am satisfied that he meets the statutory 
requirement and that a waiver is not required for his appointment.
    I also note that the Committee remains fully committed to the 
principle established in the Space Act of 1958 that NASA shall be a 
civilian agency.

                              Attachments
                                 U.S. Department of Justice
                                       Washington, DC, July 8, 2009
Office of Legal Counsel,
Office of the Deputy Assistant Attorney General.
Memorandum for Gregory B. Craig, Counsel to the President

Re: Eligibility of a Retired Military Officer for Appointment as 
    Administrator of the National Aeronautics and Space Administration

    You have asked for our opinion whether a retired military officer 
is eligible for appointment as Administrator of the National 
Aeronautics and Space Administration (``NASA''). Section 202 of the 
National Aeronautics and Space Act of 1958, Pub. L. No. 85-568, 72 
Stat. 426 (``Space Act'') (codified as amended at 42 U.S.C.  2472(a) 
(2006)), creates NASA and provides that it ``shall be headed by an 
Administrator, who shall be appointed from civilian life by the 
President by and with the advice and consent of the Senate.'' 42 U.S.C. 
 2472(a) (emphasis added). The Space Act does not define the phrase 
``appointed from civilian life,'' nor does it expressly address whether 
a retired military officer is eligible to be appointed as NASA 
Administrator.
    On June 22, 2009, the President nominated Charles F. Bolden, Jr., a 
retired General in the United States Marine Corps, to be Administrator 
of NASA. See 155 Cong. Rec. 56898 (daily ed. June 22, 2009). General 
Bolden retired from the Marine Corps in 2003. He is at present the 
Chief Executive Officer of a private consulting firm.
    We believe that a retired military officer--and certainly one who 
has engaged in civilian pursuits after his retirement--is eligible for 
appointment as Administrator of NASA. This conclusion is supported by 
the ordinary meaning of the phrase ``from civilian life,'' use of the 
phrase in other statutes, practice under such statutes, and 
longstanding Executive Branch precedent interpreting the phrase and 
similar words. We recognize that there are possible arguments to the 
contrary, but in our view these arguments, in the end, are 
unconvincing.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ This opinion is identical to one issued July 6, 2009, except 
that the earlier version inadvertently omitted one word.
---------------------------------------------------------------------------
                                   I.

    The Space Act establishes NASA as a ``civilian agency,'' whose 
activities ``should be devoted to peaceful purposes for the benefit of 
all mankind.'' Pub. L. No. 85-568,  101, 102(b). The statute requires 
the Administrator to come from ``civilian life.'' See id.  202. It 
does not specifically address whether a retired military officer, who 
continues to hold a commission, would meet this qualification. Several 
arguments, however, support the conclusion that a retired military 
officer is eligible for appointment as Administrator of NASA.
    First, the usual definition of ``civilian'' includes retired 
military personnel who are not on active duty. See American Heritage 
Dictionary (2009), available at http://education.yahoo.com/reference/
dictionary/entry/civilian (defining ``civilian'' as ``[a] person 
following the pursuits of civil life, especially one who is not an 
active member of the military''); Merriam-Webster Online Dictionary 
(2009), available at http://www.merriamwebster.com/dictionary/civilian 
(defining ``civilian'' as ``one not on active duty in the armed 
services''); Webster's Seventh New Collegiate Dictionary 152 (7th ed. 
1963) (defining ``civilian'' as ``one not on active duty in a military, 
police, or fire-fighting force''). In its ordinary meaning, therefore, 
the phrase ``appointed from civilian life'' refers to a person who is 
not on active military duty at the time of appointment. A retired 
military officer who has ceased active military service falls within 
this class of persons. Thus, by the literal terms of the statute, 
Congress did not bar all retired military personnel from appointment.
    Second, although Congress did not define in the Space Act which 
persons are considered to be in ``civilian life,'' the use of the 
phrase ``appointed from civilian life'' in other statutes supports the 
conclusion that the phrase generally does not disqualify retired 
military officers. In some statutes, as in the Space Act, Congress has 
limited eligibility for appointment to persons ``from civilian life,'' 
without specifying whether retired military officers are deemed in 
``civilian life.'' See, e.g., 10 U.S.C.A.  133(a) (West Supp. 2009) 
(requiring Under Secretary of Defense for Acquisition, Technology, and 
Logistics to be ``appointed from civilian life''); 15 U.S.C.  
633(b)(1) (2006) (requiring Administrator of Small Business 
Administration to be ``appointed from civilian life''); 42 U.S.C.  
2286(b)(1) (2006) (requiring members of Defense Nuclear Facilities 
Safety Board to be ``appointed from civilian life''). In other 
statutes, however, Congress not only has directed that the appointee be 
``from civilian life,'' but also has explicitly disqualified all 
retired military officers from appointment during a specified cooling-
off period. These statutes support the conclusion that the phrase 
``from civilian life,'' standing on its own, encompasses retired 
military officers.
    For example, 10 U.S.C.  113(a) (2006) requires that the Secretary 
of Defense be ``appointed from civilian life,'' but excludes from 
eligibility any person ``within 7 years after relief from active duty 
as a commissioned officer of a regular component of an armed force.'' 
See also 10 U.S.C.A.  134(a) (West Supp. 2009) (limiting appointment 
eligibility for Under Secretary of Defense for Policy to persons 
``appointed from civilian life'' who are ``within 7 years after relief 
from active duty as a commissioned officer of a regular component of an 
armed force''); 10 U.S.C.  3013(a) (2006) (limiting appointment 
eligibility for Secretary of the Army to persons ``appointed from 
civilian life'' who are ``within 5 years after relief from active duty 
as a commissioned officer of a regular component of an armed force''); 
10 U.S.C.  5013(a) (2006) (same for Secretary of the Navy); 10 U.S.C. 
 8013(a) (2006) (same for Secretary of the Air Force); 42 U.S.C.  
5812(a) (2006) (limiting appointment eligibility for Administrator of 
Energy Research and Development to persons ``appointed from civilian 
life'' who are ``within 2 years after release from active duty as a 
commissioned officer of a regular component of an armed force''). The 
statutory exclusion of retired military officers from appointment to 
certain offices for a specified time period necessarily implies that 
such persons are eligible for appointment to those same offices once 
the cooling-off period has ended. Because persons appointed to those 
offices must be ``from civilian life,'' it follows that retired 
military persons are considered to be ``from civilian life.'' When 
Congress intends to make some retired military officers ineligible for 
appointment, it has done so expressly.
    Similarly, when Congress has barred certain retired military 
personnel, for all time, from appointment to an office having a 
``civilian life'' requirement, it has explicitly stated the 
prohibition. Congress, for example, has directed that judges of the 
United States Court of Appeals for the Armed Forces (``CAAF'') ``be 
appointed from civilian life,'' but, ``[for purposes of appointment of 
judges to the court,'' has provided that ``a person retired from the 
armed forces after 20 or more years of active service (whether or not 
such person is on the retired list) shall not be considered to be in 
civilian life.'' 10 U.S.C.  942(b)(1) and (4) (2006). See also 49 
U.S.C.  106(b)-(d) (2006) (requiring Administrator of Federal Aviation 
Administration to ``be a civilian,'' but imposing the condition that 
where ``the Administrator is a former regular officer of an armed 
force, the Deputy Administrator may not be an officer on active duty in 
an armed force, a retired regular officer of an armed force, or a 
former regular officer of an armed force''). Congress's exclusion of 
certain retired military personnel from appointment to the CAAF would 
have no purpose unless they would otherwise be ``from civilian life.'' 
Furthermore, under the statute, retired military personnel with less 
than twenty years of active service necessarily are considered to be 
``from civilian life.''
    All of these statutes support the view that when Congress limits 
appointments to persons ``from civilian life,'' it treats retired 
military officers as coming ``from civilian life.'' Under these 
statutes, when Congress intends to exclude retired military officers 
from appointment, it explicitly states that exclusion. The Space Act 
uses the phrase ``from civilian life'' without any further condition. 
The text of the statute, therefore, gives no indication that Congress, 
which has used the same ``civilian life'' requirement in many other 
acts, excluded retired military officers from appointment.
    Third, there is practice--established by Presidents and the Senate 
acting together--in which retired military officers have been 
nominated, confirmed, and appointed to serve in positions covered by a 
``from civilian life'' qualification. The Under Secretary of the Navy, 
for example, must be appointed ``from civilian life.'' 10 U.S.C.  
5015(a) (2006). The current Under Secretary, Robert O. Work, who was 
confirmed May 18, 2009, is a retired military officer. The Under 
Secretary of Defense for Intelligence also must be ``appointed from 
civilian life,'' 10 U.S.C.  137(a) (2006), and the current occupant of 
that position, James R. Clapper, who was confirmed April 11, 2007, is a 
retired officer. These current examples are only part of a longer and 
more extensive practice. See Memorandum for William J. Haynes II, 
General Counsel, Department of Defense, from C. Kevin Marshall, Deputy 
Assistant Attorney General, Office of Legal Counsel, Re: Eligibility of 
a Retired Army Officer to be Appointed Inspector General of the 
Department of Defense at 4-5 (May 18, 2007).
    Fourth, longstanding Executive Branch precedent supports an 
interpretation of the phrase ``from civilian life'' that would extend 
to retired military officers. Our office previously concluded that 
retired military officers were not automatically disqualified from 
appointment to several positions that were, by statute, confined to 
persons ``appointed from civilian life.'' See Memorandum for Cyrus R. 
Vance, General Counsel, Department of Defense, from Harold F. Reis, 
Acting Assistant Attorney General, Office of Legal Counsel, Re: 
Eligibility of a Retired Regular Officer of the Armed Forces to be 
Appointed to the Position of Under Secretary or Assistant Secretary of 
one of the Military Departments (Feb. 3, 1961) (``Eligibility of a 
Retired Regular Officer''). We relied, in part, on ``considerations [ ] 
relevant to the interpretation of the requirement that these officials 
shall be appointed from civilian life'' that apply equally here--``the 
traditional meaning of the term'' and ``the fact that when Congress 
seeks to disqualify retired regular officers it does so in unmistakable 
language'' Id. at 3. We noted the possibility that, under some sets of 
facts, particular retired officers might not be ``from civilian life,'' 
and said in particular that it would accord with ``the spirit'' of the 
requirement if a retired officer had been engaged in civilian pursuits. 
See id. at 7. Whatever the possible facts that might call into question 
a particular retired officer's status in ``civilian life'' under some 
statutes having a ``civilian life'' qualification, a retired officer's 
eligibility is clear when he has been engaged in civilian pursuits at 
the time of appointment.
    A 1930 Attorney General opinion similarly held that a retired Army 
officer could be appointed to an office that called for an appointee 
``from civil life.'' See Eligibility of Retired Army Officer to Hold 
the Position of Commissioner of the District of Columbia, 36 Op. Att'y 
Gen. 389 (1930) (``1930 Opinion''). After canvassing the legal backdrop 
against which the relevant legislation had been passed, the opinion 
concluded:

        In using the term ``civil life'' Congress referred to the 
        activity in life of the appointee. It is the taking of a person 
        from one of two classes of society, military or civil. Military 
        life is led when a person is in the active military service of 
        the Army and is doing duty in his daily life in carrying out 
        military functions. If he is carrying on military work and that 
        is his life's activity at the time, he is not from civil life, 
        but if he has retired from that activity and his pursuits are 
        civil, then he is from civil life.

    Id. at 398-99; see id. At 398 (``It seems reasonably clear, 
therefore, that in using the phrase `civil life' . . . Congress was 
referring to those engaged in civil life, whether or not retired Army 
officers, as distinguished from the military life of an officer in 
active service.''); id. at 402 (``Retired officers who have ceased to 
engage in military service and have entered civil life and civil 
pursuits . . . are in civil life within the meaning of the [statute] 
and eligible to appointment . . . .''). Congress, we believe, can be 
understood to have legislated against the background of this published 
Executive Branch interpretation of a term (``from civil life'') that is 
virtually the same as the one in the Space Act (``from civilian 
life''), and that understanding accords with the ordinary meaning of 
the phrase ``from civilian life,'' use of express language in other 
statutes to exclude some retired military officers who would otherwise 
fall within that category, and practice of the Government. We therefore 
conclude that a retired military officer can qualify for appointment as 
Administrator of NASA.

                                  II.
    Although we believe that this conclusion is well supported, there 
are possible arguments for the view that the Space Act bars retired 
military personnel from appointment. We believe, however, that these 
arguments are ultimately unconvincing.
    First, the legislative history of the Space Act arguably could be 
read to indicate that Congress intended the phrase ``from civilian 
life,'' as used in that statute, to exclude retired military personnel. 
An earlier version of the bill may have assumed that the ``civilian 
life'' requirement barred appointment of a retired officer. That 
version would have prohibited the Administrator from employing retired 
commissioned officers under certain pay provisions unless sufficient 
numbers of qualified individuals ``from civilian life'' were 
unavailable. A House committee report explained the provision as 
follows:

        Paragraph (10) authorizes the Administrator to employ retired 
        commissioned officers [under certain compensation provisions]; 
        but this authority could be exercised only when sufficient 
        numbers of qualified individuals from civilian life are not 
        available . . .

    H.R. Rep. No. 1770, at 20 (1958). Although the provision allowing 
the Administrator to employ retired commissioned officers was enacted, 
the condition that ``sufficient numbers of qualified individuals from 
civilian life are not available'' was omitted from the final bill. See 
Pub. L. No. 85-568,  203(b)(11); see H.R. Conf. Rep. No. 85-2166, at 
20 (1958) (noting omission during the conference). The legislative 
history does not explain why the provision was omitted, but the 
omission is consistent with the view that retired military officers 
could be considered to be in ``civilian life,'' since that view is 
reflected in the phrase's ordinary meaning, prior usage by Congress, 
and Executive Branch precedent.
    We have not found any other significant materials in the 
legislative history of the Space Act that bear on the interpretation of 
the phrase. In the end, therefore, this murky legislative history about 
an unenacted version of the statute does not justify the conclusion 
that the phrase ``from civilian life'' in the version ultimately 
enacted bars the appointment of retired military officers--particularly 
in light of the ordinary meaning of the phrase and the ways in which 
Congress has used it in other statutes.
    Second, it might be argued that our interpretation is mistaken 
because, on at least five occasions in recent times (and once under the 
Space Act itself), Congress has enacted separate legislation 
authorizing the appointment of a particular retired military officer to 
a position for which eligibility was limited to those ``from civilian 
life.'' In 1989, Congress passed a bill authorizing the President to 
appoint Rear Admiral Richard Truly as NASA Administrator. See Act of 
June 30, 1989, Pub. L. No. 101-48, 103 Stat. 136. Admiral Truly was in 
active service at the time that the legislation was introduced, but he 
had expressed his intention to retire from active military duty before 
being sworn in as Administrator. See 135 Cong. Rec. 11, 719 (1989). On 
the same day that Congress authorized the President to appoint Admiral 
Truly, it passed identical legislation authorizing the appointment of 
retired Admiral James Busey as Administrator of the Federal Aviation 
Administration (``FAA''). See Pub. L. No. 101-47, 103 Stat. 134 (1989). 
Similarly, in 1984, 1991, and 1992, Congress passed legislation 
authorizing the President to appoint a retired military officer as FAA 
Administrator. See Pub. L. No. 102-308, 106 Stat. 273 (1992); Pub. L. 
No. 102-223, 105 Stat. 1678 (1991); Pub. L. No. 98-256, 98 Stat. 125 
(1984).\1\
---------------------------------------------------------------------------
    \1\ Essentially the same statutory structure and language have also 
been used to authorize the appointment of an active duty military 
officer. See Pub. L. No. 81-788, 64 Stat. 853 (1950) (authorizing 
appointment of General George C. Marshall to serve as Secretary of 
Defense, an office with a ``civilian life'' condition).
---------------------------------------------------------------------------
    The authorization for Admiral Truly's appointment apparently rested 
on the view that the ``civilian life'' qualification otherwise would 
have forbidden the appointment, unless Admiral Truly surrendered his 
commission and thus gave up his retired pay and benefits. The 
authorization declared that, with the Senate's advice and consent, the 
President could make the appointment, ``[n]otwithstanding the 
provisions of section 202(a) of the [Space Act] [which sets out the 
``civilian life'' qualification], or any other provision of law.'' Pub. 
L. No. 101-48,  1,103 Stat. 136. See also id.  3 (providing, 
``[n]othing in this Act shall be construed as approval by the Congress 
of any future appointments of military persons to the Offices of 
Administrator and Deputy Administrator of [NASA].''). The Senate 
committee report stated that ``a review of the legislative history of 
the term `from civilian' life indicates that this term excludes active 
duty military personnel and retired military personnel'' and that 
``[t]o meet the strict interpretation of the term, a person would have 
to resign his commission and give up military benefits and pension to 
be considered `civilian.' '' S. Rep. No. 101-57, at 2 (1989).\2\ The 
floor debates also revealed the view that, without a ``waiver,'' 
Admiral Truly could not be appointed. See 135 Cong. Rec. 12,927 (June 
22, 1989). To be sure, Admiral Truly disputed this conclusion. He took 
the view that retired military officers ``do come from `civilian life,' 
'' although he acknowledged that the question would be ``interpretable 
by lawyers I guess on all sides of the issue.'' Nominations-May-June: 
Hearings Before the S. Comm. on Com., Science, and Transp., 101st Cong. 
264, 279 (1989) (statement of Adm. Truly). In any event, Congress 
evidently acted on the view that a ``waiver'' was necessary.\3\
---------------------------------------------------------------------------
    \2\ According to the Committee report, ``the President made 
reference to the requirement for a legislative waiver when he announced 
the nomination of Admiral Truly.'' S. Rep. No. 101-57, at 2. At the 
time of the President's statement, however, Admiral Truly was still on 
active duty, and the President said that ``because Dick Truly is an 
active duty naval officer . . . I will need the assent and cooperation 
of the Congress to make this appointment.'' 1 Pub. Papers of George 
Bush 399 (1989). See also Pub. L. No. 107-117,  307,115 Stat. 2230, 
2301 (2002) (allowing appointment of an active duty officer as Deputy 
Administrator of NASA). The President, therefore, did not suggest that 
he could not appoint a retired military officer unless Congress enacted 
legislation.
    \3\ Admiral Busey requested legislation so that he could maintain 
his retirement benefits. See S. Rep. No. 101-56, at 1 (1989) (``Admiral 
Busey has requested a legislative waiver of this prohibition in order 
that he may retain his status as a retired military officer while 
serving as Administrator, thus allowing him to retain eligibility under 
his retirement plan and an opportunity to participate in the Survivors' 
Benefit Plan.''). As in the case of Admiral Truly, the Senate Committee 
report stated that the purpose of the legislation authorizing the 
appointment was ``to allow Admiral Busey to retain his status as a 
retired officer in the U.S. Navy.'' Id.
---------------------------------------------------------------------------
    To the extent the proponents of the authorization, in the Committee 
report and on the floor, offered a construction of the Space Act, their 
construction is subsequent legislative history of that statute and thus 
is entitled to little weight. See Pension Benefit Guaranty Corp. v. LTV 
Corp., 496 U.S. 633, 650 (1990) (later history is ``a hazardous basis 
for inferring the intent of an earlier Congress'' (internal quotations 
omitted)). A more substantial issue is that ``the implications of a 
statute may be altered by the implications of a later statute,'' United 
States v. Fausto, 484 U.S. 439, 453 (1988), so that the later 
legislation here, while not an authoritative construction of the Space 
Act, might be argued to have ``shape[d] or focus[ed]'' that statute's 
``range of possible meanings,'' FDA v. Brown & Williamson Tobacco 
Corp., 529 U.S. 120, 143 (2000).
    We do not believe, however, that the legislation enacted for 
Admiral Truly's appointment is sufficient to alter the interpretation 
of the Space Act that would otherwise prevail. In Fausto, the leading 
case on the interpretive principle, the Court held that after enactment 
of the Civil Service Reform Act of 1978, Pub. L. No. 95-454, 92 Stat. 
1111 (``CSRA''), the Back Pay Act (5 U.S.C.  5596) should no longer be 
interpreted to enable a Federal employee to obtain review in the Court 
of Claims of certain personnel decisions. The Court found that such 
review would ``turn . . . upside down'' and ``seriously undermine'' 
elements of the CSRA's structure. Fausto, 484 U.S. at 449. Here, there 
is no need to reinterpret the Space Act in order to give full effect to 
the legislation authorizing Admiral Truly's appointment or to achieve 
the goal of ``getting [those statutes] to `make sense' in 
combination.'' Id. at 453. Even if the Space Act's ``civilian life'' 
requirement posed no obstacle, a targeted authorization for the 
President to make the appointment of a particular retired military 
officer ``[n]otwithstanding the provisions of section 202(a) of the 
[Space Act], or any other provision of law,'' 103 Stat. at 136, would 
make sense--whatever the motivation of the Congress that enacted it--as 
a prudential measure, covering any possible statute that might endanger 
the officer's retired pay and benefits. Furthermore, other appointments 
could be made under the Space Act without creating any conflict with a 
statute authorizing the appointment of a single, named individual.
    The Court's most recent extended application of the principle set 
forth in Fausto is also consistent with the conclusion that the 
targeted statute authorizing Admiral Truly's appointment does not alter 
the meaning of the Space Act itself. In Brown & Williamson, the Court 
read the Food. Drug, and Cosmetic Act, 52 Stat. 1040 (1938) (``FDCA''), 
to preclude the Food and Drug Administration (``FDA'') from regulating 
tobacco. It interpreted the FDCA in the light of a string of later 
statutes that had presumed a lack of authority and had been enacted 
``against the backdrop of the FDA's consistent and repeated statements 
that it lacked authority under the FDCA to regulate tobacco.'' 529 U.S. 
at 144. The authorization for Admiral Truly's appointment, however, was 
not part of a succession of statutes under the Space Act following an 
Executive Branch legal interpretation that our current interpretation 
would disturb. Indeed, the Executive Branch legal interpretation of the 
relevant phrase, as explained above, has been that retired officers are 
``from civilian life.'' We therefore would not read the authorization 
for Admiral Truly's appointment as altering the ordinary meaning of 
``civilian life.''
    Third, it might be argued that the interpretation that retired 
officers may be ``from civilian life'' means that the enactment of the 
``civilian life'' qualification served no function, in light of 
another, preexisting statute. When Congress passed the Space Act, 
another statute, see 70A Stat. 203 (1956), already prohibited active 
duty officers from appointment to a civil office. According to the 
argument, the ``civilian life'' requirement could not have been 
intended to exclude only persons already barred by another law. In 
Eligibility of a Retired Regular Officer, however, we noted that the 
general statute was on the books, while concluding that the phrase 
``civilian life'' does encompass retired military officers. Our 
analysis there points to one possible reason that the ``civilian life'' 
qualification had an effect beyond the general bar against appointment 
of active duty officers. We concluded that a retired officer was not 
``automatically disqualified'' from appointment, Eligibility of a 
Retired Regular Officer at 1, but that a particular retired officer 
might still be disqualified under specific facts. We suggested, for 
example, that ``the spirit'' of the qualification might call for an 
officer to `` `have ceased to engage in military service and entered 
civil life and civil pursuits.' '' Eligibility of a Retired Regular 
Officer at 7 (quoting 1930 Opinion, 36 Op. Att'y Gen. at 402).\4\ We 
need not resolve here the precise relationship of the ``civilian life'' 
qualification and the current version of the preexisting statute, 10 
U.S.C.  973, except to note that there can be little doubt about the 
eligibility of a retired officer who has engaged in civilian pursuits 
(whether or not such an engagement is essential), even if there might 
be a prudential reason for enacting a statute (which might be 
unnecessary) to remove any possible question in the case of an officer 
who retired immediately before appointment.\5\
---------------------------------------------------------------------------
    \4\ Moreover, the ``civilian life'' requirement goes beyond the 
current version of the general prohibition against service by a retired 
officer, 10 U.S.C.  973 (2006), because some retired officers--in 
particular, reservists who are on active duty for 270 days or less--
could serve in Senate-confirmed positions under section 973 but would 
not meet the ``civilian life'' restriction.
    \5\ Under a line of cases in the Court of Claims, a provision 
giving additional service credit to officers ``appointed from civil 
life'' might have been unavailable to an officer who resigned with the 
purpose of rejoining the military and who then claimed he had come from 
``civil life.'' Compare Guilmette v. United States, 49 Ct. Cl. 188, 192 
(1914) (holding that an officer ``was in fact and in law completely 
separated from the public service'' during a 17-day period and was 
entitled to the credit), with Barber v. United States, 50 Ct. Cl. 250, 
256 (1915) (holding that where an officer ``never intended to enter 
civil life if he could remain in the service,'' a break of several 
weeks did not amount to entry into ``civil life''). An opinion of our 
Office, Federal Election Commission--Appointment of Members (2 U.S.C.  
437), 2 Op. O.L.C. 359 (1977), read Guilmette and the 1930 Opinion as 
calling for an appointee ``from civilian life'' to have gone through 
more than an ``immediate break'' from military duty. We need not 
address here whether there is such a limit or whether it is sufficient 
that the officer, upon retiring, does not seek a quick return to active 
duty.
---------------------------------------------------------------------------
    Finally, although no court has considered whether a retired 
military officer is eligible to be appointed to an office with a ``from 
civilian life'' qualification, there might be an argument that attempts 
to draw some significance from the conclusions of courts, in contexts 
other than appointments, that officers on the retired list remain 
members of the military and are deemed to be in military service. As 
the courts note, these retired officers are subject to the Uniform Code 
of Military Justice, to court-martial, and to recall to active duty by 
the Secretary of Defense. The Supreme Court explained in United States 
v. Tyler, 105 U.S. 244 (1882), for example, that persons whose names 
are on the retired list remain in ``military service'':

        It is impossible to hold that men who are by statute declared 
        to be a part of the army, who may wear its uniform, whose names 
        shall be borne upon its register, who may be assigned by their 
        superior officers to specified duties by detail as other 
        officers are, who are subject to the rules and articles of war, 
        and may be tried, not by a jury, as other citizens are, but by 
        a military court-martial, for any breach of those rules, and 
        who may finally be dismissed on such trial from the service in 
        disgrace, are still not in the military service.

    Id. at 246.
    This precedent, however, does not bear significantly on the current 
issue. Although the Court's opinion in Tyler concluded that ``retired 
officers are in the military service of the government,'' id., the 
Court was not asked to decide whether such officers are in ``civilian 
life'' or military life. A retired military officer could be in 
military service as a result of continuing to hold a commission, but 
insofar as his daily pursuits are civil, he would live a civilian life. 
As the Attorney General recognized in the 1930 Opinion, the ``fact that 
a man has a definite connection with the Military Establishment . . . 
does not prevent him from being properly treated as in civil life.'' 36 
Op. Att'y Gen. at 400.

                                  III.
    We therefore conclude that a retired military officer--and 
certainly one who has engaged in civilian pursuits--qualifies for 
appointment as Administrator of NASA. Although there are possible 
arguments on the other side, we believe that these arguments are 
ultimately unpersuasive.
    Please let us know if we may be of further assistance.
                                         Daniel L. Koffsky,
                                 Deputy Assistant Attorney General.
                                 ______
                                 
                             Congressional Research Service
                                                      June 30, 2009
Memorandum
To: Senate Commerce, Science, and Transportation Committee,
Attention: Senator Rockefeller, Chairman
From: Vivian S. Chu, Legislative Attorney, Congressional Research 
            Service

Subject: Nomination of NASA Administrator and Statutory Requirement of 
    ``Civilian Life''

    This memorandum is in response to your inquiry as to whether a 
nominee, who is retired from the military, comes from ``civilian life'' 
as required by the statutory language that establishes the position for 
the Administrator of the National Aeronautics and Space Administration 
(NASA).
    Section 2472(a) of title 42 states that NASA shall be headed by an 
``Administrator, who shall be appointed from civilian life by the 
President by and with the advice and consent of the Senate.'' In May 
2009, President Obama announced his intent to nominate General Charles 
Bolden, who retired from the United States Marine Corps in 2003 
(according to the White House), for this position.\1\ The Senate 
formally received his nomination on June 22, 2009.
---------------------------------------------------------------------------
    \1\ White House Press Release, President Obama Announces More Key 
Administration Posts, May 23, 2009.
---------------------------------------------------------------------------
    Although it appears there are no statutes that explicitly define or 
discuss when one returns to civilian life, it is generally understood 
that one is in civilian life when not on active-duty status. There are 
other statutes that also require appointees to come from civilian life. 
In these statutes, it appears that the term ``civilian life'' is not a 
term of art and is given its ordinary meaning.\2\ A court then is 
likely to refer to the dictionary to give ``civilian life'' its 
ordinary meaning. Webster's Third New International Dictionary defines 
``civilian'' as ``a resident of a country who is not on active duty in 
one of the armed services.'' \3\ Similarly, the Oxford English 
Dictionary defines ``civilian'' as ``[o]ne who does not professionally 
belong to the Army or the Navy; a non-military person.'' \4\
---------------------------------------------------------------------------
    \2\ Even if a word or a phrase is not defined by statute, it may 
have an accepted meaning in the area of law addressed by the statute, 
it may have been borrowed from another statute under which it had an 
accepted meaning, or it may have had an accepted and specialized 
meaning at common law. In each of these situations the accepted meaning 
governs and the word or phrase is considered a technical term or ``term 
of art.'' See CRS Report 97-589, Statutory Interpretation: General 
Principles and Recent Trends, by Yule Kim. As ``civilian life'' appears 
to be neither defined in statute, nor borrowed from another that imbues 
it with a specialized meaning, it is unlikely that it is a term of art 
for purposes of these statutes because it does not appear to have a 
technical meaning.
    \3\ Webster's Third New International Dictionary 413 (1976).
    \4\ Oxford English Dictionary (2d. ed. 1989). See also U.S. v. 
Union Pac. R. Co., 249 U.S. 354, 360 (1919) (holding that ``retired 
enlisted men . . . are also not `troops of the United States' '').
---------------------------------------------------------------------------
    Additionally, the understanding that one is in civilian life when 
not on active-duty status is further supported through these various 
statutes that require appointees to come from civilian life.
    The best statutory example that implicitly supports the notion that 
military retirees enter civilian life upon retiring is the statute 
governing the appointment of judges to the United States Court of 
Appeals for the Armed Forces. This statute provides that ``[e]ach judge 
of the court shall be appointed from civilian life by the President, by 
and with the advice and consent of the Senate, for a specified term.'' 
\5\ The statute makes clear that ``for purposes of appointment of 
judges to the court, a person retired from the armed forces after 20 or 
more years of active service (whether or not such person is on the 
retired list) shall not be considered to be in civilian life.'' \6\ 
Because a military retiree is not considered to come from civilian life 
for purposes of the position, this implicitly supports the concept that 
but for this statute, one returns to civilian life upon retirement from 
the military.
---------------------------------------------------------------------------
    \5\ 10 U.S.C.  942(b)(1).
    \6\ 10 U.S.C.  942(b)(4) (emphasis added).
---------------------------------------------------------------------------
    Other statutes that reinforce this principle are ones that 
establish secretary-level positions within the United States Department 
of Defense (DOD). The provisions for the Secretary of the Navy, 
Secretary of the Army, and Secretary of the Air Force each require that 
the individual be ``appointed from civilian life by the President, by 
and with the advice and consent of the Senate.'' \7\ However, a person 
may not be appointed to these respective positions ``within 5 years 
after relief from active duty as a commissioned officer of a regular 
component of an armed force.'' \8\ The Secretary of Defense is also 
required to be appointed from civilian life, but a person may not be 
appointed into this position ``within 10 years after relief from active 
duty as a commissioned officer of a regular component of an armed 
force.'' \9\ In contrast, various under secretary and deputy under 
secretary positions for the DOD only require that the individual be 
appointed from civilian life by the President, by and with the advice 
and consent of the Senate, but impose no other qualification that the 
individual be removed from active duty for a definite number of years 
before qualifying as being from civilian life.\10\ Thus, the statutory 
language pertaining to Secretaries of the Navy, Army, and Air Force as 
well as the Secretary of Defense compared to that of the under 
secretaries and deputy under secretaries demonstrates and further 
supports the general understanding that individuals not on active-duty 
status may be considered to be in civilian life but for any statutory 
restrictions.
---------------------------------------------------------------------------
    \7\ 10 U.S.C.  5013(a)(1) (Secretary of the Navy); 10 U.S.C.  
3013(a)(1) (Secretary of the Army); 10 U.S.C.  8013(a)(1) (Secretary 
of the Air Force).
    \8\ 10 U.S.C. 5013(a)(2) (Secretary of the Navy); 10 U.S.C.  
3013(a)(2) (Secretary of the Army); 10 U.S.C.  8013(a)(2) (Secretary 
of the Air Force).
    \9\ 10 U.S.C.  113.
    \10\ See, e.g., 10 U.S.C.  133a (Deputy Under Secretary of Defense 
for Acquisition and Technology); 10 U.S.C.  134a (Deputy Under 
Secretary of Defense for Policy); 10 U.S.C.  137 (Under Secretary of 
Defense for Intelligence); 10 U.S.C. 139a (Director of Defense Research 
and Engineering).
---------------------------------------------------------------------------
    This concept is further supported by a provision in the Dual 
Compensation Act of 1964 \11\ that had imposed reductions on the 
retired or retainer pay of retired members of the Armed Forces who were 
employed in Federal civilian positions.\12\ Since this particular 
restriction was repealed in 1999, retired members who hold Federal 
civilian positions are now treated as other retirees, meaning that 
there is generally no reduction in Federal pay or in retirement pay or 
annuity.\13\ Furthermore, DOD also lists in its Joint Ethics 
Regulations as part of its ``Human Goals'' that they strive ``to help 
each service member in leaving the service to readjust to civilian 
life.'' \14\ Provisions like these, again, support the notion that 
retired members can hold civilian positions and could be considered to 
be in civilian life when not on active-duty status if required by 
statute.
---------------------------------------------------------------------------
    \11\ Dual Compensation Act, Pub. L. 89-554.
    \12\ 5 U.S.C.  5532, repealed by National Defense Authorization 
Act for Fiscal Year 2000,  651, 113 Stat. 512, 664 (1999).
    \13\ See USAJobs, Federal Employment Information Fact Sheet--Dual 
Employment, available at, [http://media.newjobs.com/opm/www/usajobs/
pdf/ei35-15.pdf]; Repeal of Dual Compensation Reductions for Military 
Retirees, 67 Fed. Reg. 40,837 (Jun. 14, 2002); 2008 DOD Ethics 
Workshop, Post Government Employment Restrictions at 18-19, available 
at, [http://www.dod
.mil/dodgc/defense_ethics/resource_library/2008Deskbook/presentations/
6ECC_Post-Employ
mentJGreen.pdf].
    \14\ Department of Defense, Joint Ethics Regulations 5500.7-R,at 
Chapter 12, Section 4, available at, [http://www.dod.mil/dodgc/
defense_ethics/ethics_regulation/].
---------------------------------------------------------------------------
    Turning to the position at issue, the statutory language that 
establishes the Administrator of NASA is unlike that of the Secretary 
of Defense or Secretaries of the Navy, Army, and Air Force because it 
does not include a time restraint that establishes when one is 
considered to have returned to civilian life. Thus, given the ordinary 
meaning of ``civilian'' and the support found in other statutes, there 
would appear to be substantial support for the conclusion that the 
current nominee, General Charles Bolden, who retired from the United 
States Marine Corps in 2003, is considered to have returned to civilian 
life and is therefore eligible to be appointed Administrator of NASA as 
he arguably comes from civilian life.
                                 ______
                                 
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    I am so pleased to be able to be here today to introduce an 
outstanding nominee for Assistant Secretary for Transportation Policy 
at the Department of Transportation, Ms. Polly Trottenberg.
    As my former Deputy Chief of Staff and Legislative Director, I know 
Polly personally as not just an incredible person with excellent 
leadership skills, but as an individual with a talent for 
transportation policy. Polly has a passion for these issues and a real 
dedication to solving the many complex transportation and environmental 
challenges facing our country today.
    The stakes for our Nation in the next Surface Transportation 
Reauthorization bill are high. We must find a solution to a highway 
trust fund that can no longer pay for America's growing transportation 
needs and we must address an aging infrastructure that will threaten 
the safety of our children if we fail to act.
    Polly's background and credentials make her an excellent candidate 
for Assistant Secretary. She will be a real asset to Secretary LaHood's 
team at the Department of Transportation.
    California is a diverse state with a wide array of complex 
transportation challenges. When Polly worked for me, we tackled issues 
ranging from Airline Passenger Bill of Rights legislation, to the 
aftermath of the MacArthur Maze Freeway bridge collapse, improving 
maritime safety, and working to improve goods movement through the 
communities surrounding our ports.
    She has served as a top aide in the U.S. Senate for 12 years. She 
has worked at the Port Authority of New York and New Jersey as well as 
the Massachusetts Port Authority on issues ranging from finance to 
aviation.
    I am confident that her time spent handling transportation policy 
issues for the State of California and New York have prepared her well 
for her next role at DOT.
    Polly also as a strong record of academic accomplishment, 
graduating with an undergraduate degree from Columbia University, 
Barnard College and a Master's in Public Policy from Harvard 
University, Kennedy School of Government.
    Most recently, Polly served as Executive Director of Building 
America's Future, working with Governor Ed Rendell and others to be a 
leading voice on the next vision of transportation policy for our 
country.
    I am delighted that President Obama selected Polly for this 
important role. I look forward to working with her and Secretary LaHood 
as we craft the next Surface Transportation Reauthorization bill and 
modernize transportation for our country into the future.
                                 ______
                                 
                                              Safe Kids USA
                                                       July 6, 2009
Hon. John D. Rockefeller IV,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller:

    On behalf of Safe Kids USA, I want to express our strong support 
for Deborah Hersman to be Chairman of the National Transportation 
Safety Board (NTSB). The Senate Commerce, Science, and Transportation 
Committee is scheduled to consider her nomination on July 8. Safe Kids 
believes that Member Hersman is undoubtedly qualified to tackle our 
country's most pressing transportation safety issues.
    With motor vehicle crashes being the leading cause of unintentional 
injury-related death for children ages 14 and under, Safe Kids has long 
worked with the NTSB to promote child passenger safety through our Safe 
Kids Buckle Up program. We consider the NTSB to be one of our key 
partners in protecting children both in and around cars. Through the 
Agency's Advocacy Center and the Most Wanted List of Transportation 
Safety Improvements, the NTSB has often been the catalyst for pushing 
other government agencies and non-profit organizations to do the right 
thing when it comes to child occupant protection. Member Hersman has 
been a strong advocate for comprehensive child restraint laws, and we 
applaud her personal leadership in helping to make child passenger 
safety a priority at the NTSB.
    Member Hersman's interest in keeping kids safe extends well beyond 
the walls of the NTSB. Safe Kids Worldwide is the certifying body for 
the National Standardized Child Passenger Safety Training Program, and 
we are proud to count her as part of the nationwide network of 34,300 
individuals dedicated to teaching families the best practices of motor 
vehicle safety. Member Hersman is the Nation's highest ranking official 
certified as a child passenger safety technician, and Safe Kids knows 
that the safety of children and families would continue to be her 
highest priority should she be confirmed as the NTSB's next Chairman.
    If Safe Kids can be of any assistance to you, please do not 
hesitate to contact me at 202/662-4463 or Tanya Chin Ross, Senior 
Public Policy Associate, at 202/662-0606. Thank you for your time.
            Sincerely,
                                                 Alan Korn,
                                                Executive Director.
                                 ______
                                 
                                      The Planetary Society
                                        Pasadena, CA, June 16, 2009
Hon. John D. Rockefeller IV,
Chairman,

Hon. Kay Bailey Hutchison,
Ranking Minority,

Members of the Committee,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators Rockefeller, Hutchison and Members of the Committee:

    We are pleased to write in support of the nominations of Charles 
Bolden and Lori Garver for NASA Administrator and Deputy Administrator, 
respectively. NASA needs leadership now, and the President's choices 
will provide that leadership.
    NASA occupies a unique position in the hearts of the American 
people as well as on the world stage. NASA inspires dreams of 
adventure, expands our perception of humanity's place in the universe, 
helps us understand the environment and processes of our home planet, 
and offers a positive model of international cooperation that can 
transcend borders and even ideologies. NASA is also a key player in the 
Nation's economy and technological development. At its best, the agency 
is a showpiece of American derring-do, scientific inquiry, and 
engineering brilliance, and as such, needs administrative leaders who 
will enable the agency to achieve its full potential.
    Bolden and Garver both have excellent NASA leadership experience. 
Bolden was a shuttle astronaut, Chief of Safety at Johnson Space 
Center, and Assistant Deputy Administrator at NASA headquarters. Garver 
was an Associate Administrator for Policy and Plans at NASA.
    But perhaps even more important, Bolden is a leader in another 
sense--he has the ability to inspire an agency whose achievements 
inspire the world. As an astronaut, Bolden commanded the first U.S.-
Russian shuttle mission, helping to set the stage for the international 
cooperation that built a space station. He also was pilot of the 
shuttle mission that delivered the Hubble Space Telescope to orbit. 
After Bolden left NASA, he served as Deputy Commandant of Midshipmen at 
the Naval Academy.
    In short, Bolden's career has encompassed many of the inspirational 
aspects of NASA itself. He is an explorer and educator whose work has 
contributed to our better understanding of the universe, and he has 
helped foster greater ties between America and other space-faring 
nations.
    We appreciate the careful consideration of the Committee to these 
nominations. Our system demands no less. The records of Bolden and 
Garver are both replete with service to their country, and we are 
grateful that they are now prepared to go even further in that service.
    The coming decade will see many challenges for NASA and the Nation. 
Economic constraints will demand a careful balancing of resources; the 
retirement of the shuttle will require technical development for a new 
launch capability; and sending astronauts to distant worlds, such as 
Mars, will require a clear course or exploration goals and mileposts.
    Science and exploration, Earth and Space science, aeronautics and 
space technology all require careful balance within NASA's economic 
constraints. Those constraints, in turn, must be balanced against 
NASA's mission, endorsed by the President, to inspire the people of the 
world with new discoveries and great achievements, and by the 
importance of NASA to our economic growth, The solar system and, 
indeed, the universe await a vital NASA, but perhaps the agency's 
greatest benefit is providing a better understanding of planet Earth.
    When Bolden testified to this Committee in 2006, he emphasized the 
role that NASA has played--and can play in the future--to expand our 
understanding of both the universe and one another: He spoke 
brilliantly of the balance of science and exploration, and of the value 
of using America's space program to pursue international aims of 
peaceful engagement with other countries. The support of Congress is 
essential to achieve these aims, and that support needs now to be given 
to the President's choices for NASA leadership.
    The Planetary Society is the largest space-interest group in the 
world, representing hundreds of thousands or members, donors and 
constituents in every state and Congressional district in the U.S., as 
well as peoples around the world. We urge the Senate to confirm Charles 
Bolden as the next NASA Administrator, and Lori Garver as Deputy 
Administrator, to inspire and lead our Nation's space agency.
            Thank you for your consideration,
                                                  Jim Bell,
                                                         President.

                                            Louis Friedman,
                                                Executive Director.
                                 ______
                                 
                                                        AAA
                                       Washington, DC, July 7, 2009
Hon. John Rockefeller,
Chairman,

Hon. Kay Bailey Hutchison,
Ranking Member,

U.S. Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison:

    AAA is pleased to offer its support for the nomination of Deborah 
A.P. Hersman for Chairman of the National Transportation Safety Board 
(NTSB) and urges speedy Senate confirmation of her appointment to this 
vital position.
    During her tenure at NTSB, AAA has worked closely with Ms. Hersman 
on various traffic safety issues, including the celebration of the 30th 
anniversary of the first child passenger protection law. Ms. Hersman is 
a certified Child Passenger Safety Technician who recognizes the 
important role that education and awareness play in bringing about 
positive traffic safety results. The leadership she has exhibited as 
part of the NTSB's investigation into the recent DC Metro subway crash 
illustrates her professionalism and commitment to transportation 
safety.
    The NTSB continues to bring attention to urgent highway safety 
challenges in its annual Most Wanted List. AAA is confident that in the 
areas of improving vehicle safety technology, enacting occupant 
protection laws , improving child passenger safety, reducing driver 
distractions, and eliminating hard core drunk driving, Hersman will 
work with relevant Federal, state, and local agencies to achieve 
positive results.
    Again, please regard this letter as AAA's enthusiastic endorsement 
for the confirmation of Deborah Hersman for NTSB Chairman. I am 
confident her passion, experience, and leadership skills will serve the 
country well.
            Sincerely,
                                            Jill Ingrassia,
                                                 Managing Director,
                                              Government Relations and 
                                               Traffic Safety Advocacy.
                                 ______
                                 
  American Association of State Highway And Transportation 
                                                  Officials
                                      Washington, DC, June 12, 2009
Hon. John D. Rockefeller IV,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller:

    I am writing to you on behalf of the American Association of State 
Highway and Transportation Officials, which represents the departments 
of transportation in the fifty states and the District of Columbia and 
Puerto Rico. We commend to you Polly Trottenberg nominated by President 
Barack Obama for Assistant Secretary for Transportation Policy at the 
U.S. Department of Transportation.
    Ms. Trottenberg is an outstanding choice for this position at the 
U.S. Department of Transportation. Most recently, Ms. Trottenberg 
served as Executive Director of Building America's Future. This 
national bipartisan coalition was formed in 2008 by Pennsylvania 
Governor Edward Rendell, California Governor Arnold Schwarzenegger and 
New York Mayor Michael Bloomberg to rally Governors, mayors and other 
local elected officials and citizens behind infrastructure investment 
to enhance our Nation's economy and quality of life. Her role as 
Executive Director has been critical to the success of the Coalition 
efforts.
    During the 12 years in which Ms. Trottenberg held key staff 
positions in the U.S. Senate with Senators Barbara Boxer, Charles 
Schumer, and the late Daniel Patrick Moynihan, she demonstrated her 
outstanding professional leadership capabilities in transportation and 
finance issues.
    We respectfully recommend confirmation of Ms. Trottenberg for the 
position of Assistant Secretary for Transportation Policy at the U.S. 
Department of Transportation.
            Sincerely yours,
                                              John Horsley,
                                                Executive Director.
                                 ______
                                 
                         Air Carrier Association of America
                                      Washington, DC, June 10, 2009
Hon. John D. Rockefeller IV,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller:

    On May 28, President Obama announced his intent to nominate Polly 
Trottenberg to be Assistant Secretary for Transportation Policy, 
Department of Transportation. We enthusiastically support Polly's 
nomination and hope that she can be quickly confirmed for that 
position.
    We have been fortunate to work closely with Polly while she was on 
the staffs of Senators Schumer and Boxer. She was a strong supporter of 
airline competition and service to all markets. She helped expand 
service options in New York and California markets. The nation's low 
fare carriers and the communities seeking service believe that Polly is 
the right person to take on the enormous challenges facing the 
industry.
    We look forward to working with you, Polly and the Administration 
to put in place short and long term actions that will expand air 
service options for all communities and passengers. Such actions will 
help strengthen the industry and provide economic benefits for all.
            Sincerely,
                                        Edward P. Faberman,
                                                Executive Director.
                                 ______
                                 
                        American Society of Civil Engineers
                                       Washington, DC, July 7, 2009

Hon. Jay Rockefeller,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Rockefeller:

Hon. Kay Bailey Hutchinson,
Ranking Member,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Hutchinson:

    I am writing on behalf of the more than 146,000 members of the 
American Society of Civil Engineers (ASCE) to strongly endorse the 
appointment of Polly Trottenberg as the Assistant Secretary of 
Transportation for Policy. Ms. Trottenberg is superbly qualified for 
the position, and we encourage the Committee to act favorably on the 
nomination.
    Ms. Trottenberg is currently Executive Director of the Building 
America's Future coalition which seeks to increase public investment in 
infrastructure. In that role, she has brought together key state and 
local leaders to raise awareness for the need to improve the Nation's 
failing infrastructure for public safety and economic prosperity. Her 
experience on Capitol Hill and in state agencies make her an expert on 
transportation policy and have helped her form a vision of what 
important reforms must be made.
    We at ASCE have worked side by side with Ms. Trottenberg on our 
shared goals of improving the Nation's infrastructure. She has the 
experience and leadership abilities to help shape a new surface 
transportation program that will meet the needs of Americans today and 
in the future. We endorse her appointment without reservation.
    Thank you for your attention. If the Society can be of further 
assistance in this matter, please do not hesitate to contact Brian 
Pallasch, Managing Director of Government Relations and Infrastructure 
Initiatives, at our Washington Office, 202-789-7842, or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a78757b76767b6979725a7b69797f3475686b34">[email&#160;protected]</a>
            Sincerely yours,
                               D. Wayne Klotz, P.E., D.WRE,
                                                         President.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                            Richard Lidinsky

    Question 1. This Committee and its members have long enjoyed a 
close and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing?
    Answer. Yes. I am committed to establishing and maintaining a 
strong cooperative working relationship with all members of the 
Committee.

    Question 2. One of the Federal Maritime Commission's major tasks is 
to monitor the laws and practices of foreign governments which could 
have a discriminatory or otherwise adverse impact on shipping 
conditions in the U.S. Are there any specific practices we should be 
concerned about?
    Answer. The Foreign Shipping Practices Act of 1988 (FSPA) and 
section 19 of the Merchant Marine Act, 1920 empower the Commission to 
redress unfair restrictive foreign shipping practices that have adverse 
consequences for U.S. companies or for U.S. foreign commerce in 
general. While the Commission always hopes for a diplomatic or 
commercial resolution, it should be ready to proceed to a formal 
sanction when necessary. The FMC has invoked its authority to resolve 
unfair restrictions in Asia, South America, Central America and Europe. 
While I am not aware of any specific practices that we should be 
concerned about at the moment, the Commission must diligently monitor 
developments in the U.S. foreign trades that affect U.S. shipping 
interests, especially in these difficult economic times. The Commission 
should continue to coordinate with the Department of State, USTR, and 
the Department of Transportation and its Maritime Administration to 
address and resolve any harmful maritime related measures of foreign 
nations.

    Question 3. What steps do you feel the FMC can take to ensure 
security and improve infrastructure at our ports?
    Answer. I understand that the FMC has been working to share its 
informational resources with other Federal agencies, including the U.S. 
Customs and Border Protection Service and the Department of Homeland 
Security, through the International Trade Data System (ITDS) and the 
Automated Commercial Environment (ACE) portal. It is also my 
understanding that a Memorandum of Understanding with Customs is being 
finalized which will solidify the cooperative relationship between the 
two agencies, particularly with respect to the sharing of information. 
The FMC is providing access to its extensive informational resources 
and data bases which contain background information on all of the 
entities regulated by the Commission--some of the most complete data 
bases identifying persons engaged in U.S. foreign commerce. If 
confirmed, I will work with staff and my fellow Commissioners to 
complete and execute that MOU, providing government-wide access to the 
FMC's informational resources and greater transparency in the Nation's 
supply chain.
    In addition, I understand that the FMC has taken several steps 
which assist security efforts. First, the Commission has been working 
with both Customs and the FBI in enforcement and compliance 
proceedings. The FMC also has revamped and expanded its data collection 
processes for all license applicants. The FMC also receives periodic 
updates from Treasury Department's Office of Foreign Assets Control of 
its lists of companies and individuals whose financial transactions are 
to be blocked for various reasons, including terrorism, and checks 
those names against pertinent FMC data bases. I believe that more can 
be done to promote security by bringing entities within regulatory 
oversight, overseeing their activities as participants in our national 
supply chain, and ensuring that the FMC is operating with the most 
accurate information available.
    I believe infrastructure improvements are largely at the initiative 
of local port operations, but the FMC does play a key role in approving 
agreements which often reflect these operational changes. The FMC also 
serves as a repository of information for ports to utilize in planning 
such improvements.

    Question 4. You have an extensive amount of experience in maritime 
issues. What do you believe the biggest issues facing the FMC are right 
now?
    Answer. First, the FMC must assist all parties within its 
regulatory reach to cope with and prepare for recovery from the current 
severe economic downturn in world shipping. Second, the FMC must fully 
ensure the Commission's authority is being used to monitor potential 
harmful developments to U.S. business and consumers from foreign 
sources. Finally, the FMC must assist carriers, ports, and all segments 
of the maritime industry in cooperating on Green projects and related 
activities that will improve our economy and create jobs.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Polly Trottenberg

    Question 1. Ms. Trottenberg, last month, the DOT announced funding 
availability for Transportation Investment Generating Economic 
Recovery, or TIGER, grants for surface transportation infrastructure 
projects that will have a significant impact on the Nation. What are 
the benefits of a TIGER grant compared to other DOT grant programs? Do 
you believe that the Congress should continue the TIGER program when it 
reauthorizes the Federal surface transportation programs?
    Answer. Tiger Discretionary Grants have two principal advantages 
over other DOT grant programs. First, they are multimodal, so that they 
can be used on whichever transportation mode represents the most 
efficient solution to a particular transportation problem. Second, 
because they are awarded at the Federal level, they can be used to 
address national transportation problems that have often received less 
attention in the Federal-state-local partnership that characterizes 
most of our transportation programs. I believe that a program like the 
TIGER Discretionary Grants, possibly in the form of the President's 
proposal for a National Infrastructure Bank, needs to be part of the 
reauthorization of the Federal surface transportation program.

    Question 2. Ms. Trottenberg, Senator Lautenberg and I have 
introduced a bill that would create a national surface transportation 
policy and would establish goals and objectives that that system would 
have to meet. Do you believe that the Nation is in need for a surface 
transportation policy to guide our Federal investments? Do you support 
the goals and objectives for the surface transportation system included 
in mine and Senator Lautenberg's bill? What data collection tools are 
needed to ensure that investment decisions are targeted to projects 
that meet national surface transportation policies and goals?
    Answer. The Administration believes that the pending 
reauthorization of surface transportation programs is an opportunity to 
focus Federal policy and investment around the pursuit of important 
national goals. The Rockefeller-Lautenberg proposal would do just that. 
The mechanics of how these goals are translated into investment plans 
at the state and local level are complicated, but goal setting is the 
right place to start. Expanded data collection on freight and passenger 
flows will clearly be important if we are to select the projects that 
will make the greatest contribution to achieving these goals. If 
confirmed I look forward to working with this Committee and others to 
determine how best to achieve our national goals.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Polly Trottenberg

    Question 1. New Mexico, like every other state, relies first and 
foremost on roads for transportation. However, I believe Americans need 
more alternatives to driving in order to reduce both our dependence on 
foreign oil and emissions that contribute to global warming.
    The New Mexico Rail Runner, a new rail line from Belen to Santa Fe, 
just celebrated its 2 millionth rider since it opened a few years ago. 
It is a comfortable and efficient way to travel that gets people out of 
their cars and off our congested highways. I believe the Rail Runner is 
an example of a forward-thinking transportation investment that will 
provide benefits to the state for years to come.
    In your testimony, you state that the Department of Transportation 
should strengthen its own capabilities while also assisting state and 
local transportation agencies ``to ensure that they have the tools and 
capacity needed to . . . to meet the challenge of transitioning to a 
21st century performance-based system.''
    Have you explored how the Department of Transportation can build 
state and local agency capacity to meet the transportation needs of 
rural states like New Mexico? How can Congress and the Department of 
Transportation encourage state governments to consider commuter and 
passenger rail options when traveling by train would make more sense 
than driving or flying? Have you considered policies such as Federal 
support for dedicated rail transportation coordinators in each state 
Department of Transportation? This could be a cost-efficient means of 
improving institutional expertise and building capacity at the state 
level for promoting viable alternatives to driving.
    Answer. In the request for an 18-month extension of the surface 
transportation program, the Administration has proposed to lay the 
groundwork for reform in the future reauthorization. One of these steps 
is to create a program to support efforts to coordinate transportation, 
housing, and land use planning and fund projects that enhance the 
livability of communities, including transit, transit-oriented 
development and bike and pedestrian infrastructure. Enhancing safety 
where drivers and cyclists share the roadway is an important element of 
a livability community. We are currently developing legislative 
language and hope to share it with Members of Congress in the coming 
days. We look forward to working with Congress to address these issues 
in a long term reauthorization.
    The elements of livability impact both urban and rural communities. 
A transportation system that provides reliable and safe access to jobs, 
education, health care and goods and services is equally important to 
rural and urban communities. Remote locations present unique challenges 
to mobility, including ensuring access for older citizens to services 
and activities. Providing transportation choices can increase community 
mobility. Fostering land-use planning that promotes clustered 
commercial centers can enable one-stop-shopping for many residents, 
reducing fuel costs and time on the road and enhancing a sense of 
community.

    Question 2. New Mexico once led the Nation in alcohol-involved 
fatalities. Today the state is aggressively addressing the problem of 
drunk driving and has significantly reduced the number of alcohol-
impaired driving fatalities through a combination of enforcement and 
education efforts.
    For example, New Mexico has a mandatory ignition interlock law, a 
DWI Coordinator (a state cabinet-level position), and a DWI Leadership 
Team that identifies gaps within the state's multi- agency approach to 
reducing impaired driving.
    I believe New Mexico's progress in the fight against drunk driving 
serves as an example that could help other states across the country. 
Will you help efforts to eliminate drunk driving nationwide by 
supporting policies that encourage states to tackle the problem of 
impaired driving as effectively as New Mexico has done in recent years?
    Answer. The State of New Mexico is to be commended for its 
remarkable rate of progress over recent years in reducing drunk 
driving. I was very impressed by Governor Richardson's announcement 
earlier this year that the number of DWI-related deaths in New Mexico 
has decreased 35 percent since 2002. Yet I fully agree that even at 
this reduced level, there are still far too many drunk driving deaths--
in New Mexico and across the Nation--and we need to continue looking 
for every possible remedy for this problem.
    If confirmed as Assistant Secretary for Transportation Policy, I 
will work with my colleagues in the Department to provide the 
leadership, guidance and resources that States need to address the 
drunk driving problem. I believe it is important that the Department 
assist States by highlighting effective strategies and providing 
technical assistance and available resources that allow States 
flexibility in implementing solutions that best address their specific 
circumstances. States need support in assessing and adopting a range of 
potential countermeasures, including effective public awareness 
campaigns, law enforcement operations, and improvements in adjudication 
and sanctioning systems, including the use of ignition interlocks.

    Question 3. New Mexico was the first state to require all those 
convicted of drunk driving to use ignition interlock devices. Today, 
NHTSA and our Nation's automakers have a joint agreement to help 
promote research and development for advanced ignition interlock 
technologies that could further reduce drunk driving. Are you familiar 
with these efforts to develop advanced ignition interlocks, such as the 
Driver Alcohol Detection System for Safety (DADDS)? Do you have any 
thoughts on these research and development efforts to eliminate drunk 
driving?
    Answer.I believe that technology plays an important role in 
addressing the Nation's drunk driving problem. Ignition interlocks have 
proven effective in preventing repeat drunk driving offenses and are 
increasingly being adopted by states as part of their legal system for 
addressing this problem.
    The Department of Transportation can play an important role in 
furthering use of ignition interlocks by evaluating State approaches 
for administering interlock programs, creating guidance to steer 
efforts to improve the deployment of interlocks and providing technical 
assistance to States which adopt or strengthen interlock laws.

    Question 4. I am interested in ways that roads can be made more 
``green'' through use of recycled construction materials, methods to 
reduce runoff, and other innovations. How can the Department of 
Transportation help advance ``green highway'' technologies and 
practices to make our road system more environmentally sustainable?
    Answer. I know that DOT is committed to advancing environmentally 
sensitive transportation infrastructure. Minimizing damage from, and 
mitigating negative impacts of, transportation facilities on the human 
and natural environments is important for federally-assisted 
transportation projects, from the initial planning and design stages, 
through development and construction, to operation and maintenance. If 
confirmed, I expect to continue DOT's efforts to achieve a balance 
between environmental challenges and the need for a safe and efficient 
transportation network. DOT has fostered a shift in the transportation 
community from simply mitigating environmental impacts to actively 
contributing to environmental improvements, and has provided leadership 
and funding to advance transportation agencies along the continuum of 
environmental stewardship.
    I would actively engage in DOT's efforts to advance initiatives 
that support broader community and societal issues such as: 
coordination between land use and transportation; supporting reduction 
in emissions to meet climate change goals and adapt transportation 
infrastructure. We need to provide leadership in achieving the goal of 
having a transportation system support sustainability objectives. 
Secretary LaHood's livability initiative establishes a framework for 
DOT to advance mobility choices and increase quality of life.
    Our ability to deliver the Federal Aid program will be dependent on 
mainstreaming these livability and green highway initiatives into 
regulatory a framework with Federal and state resource agencies. We 
will also need to support continued research on environment and 
transportation issues. By building strong relationships with resource 
agencies and all our constituencies, the Department can deliver green 
transportation projects and ultimately a green transportation system.

    Question 5. I believe the Indian Reservation Roads program is 
important for addressing the transportation challenges facing tribes in 
my state and across the Nation.
    The stimulus package made available $310 million dollars 
specifically for the Indian Reservation Roads program. However, tribes 
in New Mexico are actually seeing a decline in their annual funding 
under this program--apparently due to how the Federal Highway 
Administration includes a vast number of county, state, and even 
Interstate roads in the inventory of roads supported by the Indian 
Reservation Roads program.
    I believe Congress intended the Indian Reservation Roads program to 
be primarily for tribes, rather than for roads that have other sources 
of funding. Do you have any recommendations on how we can restore the 
program to its original purpose?
    Answer. I am aware that transportation is critical to the economic 
development and well being of Tribes and Alaska Natives, and I am 
firmly committed to improving the transportation system on tribal 
lands. I understand that the Indian Reservation Roads (IRR) Program is 
jointly administered by the Bureau of Indian Affairs (BIA) and FHWA, 
and provides funds to over 562 federally recognized Tribes and Alaska 
Native Villages to help address their transportation needs. If 
confirmed, I would work closely with the FHWA, the Tribes, as well as 
the Department of Interior, to review the adequacy and fairness of the 
IRR program and the inventory process.

    Question 6. As a member of the Senate Bike Caucus, I appreciate how 
commuting to work by bicycle burns calories rather than fossil fuels. 
Constituents from my state also have raised concerns about safety and 
accessibility for bicycles on roadways that would be addressed by the 
``Complete Streets'' act. What policies or initiatives should be 
included in transportation planning or projects to encourage greater 
use of bicycles and to improve safety where drivers and cyclists share 
the same roadways?
    Answer. In the request for an 18-month extension of the surface 
transportation program, the Administration has proposed to lay the 
groundwork for reform in the future reauthorization. One of these steps 
is to create a program to support efforts to coordinate transportation, 
housing, and land use planning and fund projects that enhance the 
livability of communities, including transit, transit-oriented 
development and bike and pedestrian infrastructure. Enhancing safety 
where drivers and cyclists share the roadway is an important element of 
a livable community. In May FHWA co-chaired an international scan tour 
in Europe to identify best practices related to walking and bicycling 
safety and mobility with a goal of implementing some of these best 
practices in the U.S. to make walking and bicycling safer, more 
convenient, and attractive transportation options.
    We are currently developing legislative language and hope to share 
it with Members of Congress in the coming days. We look forward to 
working with Congress to address these issues in a long-term 
reauthorization.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                           Polly Trottenberg

    Question 1. This Committee and its members have long enjoyed a 
close and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing?
    Answer. Absolutely.

    Question 2. What do you consider to be the greatest challenges 
facing the Department during the next 4 years? How do you hope to 
address those challenges?
    Answer. I believe that the greatest challenge facing the Department 
is making sure that the Highway Trust Fund is solvent and that the 
Administration's short-term reauthorization proposal would accomplish 
this. The next step is addressing our transportation priorities over 
the long term in a multi-year surface transportation reauthorization. 
We need to pursue critical reforms, including investments guided by 
cost-benefit analysis, a shift of investment to metropolitan areas and 
spending designed to promote the concept of livability to more closely 
link home and work.

    Question 3. What is your overall vision for surface transportation 
policy in the United States?
    Answer. My vision for surface transportation is much in line with 
the Secretary's vision in that I believe DOT can undertake 
administrative and regulatory changes to promote greater linkages 
between transportation policy, economic growth and competitiveness, 
energy security, climate change, and sustainable communities. 
Addressing these issues, which are deeply interwoven with 
transportation policy areas, is essential in developing a forward-
looking Federal vision.

    Question 4. Given the current funding shortfall in the Highway 
Trust Fund, what alternatives should be considered to finance 
transportation projects?
    Answer. I understand that the Department has not yet established a 
long-term plan for funding the surface transportation system; however 
it has some of the principles that would be reflected in that plan. 
First, our system of transportation funding should be both adequate to 
address the needs of the Nation's economy and sustainable with respect 
to changing economic circumstances. Second, we need a transportation 
funding system that is flexible with respect to the surface 
transportation needs it can support. All the surface transportation 
modes make an important contribution to meeting the Nation's surface 
transportation needs; we need a funding system that can meet the 
funding needs of all these modes. Third, transportation provides 
mobility to travelers, allowing them to gain access to jobs and 
economic opportunities, and it also provides people with leisure and 
recreational opportunities, keeping families connected in our highly 
mobile society.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Polly Trottenberg

    Question 1. What are your views on how to best ensure that the 
transportation needs of rural America are not overlooked at the 
Department of Transportation as it develops policy proposals?
    Answer. I believe that a transportation system that provides 
reliable, safe access to jobs, education, health care and goods and 
services is every bit as important to rural communities as it is to 
urban areas. As economic development is undertaken in rural areas, 
focusing that development in town and commercial centers as livability 
communities can increase access to necessities and enable one-stop-
shopping for many residents, thus reducing fuel costs and time on the 
road and enhancing a sense of community.
    The President has made livable communities a key aspect of his 
agenda and the Vice President has also highlighted it in his Middle 
Class initiative. Secretary LaHood's livability initiative establishes 
a framework for DOT to advance mobility choices and increase quality of 
life. If confirmed, I would actively engage in DOT's efforts to advance 
its livability initiatives.

    Question 2. What do you believe is the most important action 
Congress could take to improve transportation in rural America?
    Answer. The most important action Congress could take would be to 
pass the Administration's 18-month surface transportation 
reauthorization proposal. Even with the stimulus money, USDOT has shown 
sensitivity to geographic balance in establishing the criteria for the 
$1.5 billion discretionary program. Also USDOT has lowered the minimum 
dollar amount to $25 million on its infrastructure bank proposal to 
better enable rural communities to participate.

    Question 3. As we prepare to reauthorize the Surface Transportation 
bill, there are certainly competing views when it comes to the role the 
Federal Government should have regarding infrastructure investment. 
What are your views when it comes to ensuring that we have a ``national 
transportation system''?
    Answer. I believe that transformation of our national 
transportation system is critical to meeting the President's goals for 
a financially strong and clean-energy future. Federal investments in 
transportation systems and infrastructure, including aviation, 
highways, rail, bus, ferries, and other public transportation, have 
been vitally important to the Nation's fastest-growing metropolitan 
areas, small- and mid-sized cities, and in rural areas. These systems 
create links between home, school, work, health care, recreation areas, 
and other important destinations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Hon. Deborah A.P. Hersman

    Question 1. Ms. Hersman, if confirmed to serve as Chairman of the 
NTSB, you would be responsible for managing NTSB's resources, the 
majority of which are devoted to investigating aviation accidents. Are 
there areas within NTSB's jurisdiction that could be better served with 
additional resources?
    Answer. NTSB Vehicle Recorder Laboratory ($1 million extra needed 
to catch up)--The laboratory workload has increased steadily over the 
past 5 years. Last year the lab processed more than 250 cockpit voice 
and flight data recorders, along with digital cameras, video 
recordings, GPS navigation devices, and cockpit displays and engine 
monitoring devices recovered from crashed aircraft and surface 
vehicles. The calendar year 2008 caseload represents a 215 percent 
increase from the cases received in the same period in 2004. Despite 
this increased workload, staffing of the laboratory has not increased 
in the last 10 years. If the first month of 2009 proves to be a good 
indicator of what the year holds, the lab will see an additional 20 
percent increase in cases over last year, with no increase in 
laboratory equipment or staff.
    Rail Safety Improvement Act of 2008 ($500k extra needed to fulfill 
our responsibilities)--This law requires the Board to provide 
assistance to victims and their families affected by rail passenger 
accidents. To meet this new mandate, the NTSB will have to divert 
investigator funding. The level of assistance needed by victims and 
their families following an accident would not be sustainable with the 
current number of specialists comprising our Transportation Disaster 
Assistance team.
    Critical FTE Positions Listed in Priorities--(approximately $210k 
per employee)--The NTSB has several critical staffing needs. These are: 
Structural Mechanics Analyst, Marine Safety Investigator, Aviation 
Maintenance Investigator, Aircraft Performance Engineer, Pipeline 
Investigator--SCADA Systems, Rail Investigator--Mechanical Systems, 
Study Manager--Statistician, Meteorologist, Air Safety Investigator--
Region, Contract Specialist.

    Question 2. How would you allocate NTSB staff and resources to help 
the NTSB fulfill its mission to improve safety?
    Answer. The NTSB investigates accidents and conducts the in-depth 
technical analyses required to determine probable cause and formulate 
safety recommendations. However, I believe the NTSB could improve its 
communication with stakeholders about its work and findings, as well as 
the timeliness of its assistance to Congress, when requested. If 
confirmed, I would explore reallocating some staffing resources to help 
make these improvements.

    Question 3. Ms. Hersman, as you know, I am very concerned about the 
safety of passenger trains and think that Congress should be doing all 
that it can to keep them safe. Can you please update me on the current 
status of your investigation into the June 22 Metro crash?
    Answer. On Monday, June 22, 2009, about 4:58 p.m., eastern daylight 
time, southbound Metrorail train 112 was traveling in a curve when it 
struck the rear end of train 214 before reaching the Fort Totten 
station in Washington, D.C. Train 214 had stopped before entering the 
station to wait for another train to leave the platform. There was no 
communication between the train operators and the Metrorail Operations 
Control Center before the collision. During the collision, the lead car 
of train 112 telescoped and overrode the rear car of train 214 by about 
50 feet. Investigators found rail streak marks consistent with heavy 
braking that were approximately 125 feet long and began approximately 
425 feet prior to the point of collision.
    The stopped train, 214, was a 6-car train in passenger service 
consisting of two 2-car sets of 3000-series transit railcars and one 2-
car set of 5000-series transit railcars. The train 214 operator told 
investigators that he was operating in manual mode at the time of the 
accident. The striking train, 112, was a 6-car train in passenger 
service consisting of three 2-car sets of 1000-series transit railcars 
being operated by the train operator in the automatic mode. The 
automatic train control system is designed to prevent collisions 
regardless of whether a train is operated in manual or automatic mode 
by generating speed commands for individual train movements that should 
not allow more than one train to occupy a track circuit.
    Post-accident testing by NTSB investigators showed that the track 
circuit at the accident site intermittently failed to detect a train 
stopped at the location where train 214 was stopped when the collision 
occurred. Under such circumstances, the train control system would not 
be aware of the train's location, and thus a following train would not 
receive a command to slow or stop in order to maintain train 
separation. Investigators are continuing to examine train control 
system circuitry and recorded data to better understand how the train 
control system was functioning at the time of the accident.
    Washington Metropolitan Area Transit Authority (WMATA) maintenance 
records showed that an impedance bond for the track circuit where the 
accident occurred was replaced on June 17, 2009, 5 days before the 
accident. The impedance bond was replaced as part of a scheduled multi-
year program to upgrade train control circuitry. After a postaccident 
review of recorded track circuit data, WMATA reported that the track 
circuit had been intermittently failing to detect trains after June 17. 
The NTSB has not uncovered any evidence to suggest that WMATA was aware 
of this track circuit problem prior to the accident.
    The Operations Control Center computer system continuously receives 
real-time train location data and displays this information on a 
monitor in the control center. The investigation has found that there 
is no automatic monitoring that would identify and promptly report a 
situation in which a train stops being detected by the system. Recorded 
track circuit data showed errors in train detection for several days 
before the accident.
    The striking train did not have any onboard event recorders that 
would have recorded train speed and other parameters. Investigators 
have collected recorder data from the struck train. Data was recovered 
from eight of the nine recorders on the struck train. Data could not be 
downloaded from one recorder. Two of the eight recorders did not 
contain data related to the accident; data collection ended before the 
accident for undetermined reasons. The accident data is now being 
examined by investigators in the NTSB laboratory.
    The NTSB accident investigation will continue for several months, 
however the Board may issue safety recommendations anytime before the 
completion of the final accident investigation report if it believes 
action is needed to prevent future accidents.

    Question 4. Has NTSB identified the cause of the crash?
    Answer. NTSB has not determined the probable cause of the accident 
at this time. NTSB investigators have several months of work ahead of 
them documenting facts needed to fully understand the accident. Trains 
operate under the direction of Washington Metropolitan Area Transit 
Authority's (WMATA's) Operations Control Center and utilize an 
automatic train control system. Postaccident testing showed that the 
track circuit at the accident site intermittently failed to detect a 
train stopped at the location where the lead train was stopped, and 
thus the following train did not receive a command to slow or stop in 
order to maintain train separation. Investigators are continuing to 
examine and test train control system circuitry and recorded data to 
better understand how the train control system functioned prior to the 
accident.

    Question 5. When will a final report be ready?
    Answer. The NTSB accident investigation will continue for several 
months, however the Board may issue safety recommendations anytime 
before the completion of the final accident investigation report if it 
believes actions are needed to prevent future accidents. It is expected 
to take 12 to 15 months to issue a final report. The complexity of 
accidents, safety issues that need to be addressed, and the workload of 
NTSB investigators and staff all factor in to the time needed to 
complete work on an accident.

    Question 6. Are you continuing to work with Metrorail and other 
appropriate officials in investigating this accident?
    Answer. The Washington Metropolitan Area Transit Authority (WMATA), 
the Federal Transit Administration, the Tri-State Oversight Committee, 
and the Amalgamated Transit Union are parties to the NTSB accident 
investigation. These parties provided personnel onsite to work with our 
investigators and will continue to work with our staff throughout the 
investigation. NTSB investigators and WMATA personnel are continuing to 
work together to document information necessary to understand factors 
related to the accident.

    Question 7. Ms. Hersman, as you know, the use of personal 
electronic devices by railroad and transit employees has contributed to 
recent accidents occurring on our Nation's rail and transit systems, 
raising concerns over the safety of rail passengers. What 
recommendations has NTSB made related to the use of personal electronic 
devices by railroads and transit employees operating passenger trains?
    Answer. NTSB issued Safety Recommendation R-03-01 to the Federal 
Railroad Administration (FRA) on June 13, 2003. NTSB recommended that 
FRA ``Promulgate new or amended regulations that will control the use 
of cellular telephones and similar wireless communication devices by 
railroad operating employees while on duty so that such use does not 
affect operational safety.'' The NTSB had investigated an accident 
involving a collision between two Burlington Northern Santa Fe freight 
trains on May 28, 2002. The investigation revealed that the locomotive 
engineer's cell phone use likely distracted him to the extent that he 
did not take proper note of an ``after-arrival'' stipulation of a track 
warrant and thus was unaware of his need to prepare to bring his train 
to a stop.
    The FRA did not take positive action to address Safety 
Recommendation R-03-01 until after a head-on collision between a 
Metrolink commuter passenger train and a Union Pacific freight train in 
Chatsworth, California, on September 12, 2008. During the investigation 
of the Chatsworth accident, NTSB determined that the operator of the 
Metrolink passenger train used his cell phone many times while on duty 
that day to send and receive text messages and that he had sent a text 
message only moments before the collision. This accident resulted in 25 
fatalities and 102 injuries. On October 27, 2008, FRA issued Emergency 
Order No. 26 to restrict on-duty railroad operating employees from 
improperly using cellular telephones and other distracting electronic 
and electrical devices. The emergency order does not apply to transit 
operations, however, because they are not regulated by FRA.

    Question 8. What should be done to restrict the use of personal 
electronic devices by railroad and transit employees operating 
passenger trains?
    Answer. On June 13, 2003, NTSB recommended that FRA ``Promulgate 
new or amended regulations that will control the use of cellular 
telephones and similar wireless communication devices by railroad 
operating employees while on duty so that such use does not affect 
operational safety.'' Effective October 27, 2008, the FRA issued 
Emergency Order No. 26 to restrict on-duty railroad operating employees 
from improperly using cellular telephones and other distracting 
electronic and electrical devices. The order set forth prohibitions and 
restrictions that apply to railroad operating employees' use of 
cellular phones, other electronic devices or electrical devices, and 
other portable electronic devices, such as portable digital video disc 
(DVD) players, radio receivers, and audio players, capable of 
distracting a railroad operating employee from a safety-critical duty.
    The Railroad Safety Improvement Act of 2008 was enacted on October 
16, 2008. Among many provisions, the Act requires that not later than 
one year after enactment, the Secretary of Transportation shall 
complete a study on the safety impact of the use of personal electronic 
devices, including cell phones, video games, and other distracting 
devices, by safety-related railroad employees.
    Neither the Emergency Order nor the Railroad Safety Improvement Act 
applies to rail transit systems which are not regulated by the FRA. The 
Federal Transit Administration does not have any regulations that 
restrict the use of personal electronic devices by transit employees. 
The use of cell phones has also been identified as a safety issue in 
rail transit operations and is continuing to be investigated as an 
issue in a rail transit accident that occurred on the Massachusetts Bay 
Transportation Authority (MBTA) transit system in Boston on May 8, 
2009. In this recent Boston accident, 2 trains on the MBTA Green Line 
collided and 47 persons were injured.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                       Hon. Deborah A.P. Hersman

    Question. A critical point has come to light in the aftermath of 
the horrible Metro accident last month and that is that there are no 
national safety standards in place for subway and transit cars. Could 
you elaborate on this issue, if that is indeed the case? Do you feel 
national safety standards are necessary? What work has NTSB done in 
regards to national safety standards, and what recommendations do you 
have for making further progress in that regard?
    Answer. The result of the recent accident at Fort Totten in 
Washington, D.C., on June 22, 2009, has some similarities to accidents 
at the Woodley Park station in November 2004 and the Shady Grove 
station in January 1996. In the Shady Grove accident, the collision 
speed was calculated between 22 and 29 mph; the moving train telescoped 
21 feet over the stopped equipment severely compromising the passenger 
occupancy space. In the Woodley Park accident, the calculated speed of 
a train was 36 mph as it rolled backward down descending grade and 
collided with a stopped train. The striking car of the moving train 
telescoped 20 feet over the standing train car; almost half of the 
passenger occupancy space of the striking car was severely compromised. 
In the Fort Totten accident, the lead car of the striking train 
telescoped and over rode the rear car of the standing train by 
approximately 50 feet; almost two thirds of the passenger occupancy 
space was severely compromised. The collision speed of the most recent 
accident has not yet been determined.
    The Federal Transit Administration (FTA) has not established 
requirements to address structural crashworthiness provisions for 
passenger cars operating in transit service. The NTSB concluded that 
the failure to have minimum crashworthiness standards for preventing 
telescoping of rail transit cars in collisions places an unnecessary 
risk on passengers and crew. The NTSB issued safety recommendation R-
06-06 to the FTA to develop minimum crashworthiness standards to 
prevent the telescoping of transit railcars in collisions and establish 
a timetable for removing equipment that cannot be modified to meet the 
new standards. The FTA reported that they were working in cooperation 
with the American Public Transportation Association (APTA) and the 
American Society of Mechanical Engineers. The FTA also advised that 
they are coordinating with the Federal Railroad Administration (FRA) 
regarding the ways the FRA uses its Passenger Car Safety Standards to 
classify vehicle performance and crashworthiness.
    In a life-threatening situation, emergency responders must be able 
to enter the passenger cars quickly. Passengers must also be able to 
evacuate the cars rapidly and safely. There is no requirement for rail 
transit equipment to have emergency window exits. The NTSB issued a 
safety recommendation (R-06-05) to the FTA to develop transit railcar 
design standards to provide adequate means for safe and rapid emergency 
responder entry and passenger evacuation. As of September, 2008, the 
FTA responded that they have provided additional funding to APTA to 
develop standards which are not yet complete.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                       Hon. Deborah A.P. Hersman

    Question 1. Ms. Hersman, shortly after we met, I was reminded of 
NTSB*s important role in protecting public safety. The fatal Metro 
accident here in Washington is a reminder to us all that the work of 
ensuring public safety is never finished.
    In your testimony, you state that ``NTSB is uniquely situated . . . 
to point the way toward a safer transportation system.'' One concern 
that I have is that NTSB recommendations to transportation agencies are 
voluntary. When you identify specific safety concerns, transit 
authorities are not required to implement your recommendations. How 
will you help ensure that NTSB recommendations are implemented instead 
of ignored?
    Answer. The NTSB has no regulatory authority and no grant-making 
authority, however we do have the attention of the public, as well as 
the opportunity to educate Federal, state and local leaders, such as 
yourself, about the circumstances of the accidents we investigate. 
While it is true that we cannot mandate changes, the NTSB can be the 
catalyst for safety improvements by encouraging others to take action. 
The Congress has provided direction to Federal agencies in recent years 
by requiring those agencies to provide responses or status updates to 
our Most Wanted List of Safety Recommendations. This is a good start in 
helping advance recommendations, however, sometimes providing a 
response or a status update is not satisfactory. The Congress has, on 
occasion, required the implementation of NTSB recommendations as they 
did last year in the Rail Safety Improvement Act in which they revised 
the decades-old hours of service law and required Positive Train 
Control implementation by 2015 for certain high risk corridors 
(passenger and Toxic by Inhalation routes).

    Question 2. Ms. Hersman, you state that NTSB must remain a nimble 
agency in a ``fast moving environment.'' The agency was formed over 40 
years ago yet the transportation landscape we face today is 
significantly different. Have you identified areas where this Committee 
should assist NTSB in meeting the nation*s 21st century transportation 
safety needs?
    Answer. NTSB Vehicle Recorder Laboratory ($1 million extra needed 
to catch up)--The laboratory workload has increased steadily over the 
past 5 years. Last year the lab processed over 250 cockpit voice and 
flight data recorders, along with digital cameras, video recordings, 
GPS navigation devices, and cockpit displays and engine monitoring 
devices recovered from crashed aircraft and surface vehicles. The 
calendar year 2008 caseload represents a 215 percent increase from the 
cases received in the same period in 2004. Despite this increased 
workload, staffing of the laboratory has not increased in the last 10 
years. If the first month of 2009 proves to be a good indicator of what 
the year holds, the lab will see an additional 20 percent increase in 
cases over last year, with no increase in laboratory equipment or 
staff.
    Rail Safety Improvement Act of 2008 ($500k extra needed to fulfill 
our responsibilities)--This law requires the Board to provide 
assistance to victims and their families affected by rail passenger 
accidents. To meet this new mandate, the NTSB will have to divert 
investigator funding. The level of assistance needed by victims and 
their families following an accident would not be sustainable with the 
small number of specialists currently comprising our Transportation 
Disaster Assistance team.
    Critical FTE Positions Listed in Priorities--(approximately $210k 
per employee)--The NTSB has several critical staffing needs. These are: 
Structural Mechanics Analyst, Marine Safety Investigator, Aviation 
Maintenance Investigator, Aircraft Performance Engineer, Pipeline 
Investigator--SCADA Systems, Rail Investigator--Mechanical Systems, 
Study Manager--Statistician, Meteorologist, Air Safety Investigator--
Region, Contract Specialist.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                       Hon. Deborah A.P. Hersman

    Question 1. This Committee and its members have long enjoyed a 
close and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing?
    Answer. Yes, they can. I would ask that all such requests be 
directed to the NTSB's Office of Government Affairs. We will work to 
provide timely technical assistance and to support the Committee's 
drafting efforts.

    Question 2. Having served as a member of the NTSB during the past 5 
years, what do you consider to be your greatest contributions to the 
Board?
    Answer. By nature, I am a stickler for precision, and I ask a lot 
of questions. Because of these traits, I often placed demands on staff 
to improve our work products. A collateral result of that effort was a 
rise in expectations by other Board Members and an increase in their 
level of engagement with the work and goals of the agency.

    Question 3. What will be your guiding principles or philosophies in 
leading the Board as Chairman, if confirmed?
    Answer. As an independent agency charged by Congress to highlight 
ways to improve transportation safety, the NTSB often has the unique 
opportunity to lift the curtain on weaknesses in transportation safety 
systems designed and promoted by other entities. However, because of 
this position, it is imperative that the NTSB carefully protect its own 
reputation for fairness and precision. Therefore, the principles that 
will guide me in my leadership of the Board would be integrity, 
accountability, and credibility. I believe it is the Chairman's role to 
insist that staff and Board members work by those principles at all 
times.

    Question 4. What, if anything, do you hope to change at the Board 
in your role as Chairman?
    Answer. My top priority would be to provide our staff with the 
resources they need to complete our accident investigation reports with 
the same level of precision, but in a more timely manner.

    Question 5. What type of relationship do you believe is appropriate 
between NTSB and other transportation agencies? What actions will you 
take in an effort to facilitate such relationships?
    Answer. The NTSB is authorized by Congress under a framework 
consciously designed to possess some inherent tension between the NTSB 
and other transportation agencies. Because our mission is to determine 
the probable cause of the accidents and make recommendations for 
improvements, we must point out weaknesses in the system. At the same 
time, it is important to work with other agencies to share information 
and facilitate improvements if we can. Therefore, I will work to ensure 
that the communication between the NTSB and other transportation 
agencies is professional, candid, and where necessary, critical of 
flaws, at both the management and staff levels. We will continue our 
endeavor to achieve the right balance of cooperation with regulatory 
agencies while maintaining our independence from them.

    Question 6. The largest numbers of transportation-related 
fatalities are on our Nation's highways. And while fatalities have 
decreased significantly over the past couple years, there is still work 
to be done. What do you believe the Board's role should be with respect 
to highway safety?
    Answer. We have scores of open recommendations in the area of 
highway safety addressing trucks, buses, highway design, training, etc. 
However, we have placed a special emphasis on some of those 
recommendations on our Most Wanted List of Safety Improvements because 
we know that fatalities on our Nation's highways can be reduced if 
these recommendations are implemented. These include mandatory seat 
belt use, hard-core drinking driver countermeasures, the use of age-
appropriate and size-appropriate child safety seats, and prohibiting 
novice drivers from using wireless devices. We have worked at the state 
level to encourage passage of laws in these areas, and as Chairman, I 
would work to ensure that these efforts vigorously continue.

    Question 7. What actions, if any, will you initiate to help spur 
agencies to be more responsive to the NTSB's ``Most Wanted'' list of 
safety recommendations or to help spur more timely implementation of 
those recommendations that they do agree to adopt?
    Answer. The NTSB does not have regulatory authority or grant-making 
authority, so it must rely on it power of persuasion to promote 
implementation of these safety recommendations. We accomplish this 
through education, outreach, and advocacy. I would like to see the NTSB 
improve the ``marketing'' of our recommendations by packaging them in a 
way that is more understandable to our constituencies.

    Question 8. What do you consider to be the most critical 
recommendation on the Most Wanted List that awaits agency response?
    Answer. The most critical recommendations are those that address 
the issue of fatigue. While many other issue areas on our Most Wanted 
List require huge investment in technology, retooling a fleet of 
vehicles, or years of additional research before they can be 
accomplished, fatigue management is an area in which science and 
research are quite mature. There is widespread acknowledgement that 
effects of fatigue are deadly; what is lacking is the will to address 
the issue in a comprehensive way that is based on science.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                       Hon. Deborah A.P. Hersman

    Question 1. Having served as a member of the NTSB during the past 5 
years, what do you consider to be the greatest challenges facing the 
Board?
    Answer. Timely production of accident investigation reports while 
under a heavy workload.

    Question 2. What do you consider to be the most important 
management needs at the Board, and how do you hope to address those 
needs?
    Answer. The Office of Personnel Management named NTSB one of the 
Top Ten Places to work in the Federal Government. To build on this 
success, the NTSB needs to revise its Strategic Plan and develop its 
first Strategic Training Plan. These activities are already underway, 
and, if confirmed, I plan to bring them to completion. Further, the 
agency is currently implementing a labor cost accounting system which, 
if confirmed, I will shepherd to completion to ensure that it is 
effectively used as a management improvement tool. Finally, the NTSB 
has made significant progress in implementing the Government Accounting 
Office management review recommendations and has received six 
consecutive unqualified (clean) audit opinions on its financial 
statements. Furthermore, we received our best Federal Information 
Security Management Act scorecard in Fiscal Year 2008. If I am 
confirmed as chairman, I will work to ensure that these improvements 
continue in the future.

    Question 3. Do you believe Federal agencies should be required to 
act on NTSB safety recommendations or do you think the current 
scenario, whereby agencies make their own determinations as to which 
recommendations to act on, is the correct approach?
    Answer. I believe that other Federal agencies should be required to 
respond to our recommendations. At the NTSB, we recognize that Federal 
agencies may not act upon our recommendations for a number of reasons. 
For example, additional research may be needed, additional funding may 
need to be secured, or there may be acceptable alternate methods for 
accomplishing our recommendations. However, I believe it is reasonable 
to require agencies to at least respond to the NTSB about their 
disposition of our recommendations. It is up to others, such as the 
Congress, to determine if the recipients of our recommendations should 
be required to implement them.

    Question 4. What do you believe is the most important action 
Congress could take to improve transportation safety in rural America?
    Answer. The general characteristics of rural roads (narrow, two 
lanes, hills, curves, obstructions near the road edge, etc.) present a 
relatively unforgiving environment that contributes to the dangers 
associated with driving on them. Reduction in rural road accidents and 
fatalities can be approached through improvements of the 
infrastructure, improvements in vehicle design, and enhanced 
communication capability once an accident has occurred. Infrastructure 
improvements would include straightening out curves, reducing hills, 
widening lanes, adding appropriate barriers, and improving lighting. 
Vehicle-based solutions include collision warning equipment, electronic 
stability and rollover control, lane departure warnings, and 
intelligent transportation systems that allow vehicles to communicate 
with other vehicles or with the infrastructure to prevent collisions. 
When accidents do occur, automatic crash notification and improved 
wireless communication would allow first responders to respond to the 
crash more quickly and effectively.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
          to General Charles F. Bolden, Jr. and Lori B. Garver

    Question 1. Sound financial management has long been a weakness at 
NASA. While the agency has attempted to implement an enterprise-wide 
financial accounting system to improve transparency and reporting, this 
has proven to be a challenge. Most recently, the independent accounting 
firm Ernst & Young was contracted to audit NASA's financial statements 
for FY 2007 and FY 2008. The firm disclaimed an opinion because of 
continued significant weaknesses in the agency's financial management 
processes and systems. Essentially, NASA's books were not in sufficient 
order for the independent firm to perform the audit.
    NASA does not have a good track record when it comes to financial 
management. If the agency were failing a financial audit, I would 
highlight that, but the fact of the matter is that NASA can't even 
prepare its financial statements to allow auditors to do their job! 
What specific steps do you intend to take to remedy this situation?
    Answer. We have been made aware that NASA has been unable to obtain 
a clean financial audit for several years. While we are told that the 
agency has been working hard to address this problem, it can and must 
do better. If confirmed, one of our first priorities will be to meet 
with NASA's financial management team to review existing plans to 
address this serious challenge and develop new specific actions where 
required.
    In order to address the underlying problems preventing NASA from 
regularly obtaining an unqualified audit opinion on its financial 
statements, it is our understanding that NASA took a new approach in 
Fiscal Year 2008 toward resolving weaknesses and improving its 
financial reporting. The implementation of these new processes and 
policies are reported to have improved NASA's ability to meet financial 
reporting and internal control standards required for a clean audit. 
NASA has also reported that due to an impending Federal accounting rule 
change, it is closing in on resolving its long-standing property audit 
issue related to proving the historical accounting book values used for 
the Space Shuttle and International Space Station. We have been briefed 
that Ernst & Young and GAO have recently noted NASA's progress in 
resolving accounting issues and improving financial system 
capabilities. Assuring that NASA focuses n this issue will be one of 
our top priorities if confirmed.

    Question 2. NASA provides critical support for the Federal Aviation 
Administration's (FAA) efforts to modernize the National Aerospace 
System (NAS) by conducting basic research through its Aeronautics 
Research Mission Directorate, which supports the development of 
technologies vital to the advancement of the air traffic control system 
and the development of more efficient aircraft and engines through 
various research programs. NASA's budget for aeronautics research has 
been consistently cut over the past 10 years. However, the President's 
FY 2010 provides a slight increase, requesting $507 million compared to 
$499.5 million appropriated in FY 2009. While the Recovery Act provided 
an additional $150 million in FY 2009, this combined total of $650 
million for FY 2009 is still well below the $853 million authorized in 
the NASA Authorization Act of 2008 for aeronautics.
    One of the criticisms of the FAA's implementation of NextGen to 
date has been that the program is not well coordinated among all the 
agencies involved. For example, NASA's aeronautics research budget has 
been reduced substantially in past years, shifting money to other 
agency priorities. This has forced the FAA to devote more of its 
resources to research and development supporting the Next Generation 
Air Transportation System (NextGen). What is your view on NASA's role 
in supporting the FAA's efforts to modernize the NAS through the 
implementation of the NextGen? What steps will you take as NASA 
administrator to better coordinate your agency's efforts to support 
NextGen with the FAA?
    Answer from Charles F. Bolden, Jr. My membership on the FAA 
Management Advisory Council (MAC) gives me first hand knowledge of your 
concern, because the MAC expressed this same concern to the FAA 
Administrator over the past 2 years. I support the goals of the NextGen 
Program, which is intended to give our Nation the advanced and fully 
capable air traffic control system it needs. NASA must clearly play its 
role in this effort, which I understand to currently be focused on 
developing revolutionary concepts, tools, and technologies that will 
enable the mid-term and long-term goals of NextGen. This role is 
complementary to what I believe to be the FAA's role to implement tools 
and technologies in order to meet the near-term needs while leading the 
efforts to address the mid-term requirements.
    The new FAA Administrator, Randy Babbitt, was also a member of the 
FAA MAC at the same time and is a good friend. If confirmed, I will 
work closely with him to ensure NASA-developed capabilities and 
technologies are transitioned to the FAA to address critical needs of 
NextGen. By working closely with NASA's Associate Administrator for 
Aeronautics, I will ensure Aeronautics research activities that are 
required for NextGen receive top priority. I will also continue to 
build strong collaboration with FAA and other members of the Joint 
Planning and Development Office (JPDO).
    In addition, if confirmed as NASA Administrator, I look forward to 
serving on the Senior Policy Committee (SPC), which is chaired by the 
Secretary of Transportation and includes senior representatives from 
the five Federal agencies.

    Question 3. The Small Business Innovation Research (SBIR) and the 
Small Business Technology Transfer (STTR) Program is designed to 
increase the participation of small, high technology firms in the 
Federal research and development endeavor. Agencies that conduct 
scientific research are required to set aside 2.5 percent of their 
research budget for small businesses. NASA's FY 2009 SBIR/STTR funds 
totaled $127 million and the FY 2010 request is $138 million.
    The Committee is currently investigating allegations that at least 
one private company-and perhaps other companies we don't yet know 
about-has been defrauding NASA and the American taxpayers by pocketing 
money they receive through NASA's SBIR and STTR program. The 
investigation is still in progress, but we have already uncovered 
evidence that NASA is not carefully tracking how SBIR and STTR funds 
are spent after they have been awarded. This lack of accountability 
makes it easy for dishonest contractors to game the system. I'm sure 
you will agree with me that NASA can't afford to waste its precious 
research dollars. What steps will NASA take to strengthen oversight of 
contracts it awards through the SBIR and STTR programs?
    Answer. We are both in total agreement that NASA must use its 
research dollars to obtain the most value for the U.S. taxpayer. If 
confirmed, we intend to look closely at the oversight of the SBIR and 
STTR programs in order to ensure that we are taking all appropriate 
steps to maximize the productivity of tax payer funds and eliminate 
waste or fraud.
    NASA, like other Federal agencies, uses the SBIR/STTR programs as 
an important source of technological innovation--something that is 
vital to the performance of NASA's mission and the Nation's prosperity 
and security. If confirmed, we intend to review the processes currently 
in place, and assess how to improve oversight.

    Question 4. Earlier this year the Government Accountability Office 
suggested that NASA should implement more effective oversight and 
management over the development and acquisition of major large-scale 
projects (defined as projects with life-cycle costs of $250 million or 
greater). In its study, the GAO found that costs for major large-scale 
projects increased by an average of 13 percent from the baseline 
estimate, and experienced an average of 11 months delay to their launch 
dates. While the agency has taken steps to improve project management, 
many projects continue to announce delays and increasing development 
costs. How will you improve project management within NASA's programs 
to make sure that projects stay on time and on budget?
    Answer. As you note, the GAO has acknowledged NASA challenges in 
project management. We have been briefed that the GAO has also 
recognized that NASA has developed a credible corrective action plan 
and is implementing that plan. We need to ensure that NASA not only 
meets that plan but continues to measure and improve both cost 
estimating and cost and schedule management.
    We have been told that over the last 2 years NASA has made 
improvements to its policies and practices in order to strengthen 
project performance. NASA policies now include new requirements for 
program cost and schedule estimating. We understand that NASA has also 
taken a positive step in improving management oversight with the 
establishment of a baseline performance review. These monthly reports 
to NASA's senior management have been recognized by the Office of 
Management and Budget and the GAO as a model of improved management. We 
intend to highlight and focus agency attention on projects that are 
predicted to exceed NASA cost and/or schedule baselines, so the agency 
can take preemptive actions to minimize the projects' potential cost 
overruns or schedule delays.
    A serious discussion of cost estimating, program management, and 
cost control will be one of our earliest priorities if confirmed. It is 
critical that the agency both initiate the necessary improvements to 
its cost estimating and program management process, and remain 
disciplined in implementing them.

    Question 5. Project management issues are especially evident when 
looking at NASA's satellite programs. NPOESS \1\ (pronounced EN-POSE) 
in particular has faced a series of delays, failures, and cost 
increases. Much of this is has stemmed from delays and mistakes by 
poorly monitored NASA contractors. How would you address project 
management deficiencies at the agency especially oversight over 
contractor work?
---------------------------------------------------------------------------
    \1\ NPOESS is a joint mission between NASA, NOAA, and the 
Department of Defense to provide next generation weather and climate 
observing capabilities.
---------------------------------------------------------------------------
    Answer. We agree that better project management is needed on the 
cutting-edge technical work that is done at NASA, particularly because 
Earth Science missions are increasingly being used to improve weather 
forecasts, climate prediction, and to provide a solid foundation for 
policy decisions made by the President and Congress. Both NASA and DoD 
have been adversely impacted over the past decade from the steady 
erosion in the Nation's ability to provide technologically advanced 
instruments within schedule and budget.
    We have read a recent independent analysis of NPOESS that concludes 
that a major problem with the program to date has been the fact that 
the procurements have not been managed within an experienced space 
acquisition organization. The report also noted that NASA could provide 
the necessary expertise. We concur with this assessment and find the 
recommendations well developed and worthy of serious consideration. We 
also understand that there is currently a review of the NPOESS program 
being led by the Executive Office of the President. Once a decision is 
made on the future management structure of the NPOESS program as a 
result of that review, we will work diligently to fulfill the role 
assigned to NASA.
    We take very seriously the need for sustained vigilance in contract 
management as we develop our space missions, along with the need for 
close coordination between NASA and private industry to assure that the 
talents and skills both within and outside the government are brought 
to bear on the Nation's problems in a more effective and efficient 
fashion. There are various opinions as to how and why NPOESS has found 
its way to its current state. If confirmed we will look to meet with 
you and your staff to fully understand your concerns, to review the 
problems and challenges facing the NPOESS program, and to review the 
recommendations that will result from the review cited above by the 
Executive Office of the President.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
           General Charles F. Bolden, Jr. and Lori B. Garver

    Question 1. Scientists now know much about the dangers of global 
warming and rising sea levels thanks to NASA's support for Earth 
Science missions. Many of NASA's greatest contributions to science and 
society have in fact come from unmanned Earth Science missions that do 
not always capture the headlines in the same way as human space flight.
    I am pleased that President Obama's NASA FY2010 budget request also 
recognizes the importance of harnessing the Nation's space capabilities 
to learn more about planet Earth. How will you help ensure the 
continued success of NASA's Earth Science missions?
    Answer from Charles F. Bolden, Jr. As the Commander of ATLAS I, 
NASA's first ``Mission to Planet Earth'' flown on the Space Shuttle, I 
am personally well aware of the benefit that the vantage point of space 
can bring to our study of the Earth. Lori and I have discussed this, 
and we both think a critical component for the continued success of 
NASA's Earth Science missions will be to ensure funding for priority 
missions identified in the 2007 Earth Science Decadal Survey. The 
Decadal Survey recommendations include completing the missions in 
development, initiating new missions, and continuing aggressive 
technology development, airborne science research, increase funding for 
research & analysis (R&A), and new information systems programs. 
Related to this work will be our efforts to enhance our cooperation 
with NOAA's National Geodetic Survey to find synergies in our present 
efforts and get more ``bang for the buck'' from our individual 
projects.
    As with any cutting edge science, the unknown is not known until 
you try to accomplish the task. We will encourage and give support to 
scientists at NASA, in academia, and in industry. We will work to 
complete our current Earth Science missions under development, operate 
those currently gathering data, and accelerate new missions where 
possible, always emphasizing safety and mission success.

    Question 2. New Mexico is home to NASA's White Sands Test Facility 
which for many years has supported the Space Shuttle program as an 
alternate landing site and key place for developing and testing 
propulsion systems.
    You are no doubt aware of White Sands' capabilities and 
contributions to fulfilling NASA's mission ``to pioneer the future in 
space exploration, scientific discovery, and aeronautics research.''
    Yet with the retirement of the Shuttle, the role of White Sands 
Test Facility's personnel and infrastructure for future NASA activities 
is not yet defined. What role do you foresee for the White Sands Test 
Facility under your leadership at NASA?
    Answer. As we discussed briefly during our confirmation hearing, 
White Sands Test Facility (WSTF) offers support to the Space Shuttle 
program. Specifically, NASA uses WSTF to test the Space Shuttle's 
orbital maneuvering and reaction control subsystems. These systems use 
so-called hyperbolic propellants, which are highly volatile and require 
special handling.
    As the Space Shuttle is retired, the use of WSTF for refurbishing 
and testing some of its hardware will phaseout. While we cannot commit 
specifically to the future use of any one facility, the capabilities 
resident at White Sands are unique. We look forward to the results of 
the Augustine Review of U.S. Human Space Flight Plans, which will help 
shape NASA decisions on how to move forward after the retirement of the 
Space Shuttle. Now that we have been confirmed, I pledge that we will 
certainly communicate openly and clearly with you and the Committee to 
ensure that we find ways to best utilize NASA's facilities.

    Question 2a. Will you assure me that you will keep this Committee 
fully informed of future plans for White Sands and other NASA 
facilities--if necessary, more frequently than the agency's biannual 
Workforce Transition Strategy updates?
    Answer. Our people and our facilities are NASA's most valuable 
assets, and we intend to continue to focus on best utilizing these 
assets to accomplish NASA's mission. We commit that, under our 
leadership, the NASA team will be focused on providing you, other 
Committee members, and your staffs with frequent updates and 
information on NASA's plans, in support of Committee requirements.

    Question 3. New Mexico has a proud heritage of space exploration 
dating back to Robert Goddard's early rocket experiments in the 1920s. 
Today, New Mexico will invest $200M to develop Spaceport America and 
spur the growth of the commercial space industry. Spaceport America 
construction began last month. New Mexico is also a strong supporter of 
initiatives such as the Centennial Challenges and the X Prize.
    Given the NASA and commercial space assets in New Mexico, what 
opportunities do you envision for future NASA collaboration with 
Spaceport America and New Mexico? What opportunities do you anticipate 
for continued NASA support for space-related research and development 
in New Mexico? NASA Administrator Mike Griffin visited New Mexico to 
address the X-Prize Cup Summit in 2006. Will you consider visiting New 
Mexico's NASA and commercial space facilities during your tenure?
    Answer. NASA will be looking at how to continue to work with 
industry and entrepreneurs to enable them to produce new technologies 
and services. The Spaceport America facility or other organizations in 
New Mexico may play a key role in establishing these partnerships and 
making them work for the taxpayer. In addition, NASA's White Sands Test 
Facility may offer opportunities for future partnerships between 
Spaceport America for field-testing new government or commercial flight 
systems. We understand that the relationship between NASA and New 
Mexico over the past few years has grown, with NASA holding 
competitions as part of its Centennial Challenges Program at the Las 
Cruces airport and Holloman Air Force Base. And, we understand that on 
its own initiative, Spaceport America is building launching/landing 
pads that could be used, beginning this summer, by Lunar Lander 
Challenge teams for flight attempts or test flights as part of NASA's 
Centennial Challenges Program.
    Now that we have been confirmed, we look forward to working with 
you in this area, and visiting New Mexico and its space infrastructure 
and facilities.

    Question 4. NASA's support of the commercial space industry has 
been successful in attracting new industry participants, driving 
innovation, and lowering the cost of access to space. How will you work 
to promote commercial space initiatives?
    Answer. As we discussed during our confirmation hearing, we are 
strong supporters of commercial and entrepreneurial-to-government 
partnerships, and we look forward to exploring additional partnership 
opportunities across the Agency. In many cases, the government can be a 
great incubator of ideas, often providing the spark that is needed to 
encourage commercial and entrepreneurial ventures in areas such as 
commercial space transportation. NASA's Commercial Crew and Cargo 
Program, its associated funded and unfunded Commercial Orbital 
Transportation Services (COTS) partners, and the Commercial Resupply 
Services (CRS) contracts are good examples of successful industry-
government partnerships. We also understand that NASA has undertaken 
efforts to make it easier for new entrants in the launch vehicle arena 
to compete by providing support for launcher development and by easing 
restrictions on demonstrated flight history.
    These partnerships for space transportation should be a first step 
toward making NASA an organization that works with the budding 
commercial space industry in the same way that NASA's parent 
organization, the National Advisory Committee for Aeronautics (NACA), 
encouraged the development of the American aviation industry. NASA must 
find ways to stimulate those outside of the government who have ideas 
for new technologies or new services, and need opportunities to prove 
their concepts or demonstrate their capabilities. Accordingly, now that 
we have been confirmed, we look forward to exploring ways in which NASA 
can further encourage these new industries and would communicate with 
you to hear your ideas and concerns as we progress.

    Question 5. General Bolden, you state in your testimony that the 
United States can build upon ``our hard-earned world technological 
leadership or [cede] it to others who are working vigilantly to push 
the frontiers of space.'' I believe American leadership is already 
eroded in the area of space launch. America went from being the No. 1 
Nation in commercial space launch to having only one commercial launch 
in 2006. How should NASA help ensure that America's commercial space 
launch program is competitive with international rivals in Russia and 
Europe that currently dominate the market?
    Answer. In my experience, I have seen NASA use U.S. commercial 
space-launch capabilities and services to the maximum practical extent 
for its mission. Continuing in this way should help maintain a stable 
demand for these services. But, I agree that NASA should do more. I 
understand that the Agency has initiatives in place to enable new 
entrants to the medium-class launch services arena to make an improved 
business case. This includes changes in the NASA Launch Services (NLS) 
contract to allow new vehicles with no previous flight history to 
participate in the competition. Under the NLS contract, companies may 
propose new launch service capabilities during ``on ramp'' 
opportunities, which occur every February and August. Space Exploration 
Technologies' Falcon-9 vehicle is an example of an emerging launch 
vehicle that has taken advantage of this opportunity.
    Also, I understand that several companies have asked NASA for 
support in the development of their vehicles, and the Agency has issued 
two Space Act Agreements (SAAs) with companies to provide that support. 
I would not be responding to your question fully if I did not mention 
that a significant contributor to the falloff in U.S. commercial launch 
is the stringent limitations imposed by ITAR, INKSNA, and other 
restrictive laws relating to technology transfer and intellectual 
property application/utilization. We must work with the Congress, the 
Departments of State, Commerce, and Defense to find more reasonable 
ways to protect our technical and intellectual expertise and insure our 
national security without adversely affecting the competitiveness of 
our commercial launch industry as we currently do.
    I believe these efforts should help U.S. launch providers, and 
understand that more detail will be provided in NASA's upcoming report 
to Congress on small- and medium-class launch services.

    Question 6. Landsat data from thermal infrared sensors (TIRS) are a 
valuable tool to measure and monitor consumptive water use in New 
Mexico and other western states. I have heard from water managers who 
are concerned that such a sensor may not be included with the Landsat 
Data Continuity Mission (LDCM) launch in 2012. If confirmed, will you 
address concerns raised about losing this valuable scientific tool for 
the conservation, development, and management of water resources in the 
West?
    Answer. During our preparation briefings we were informed that NASA 
is working to develop the Thermal Infra-Red Sensor (TIRS) and to have 
it ready in time for flight on the Landsat Data Continuity Mission 
(LDCM), and that NASA just completed a Preliminary Design Review for 
TIRS. The TIRS development schedule remains very challenging, but we 
understand the agency is optimistic that the instrument development 
timeline syncs up with the LDCM schedule. The FY2010 budget request 
carries TIRS development within the LDCM budget line. If confirmed, we 
will work with OMB and the Congress to ensure NASA maintains the flight 
of TIRS on LDCM as a high priority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
           General Charles F. Bolden, Jr. and Lori B. Garver

    Question 1. In 2007 the National Academy of Sciences identified 
CLARREO project as an indispensable new mission for the next decade. 
Since we are likely to spend hundreds of billions of dollars on carbon 
reduction, it is imperative that we have a system to precisely measure 
greenhouse gases. For 2010--2013, the CLARREO mission was ranked as a 
top priority, however there is no funding included in the FY10 budget 
to start this mission, and no real significant funding in the current 
run out until FY13. Can you explain why none of the extra FY08 or FY09 
Earth Science funding has been committed to CLARREO, and why NASA is to 
a degree disregarding the Decadal Survey recommendations.
    Answer. Earth and climate science are a central priority for the 
Obama administration, and we intend for it to be a priority for NASA. 
As you indicate, the measurement of greenhouse gases in our atmosphere 
is a critical subject for our Nation and the world. We intend to use 
recommendations of the decadal survey for Earth Science, in 
coordination with national priorities set by the Administration and 
Congress, to determine the most efficient and cost effective vehicle to 
obtain peer reviewed technical data for use in these critical policy 
decisions. We cannot presently provide an answer as to why no 
additional FY08 and FY09 funding was committed to CLARREO. We 
understand that CLARREO is one of the Tier-1 missions in the decadal 
survey and as such, it will receive the agency's close attention.
    If confirmed, we look forward to working with you as NASA defines 
its plans for CLARREO and works to improve our Nation's systems to 
accurately measure greenhouse gases.

    Question 2. Since NASA Langley is the primary center for aerospace 
research, isn't it appropriate for NASA to designate Langley as the 
``Green Aviation Lead'' as the U.S. strives to get ahead of the curve 
in next generation aviation design?
    Answer. We believe it is critical that NASA have strong and focused 
investments in the development of revolutionary concepts and 
technologies to reduce environmental impacts from aviation. If 
confirmed, we will work to ensure that NASA's research activities for 
Green Aviation are comprehensive. Green Aviation can only be achieved 
when we address this challenge from the entire system perspective. This 
includes addressing vehicle technologies, their efficient operations, 
and associated safety issues. We understand NASA currently addresses 
Green Aviation challenges through five programs in NASA Aeronautics: 
Fundamental Aeronautics Program, Airspace Systems Program, Aviation 
Safety Program, Integrated Systems Research Program, and Aeronautics 
Test Program. NASA's Langley, Ames, Dryden, and Glenn Research Centers 
all provide critically important skills and facilities that are 
required to address Green Aviation challenges from the systems 
perspective. NASA Aeronautics needs the unique skills, facilities, and 
capabilities residing at all four research centers to work on 
technically challenging aeronautics objectives.

    Question 3. The COTS program--Commercial Operations to Station--has 
played a major role in revitalizing the commercial space sector in the 
United States. Will you sustain, embed or expand NASA's role in COTS 
and in procuring commercial space craft, rocket and space craft 
launches?
    Answer. As we discussed during our confirmation hearing, we are 
strong supporters of commercial and entrepreneurial-to-government 
partnerships, and we look forward to exploring additional partnership 
opportunities across the Agency. In many cases, the government can be a 
great incubator of ideas, often providing the spark that is needed to 
encourage commercial and entrepreneurial ventures in areas such as 
commercial space transportation. NASA's Commercial Crew and Cargo 
Program, its associated funded and unfunded Commercial Orbital 
Transportation Services (COTS) partners, and the Commercial Resupply 
Services (CRS) contracts are good examples of successful industry-
government partnerships. These partnerships serve as models for other 
NASA-commercial sector partnerships.
    We understand that NASA's currently-funded COTS and CRS partners 
both continue to make progress toward demonstrating their capabilities. 
If confirmed, we look forward to continuing to work with these 
partners.
    We also understand that NASA has undertaken efforts to make it 
easier for new entrants in the launch vehicle arena to compete by 
providing support for launcher development and by easing restrictions 
on demonstrated flight history. For example, Space Exploration 
Technologies' Falcon-9 vehicle is an emerging launch vehicle that has 
taken advantage of this opportunity. Accordingly, if confirmed, we look 
forward to exploring ways in which NASA can further encourage the 
development of new launch services.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                     General Charles F. Bolden, Jr.

    Question. This Committee and its members have long enjoyed a close 
and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing?
    Answer. If confirmed, Lori and I assure you that under our 
leadership the NASA team will be focused on providing coordinated 
technical and legal expertise upon request to all Committee Members and 
their staff.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                     General Charles F. Bolden, Jr.

    Question. South Dakota does not have a major NASA research facility 
but we do have an important asset for Earth observations and research 
in the EROS data center. This center, which is under the U.S. 
Geological Survey, primarily collects and analyzes data from the 
Landsat 5 and 7 satellites. As NASA designs and launches Landsat 8, it 
is critical that this satellite include the thermal infrared sensor.
    Western states and western water managers use data from Landsat 5 
and 7's thermal infrared sensors to measure and monitor consumptive 
water use, particularly agricultural water use, which is critical to 
improving water management activities. Congress has provided funds to 
ensure thermal infrared sensor is launched as part of Landsat 8, yet I 
understand that NASA continues to consider other alternatives. Can I 
get your commitment that you will work with Congress and the 
Administration to include the thermal infrared sensor on the planned 
December 2012 launch of Landsat 8?
    Answer. Lori and I are told that NASA is working to develop the 
Thermal Infra-Red Sensor (TIRS) and to have it ready in time for flight 
on the Landsat Data Continuity Mission (LDCM, sometimes referred to as 
Landsat 8). In briefings to us on this subject, we have learned that 
NASA just completed a Preliminary Design Review for TIRS. The TIRS 
development schedule remains very challenging, but we understand the 
agency is optimistic that the instrument development timeline syncs up 
with the LDCM schedule. The FY2010 budget request carries TIRS 
development within the LDCM budget line. If confirmed, we will work 
with OMB and the Congress to ensure NASA maintains the flight of TIRS 
on LDCM as a high priority.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Roger Wicker to 
                     General Charles F. Bolden, Jr.

    Question. NASA has prioritized a major information technology 
transformation, referred to as ``I3P''. This will provide the agency a 
much needed avenue to realize significant cost savings, provide process 
improvements, create program efficiencies, and yield continuity and 
collaboration. NASA's Chief Information Officer will oversee the 
implementation of I3P. At this time, NASA's CIO position is vacant. I 
encourage you, as Administrator, to designate a CIO who will support 
and advance the roll out of I3P and the NASA Enterprise Data Center 
contract in a timely and responsible manner and to provide regular 
progress reports to you that can be relayed to the Committee. In this 
regard, would you commit to this Committee to guide this program and 
provide strong leadership via a CIO who will make I3P and the NASA 
Enterprise Data Center a top priority?
    Answer. If confirmed, I will be committed to designating a CIO for 
NASA as soon as is practicable. I think it is clear that a top priority 
for this person will be the implementation of an effective IT 
infrastructure via the I3P. NASA must find ways to yield cost savings, 
efficiencies, and improved collaboration through the implementation and 
operation of an integrated IT infrastructure. In addition, NASA must 
enable improved information technology security in consonance with 
policies and procedures developed by the Administration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                     General Charles F. Bolden, Jr.

    Question 1. NASA is facing many challenges regarding its future 
direction and ability to fulfill the many missions within its 
portfolio. What, in your view, are the most pressing challenges, and 
how do you intend to begin addressing them? (Understanding that in the 
realm of human spaceflight, you are likely not able to comment in 
detail pending the outcome of the Augustine Review.)
    Answer. I believe that our Nation, not just NASA, is, in the words 
of Dr. Shirley Jackson, President of Rensselaer Polytechnic Institute, 
facing a ``Quiet Crisis'' that stems from a gap between the Nation's 
growing need for scientists, engineers, and other technically skilled 
workers, and its production of those same people. Therefore, the Nation 
needs to decide if it wants to build upon its hard-earned position of 
technological leadership, or cede this position to others who are 
working vigilantly to push the frontiers of space. For its part, NASA 
must take on the following tasks in order to lead.

        a. NASA must safely bring the Shuttle Program to a close.

        b. NASA must build upon its investment in the ISS, a unique 
        national laboratory, and a bridge to human exploration beyond 
        low Earth orbit.

        c. NASA must accelerate, with a sense of urgency, the 
        development of a next generation launch system and human 
        carrier to enable America and other space- faring nations of 
        the world to execute the mission of expanding our human 
        exploration beyond low Earth orbit.

        d. NASA must enhance its capability and organic expertise to 
        provide credible scientific, technological, and engineering 
        leadership to help the Nation better understand our Earth 
        environment.

        e. NASA must inspire the rising generation of boys and girls to 
        become men and women committed to increasing knowledge in the 
        fields of science, technology, engineering and math (STEM) by 
        making NASA and its programs relevant to the American public.

    I believe that we face a crisis of opportunity today. Ultimately, 
we can either confront the aforementioned challenges of technological 
leadership that ensure our Nation's safety and security, or cede that 
leadership and prestige to other nations. If confirmed, I will need 
your support and assistance in helping turn these challenges into 
opportunities.

    Question 2. What were some of the factors which convinced you to 
agree to accept this appointment as NASA Administrator?
    Answer. I believe that public service--to our nation, to our fellow 
citizens, and to our children--is both an opportunity and a 
responsibility. Serving in the role of Administrator, if confirmed, 
will be a significant opportunity to contribute to our Nation's 
technological, scientific and educational future. It will also be a 
serious responsibility, shepherding our Nation's civil space agency 
through the challenging years ahead. I have always told others that you 
can't complain about problems if you are not willing to get into the 
fray and find solutions. I want to re-inspire a sense of excitement 
about exploration in our Nation and maximize the benefit we gain from 
the International Space Station. I have been deeply encouraged by the 
President's commitment to space and the inspiration he has said he felt 
during our Nation's moon landings. I believe that NASA can play a 
critical role in helping us better understand Earth's environment, and 
that it can increase its efforts to enhance and strengthen our 
aeronautics program. I feel that these challenges are important for the 
nation, and that I can contribute to addressing them as NASA 
Administrator.

    Question 3. As you prepare to undertake this very important 
assignment, what priorities have you set for yourself, in terms of 
establishing your management style and approach at NASA?
    Answer. a. I employ a participatory management style in which I lay 
out overall objectives and goals, set the tone for continuous emphasis 
on safety in all we do, and step back to allow my subordinates to do 
their jobs.
    b. Among my earliest priorities are the following:

        i. Safely and efficiently fly out the remaining flights 
        currently manifested on the Space Shuttle.

        ii. Promote broader use of ISS as a national laboratory by 
        industry, academia, other government agencies, and 
        entrepreneurial researchers.

        iii. Meet with ``Captains of Industry'' (e.g., aerospace CEO's 
        and entrepreneurial developers) to determine how NASA is viewed 
        in the aerospace community and help me lead the Agency to 
        refocus its efforts where needed.

        iv. Meet with the heads of other Federal agencies (e.g., DOE, 
        DOT, FAA, Department of Education, NSF, and DARPA) to identify 
        potential areas of collaboration to reduce costs, reduce/
        eliminate duplication of effort, and enhance support of basic 
        research in the critical areas of aeronautics, science, 
        technology, and bio-medical science.

        v. Personally engage with the American public (e.g., schools, 
        service organizations, businesses, and industry) to inspire a 
        reemergence of willingness to try new methods of research and 
        exploration.

    Question 4. As an astronaut, you have spoken to many groups, 
organizations and students throughout the country--and the world, for 
that matter. Based on that experience, what do you believe is the best 
way to help people see the role and value of NASA programs in their 
lives?
    Answer. Nothing is better than having NASA astronauts, engineers, 
and scientists go into schools, universities, and industry to talk 
about the work we do and the discoveries that have come from that work. 
NASA must also utilize the aeronautics and biomedical industries to 
help communicate the relevance of NASA to their success and financial 
gain by providing examples of innovations in their commercial products 
that had their origins in NASA research or exploration. Examples 
include tilt rotors, aerodynamically shaped propellers, winglets on 
commercial passenger jets, Computer Aided Tomography, Magnetic 
Resonance Imaging, and the DeBakey Ventricular Assist Device.

    Question 5. In meetings and conversations with me, your 
predecessor, Dr. Griffin, remarked about the unique nature of the 
Michoud Assembly Facility, in terms of the kinds of manufacturing and 
assembly work for which that facility is uniquely suited. Can you 
provide your views, now or for the record, regarding the capabilities 
of the Michoud Assembly Facility and its planned or potential role in 
future space systems development and manufacturing?
    Answer. The Michoud Assembly Facility (MAF) has long demonstrated 
great capability for manufacturing large human space vehicles, with a 
heritage in manufacturing going back to Apollo. Today, MAF is NASA's 
primary site for the fabrication of flight hardware for the Space 
Shuttle External Tank, and it is the intended site for various 
components of the Constellation Program. As I understand it, there also 
are efforts underway to find commercial work opportunities at this 
unique facility, about which I look forward to learning. Current and 
future work assignments related to the Agency's next-generation human 
spaceflight vehicles, of course, will depend on the outcome of the 
Review of U.S. Human Space Flight Plans.
    I also must note that, following Hurricane Katrina, the MAF 
workforce demonstrated the highest level of dedication, sacrifice, and 
professionalism as they remained focused on their task, never asking 
for special treatment. In my book, they are truly American heroes.
    I look forward to working closely with Congress, this Committee and 
the Administration to ensure that all of NASA's unique facilities and 
talents are utilized in the best interests of our Nation's space 
program.

    Question 6. In your view, what is the proper balance among NASAs 
major program areas of Science, Exploration, Space Operations and 
Aeronautic Research?
    Answer. Early consultative sessions with the American public, 
industry leaders, independent think tanks and study groups (such as the 
National Academy of Science studies), and recommendations of the 
Augustine Committee will help shape the optimal balance among NASA's 
major program areas. Additionally, we will need to focus on the results 
from the President's announced study concerning National Space Policy 
to determine what our national priorities are and what the proper mix 
of expenditures in funds, infrastructure, and human capital should be 
to accomplish these priorities efficiently, economically, and with a 
heightened sense of urgency.

    Question 7. NASA has prioritized a major information technology 
transformation, referred to as I3P, which will provide the agency a 
much needed avenue to realize significant cost savings, provide process 
improvements, create program efficiencies, and yield continuity and 
collaboration. NASA's Chief Information Officer will oversee the 
implementation of I3P. At this time, NASA's CIO position is vacant. I 
encourage you, as Administrator, to designate a CIO who will support 
and advance the roll out of I3P in a timely and responsible manner and 
to provide regular progress reports to you that can be relayed to the 
Committee. In this regard, I would seek your commitment to guide this 
program and provide strong leadership via a CIO who will make I3P a top 
priority.
    Answer. If confirmed, I will be committed to designating a CIO for 
NASA as soon as is practicable. I think it is clear that a top priority 
for this person will be the implementation of an effective IT 
infrastructure via the I3P. NASA must find ways to yield cost savings, 
efficiencies, and improved collaboration through the implementation and 
operation of an integrated IT infrastructure. In addition, NASA must 
enable improved information technology security in consonance with 
policies and procedures developed by the Administration.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                             Lori B. Garver

    Question. This Committee and its members have long enjoyed a close 
and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing?
    Answer. If confirmed, Charlie and I assure you that under our 
leadership the NASA team will be focused on providing coordinated 
technical and legal expertise upon request to all Committee Members and 
their staff.

     Response to Written Question Submitted by Hon. John Thune to 
                             Lori B. Garver

    Question. South Dakota does not have a major NASA research facility 
but we do have an important asset for Earth observations and research 
in the EROS data center. This center primarily collects and analyzes 
data from the Landsat 5 and 7 satellites. As NASA designs and launches 
Landsat 8, it is critical that this satellite include the thermal 
infrared sensor.
    Western states and western water managers are increasingly using 
data from Landsat 5 and 7's thermal infrared sensor to measure and 
monitor consumptive water use, particularly agricultural water use, 
which is critical to improving water management activities. Congress 
has provided funds to ensure thermal infrared sensor is launched as 
part of Landsat 8, yet NASA continues to consider other alternatives. 
Can I get your commitment that you will work with Congress and the 
Administration to include the thermal infrared sensor on the planned 
December 2012 launch of Landsat 8?
    Answer. Charlie and I are told that NASA is working to develop the 
Thermal Infra-Red Sensor (TIRS) and to have it ready in time for flight 
on the Landsat Data Continuity Mission (LDCM, sometimes referred to as 
Landsat 8). In briefings to us on this subject, we have learned that 
NASA just completed a Preliminary Design Review for TIRS. The TIRS 
development schedule remains very challenging, but we understand the 
agency is optimistic that the instrument development timeline syncs up 
with the LDCM schedule. The FY2010 budget request carries TIRS 
development within the LDCM budget line. If confirmed, we will work 
with OMB and the Congress to ensure NASA maintains the flight of TIRS 
on LDCM as a high priority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                             Lori B. Garver

    Question 1. NASA is facing many challenges regarding its future 
direction and ability to fulfill the many missions within its 
portfolio. What, in your view, are the most pressing challenges, and 
how do you intend to begin addressing them? (Understanding that in the 
realm of human spaceflight, you are likely not able to comment in 
detail pending the outcome of the Augustine Review.)
    Answer. I believe three significant challenges facing NASA are 
mission safety, maintaining a first-class workforce, and closing the 
gap in human spaceflight. I will briefly review my thoughts on those 
subjects here.
    With respect to safety, it is well understood that much is riding 
on each and every mission that NASA conducts. Each mission represents a 
tremendous investment in money, time and human ingenuity to bring about 
the desired results. Given the visibility and importance of NASA's 
activities, it is critical that the agency achieve and maintain a 
strong commitment to safety. With the impending retirement of the Space 
Shuttle, safety will require an ever more heightened level of 
attention.
    NASA's workforce is the agency's greatest asset; this includes both 
NASA civil servants and its support contractors. These are highly 
educated and skilled people, with a tremendous history of 
accomplishment, and a desire to use those skills to the betterment of 
their country. An important challenge for NASA as it transitions away 
from the shuttle program will be to ensure that it retains as much of 
its workforce as possible. Following the retirement of the Space 
Shuttle the country will be reliant on Russia to launch its own 
astronauts to the International Space Station beginning sometime in 
2011. Another key NASA challenge today is to replace the Space Shuttle 
with a reliable space transportation system. If the United States hopes 
to maintain a global leadership position, part of that will mean 
closing the gap in human spaceflight as soon as possible.
    Lastly, I would like to address a theme that was prevalent at our 
hearing: making NASA relevant to the American public and inspiring 
future generations of scientists and engineers. In all the things that 
NASA does it must be sure that it is contributing to broader national 
goals, helping find solutions to problems that are facing our Nation 
right now, and in so doing making it clear to children and to young men 
and women that a career in space is a career of contribution and 
service to our country.

    Question 2. What were some of the factors which convinced you to 
agree to accept this appointment as NASA Deputy Administrator?
    Answer. I was raised with the belief that public service is a duty 
and an honor. While I have very much enjoyed working in the private 
sector, it was a privilege to be asked by the President to serve as the 
Deputy Administrator of NASA. I believe that NASA is a critical 
national resource and an investment in the country's future. I look 
forward to helping lead the agency if confirmed.

    Question 3. Your very impressive record demonstrates that you have 
a solid grasp of the policy and ``political'' realities of the Nation's 
space program, and a sense of perspective developed over many years. 
How do you see employing that experience and sense of history in 
fulfilling your responsibilities as Deputy Administrator?
    Answer. Given the opportunity, I would like to utilize my policy 
background to help lead NASA to enhance its contributions to critical 
national objectives, such as it has done historically. While I 
recognize the Nation has many priorities at the time, it is my view 
that NASA can and should work with other agencies, the private sector 
and the international community to help address today's national and 
global challenges.

    Question 4. Given that background, what can you tell the Committee 
about your own views on the long-range goals and future direction in 
which the country's civil space programs should be going?
    Answer. I view NASA as one of the key government agencies that is 
an investment in America's future. If confirmed, my goals for NASA 
include continued investment in aeronautics, Earth and space science, 
and human spaceflight. I believe that NASA should serve as an 
innovative R&D agency that develops technologies to be utilized by the 
private sector. I believe that space exploration is not only an 
investment in our future, but serves the very tangible benefits of 
economic return and technological leadership.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
